<html>
<title> - LEGISLATIVE HEARING ON H.R. 3218, THE HARRY W. COLMERY VETERANS EDUCATIONAL ASSISTANCE ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
    LEGISLATIVE HEARING ON H.R. 3218, THE HARRY W. COLMERY VETERANS 
                   EDUCATIONAL ASSISTANCE ACT OF 2017

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         MONDAY, JULY 17, 2017

                               __________

                           Serial No. 115-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                              _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-371                   WASHINGTON : 2018              
 
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                         Monday, July 17, 2017

                                                                   Page

Legislative Hearing On H.R. 3218, The Harry W. Colmery Veterans 
  Educational Assistance Act of 2017.............................     1

                           OPENING STATEMENTS

Honorable David P. Roe, Chairman.................................     1

                               WITNESSES

Honorable Kevin McCarthy, (Majority Leader), U.S. House of 
  Representatives, 23rd Congressional District; California.......     3
Honorable Mark Takano, U.S. House of Representatives, 41st 
  Congressional District; California.............................     5
Honorable Gus Bilirakis, U.S. House of Representatives, 12th 
  Congressional District; Florida................................     6
Honorable Scott Peters, U.S. House of Representatives, 52nd 
  Congressional District; California.............................     8
Honorable Mike Coffman, U.S. House of Representatives, 6th 
  Congressional District; Colorado...............................     8
Honorable Brad Wenstrup, U.S. House of Representatives, 2nd 
  Congressional District; Ohio...................................     9
Honorable John Rutherford, U.S. House of Representatives, 4th 
  Congressional District; Florida................................    10
Honorable Jim Banks, U.S. House of Representatives, 3rd 
  Congressional District; Indiana................................    11
Honorable Luke Messer, U.S. House of Representatives, 6th 
  Congressional District; Indiana................................    12
Honorable Paul Cook, U.S. House of Representatives, 8th 
  Congressional District; California.............................    13
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................    14
    Prepared Statement...........................................    28

        Accompanied by:

    Mr. James Ruhlman, Assistant Director for Policy and 
        Procedures, Education Service, U.S. Department of 
        Veterans Affairs
Mr. Patrick D. Murray, Associate Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........    15
    Prepared Statement...........................................    38
Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................    17
    Prepared Statement...........................................    43
Mr. John Kamin, Assistant Director, Veteran Employment and 
  Education, The American Legion.................................    19
    Prepared Statement...........................................    52
Ms. Ashlynne Haycock, Senior Coordinator, Education Support 
  Services, Tragedy Assistance Program for Survivors.............    21
    Prepared Statement...........................................    65

                       STATEMENTS FOR THE RECORD

Honorable Susan Brooks, U.S. House of Representatives, 5th 
  Congressional District; Indiana................................    70
Honorable Raul Labrador, U.S. House of Representatives, 1st 
  Congressional District; Idaho..................................    70
Honorable David McKinley, U.S. House of Representatives, 1st 
  Congressional District; West Virginia..........................    71
Honorable Markwayne Mullin, U.S. House of Representatives, 2nd 
  Congressional District; Oklahoma...............................    72
Honorable Tim Ryan, U.S. House of Representatives, 13th 
  Congressional District; Ohio...................................    72
Honorable Tom Porter, Prepared Statement Only....................    73
Honorable Kristofer Goldsmith, Prepared Statement Only...........    75
Letter to Chairman (AUSN)........................................    83
Captain Edward H. Hill, (USN, Ret.)..............................    84
Scott Crawford...................................................    84
Aleks Morosky....................................................    88
National Guard Association of the United States..................    90
Veterans Education Success (VES).................................    91


    LEGISLATIVE HEARING ON H.R. 3218, THE HARRY W. COLMERY VETERANS 
                   EDUCATIONAL ASSISTANCE ACT OF 2017

                              ----------                              


                         Monday, July 17, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 7:26 p.m., in 
Room 334, Cannon House Office Building, Hon. David P. Roe 
[Chairman of the Committee] presiding.
    Present: Representatives Roe, Bilirakis, Coffman, Wenstrup, 
Radewagen, Bost, Poliquin, Dunn, Arrington, Rutherford, 
Bergman, Banks, Gonzalez-Colon, Walz, Takano, Brownley, Kuster, 
O'Rourke, Correa, Sablan, Esty, Peters.

          OPENING STATEMENT OF DAVID P. ROE, CHAIRMAN

    The Chairman. Good evening, everyone. Thank you for being 
here tonight at this nighttime hearing. As you all know, I try 
to limit these late evenings but I cannot imagine a topic more 
worthy of our attention than ensuring that veterans have the 
education benefits they have earned and deserve.
    I am proud and excited that we are all here to discuss H.R. 
3218, the Harry W. Colmery Veterans Educational Assistance Act 
of 2017, which the Ranking Member and I introduced last 
Thursday with the support of every single Member of this 
Committee. H.R. 3218 and how we got here and where we are today 
is a shining example of how well Congress can and should work 
together.
    This bill is the result of the tireless work of many of the 
VSOs here tonight and the bipartisan efforts of this Committee. 
And I am proud of what we will empower servicemembers, 
veterans, survivors, and dependents to achieve with the 
improvements and enhancements included in this bill.
    This is the first major improvement to the G.I. Bill since 
2011 and it encompasses 17 bills introduced by our colleagues, 
many of whom serve on this Committee, but also Members of this 
body who share this Committee's commitment to the men and women 
who serve. This package includes over 28 provisions and brings 
forward countless enhancements that veterans groups have 
requested for years. This is not a package that comes along 
every day.
    H.R. 3218 has been aptly named after Mr. Harry W. Colmery, 
who is credited with actually writing by hand the first draft 
of the World War II era G.I. Bill. It is appropriate that we 
honor him for his work on this first G.I. Bill decades ago.
    Tonight's package will do a number of things but I want to 
focus on a couple of key improvements. It would eliminate the 
15-year time limit to use G.I. Bill benefits for future 
eligible beneficiaries. Let me repeat that. For the first time 
in the history of the G.I. Bill future beneficiaries will be 
able to carry these benefits with them throughout their lives.
    The bill would provide significant increases in G.I. Bill 
funding for Reservists and Guardsmen, including those who are 
currently serving on orders that do not accrue G.I. Bill 
eligibility, as well as dependents, surviving spouses, and 
surviving dependents; provide 100 percent G.I. Bill eligibility 
for Post-9/11 Purple Heart recipients; and increase 
opportunities for veterans to complete a STEM degree or other 
high technology programs, something I know Leader McCarthy has 
advocated for. And it is a privilege to have him join us here 
tonight.
    The provisions I just mentioned only scratch the surface of 
the benefits that our veterans and survivors will receive under 
this bill. I am also proud that my bill, H.R. 1956, the Caring 
for Families of our Wounded and Fallen Heroes Act, is included 
in this package. This bill would provide additional $200 per 
month in education benefits to surviving spouses and children, 
those of whom do not qualify for the Fry Scholarship. These 
individuals understand all too well what it means to make the 
ultimate sacrifice and it is our duty and honor to provide for 
them as best we can.
    Before I yield to the Ranking Member, I would be remiss if 
I did not give my sincere thanks to the veterans groups, 
especially Student Veterans of America, for helping us make 
this happen. We owe a debt of gratitude to all the veterans' 
service organizations who pushed for this package and stuck it 
out with us every step of this long process while we worked to 
make this the best bill it can be. I commend and thank you 
because we without a doubt would not be sitting here on the 
verge of this historic moment without your efforts.
    I now turn it over to Ranking Member Walz for his 
statement.
    Mr. Walz. Well thank you, Chairman Roe. This really is a 
great night. I think sometimes patting ourselves on the back 
for things, you should not be thanked for what you are supposed 
to do. But I think it is important to understand that 
legislating is never supposed to be easy. And this Committee 
again has proven that we can come together if the goal is a 
unified desire to see the best care and the honoring of our 
commitment to our veterans. And that has happened.
    I also think the way we do business in here, and this is a 
testament to Chairman Roe's leadership, we need to conduct 
ourselves in a manner that is befitting of the sacrifice of 
those who serve in uniform to allow us to self-govern. And this 
Committee comes together. We differ on issues but we do it in a 
manner that is befitting of that. So I am grateful.
    I too would like to thank all the Members of this Committee 
who have put in hard work. Many of their ideas are incorporated 
into this bill. Those veterans' service organizations, as 
mentioned Student Veterans of America, I kind of heard someone 
said they are the new kids on the block. If that is true they 
are pretty quick learners. And they are pretty good at getting 
things done and I am grateful for that. To the American Legion, 
the VFW, and IAVA, once again, holding true to the Vietnam 
Veterans' mantra that one generation of veterans will never 
forget another. I think this is multi-generational in how this 
bill impacts people, so I am grateful.
    To our witnesses today, to the Ranking Member, thank you 
for your active engagement in veteran's issues. Thank you to 
Mr. McCarthy for making this a priority, saying it, and 
following through with actions. We are grateful for that. 
Colonel Cook, as always, welcome back here. You did much good 
sitting on this Committee and you continue to do so. So, we are 
glad to have you here.
    The Chairman mentioned some of the highlights. I would just 
like to thank the Forever Bill, also the name that may stick a 
little bit to this too, is lifting that 15-year gap, 
understanding the reality of what modern warriors look like and 
what it involves to serve this Nation in uniform, whether 
active or in Reserve. It is just smart policy. Honoring those 
Purple Heart recipients, just again smart. And I want to thank 
Mr. Peters for his continuous, since he has been in Congress, 
making sure that they are honored for their commitment.
    And I would also like to say the Guard and Reserve Caucus, 
Mr. Palazzo, my co-chair in that, and all of us who have Guard 
and Reserve soldiers, the issue of the 12304(b) of the call-ups 
under Title 10, that basically created a second class of 
warriors that were out there. I have to tell you, this happened 
on Thursday night. Saturday I was at a welcome back ceremony 
for the 2nd of the 135, the Red Bulls, who have been doing the 
Sinai Mission. And they had not yet heard this. And to tell 
them that they are going to be restored and have their benefits 
that they had earned was just something to behold, to see. And 
the thing that I heard afterwards is working on this together 
for us really means something. It means that, you know, the 
sacrifice and what they did there does show that it matters.
    So thank you all. We have got a little bit of a lift yet. 
We would hope our Senate colleagues will follow our lead, take 
this thing, move it through. And I know the President wants to 
sign this. And I am grateful and once again to the leadership 
for putting this on the calendar, which I think is almost 
unprecedented in guaranteeing us to get this to the floor. On 
behalf of our Nation's veterans, thank you, Mr. Leader. I yield 
back.
    The Chairman. I thank the gentleman for yielding. Before I 
yield to the Committee Members for the provisions included in 
the package, I want to recognize Majority Leader McCarthy for 
five minutes to discuss his provision as included in this bill. 
You are now recognized for five minutes.

         OPENING STATEMENT OF HONORABLE KEVIN MCCARTHY

    Mr. McCarthy. Mr. Chairman, Mr. Ranking Member, and all 
Committee staff. I want to thank you for the opportunity to 
present to you and say a few words in support of the G.I. Bill 
reforms that this Committee will take up this week.
    First Mr. Chairman and to all Committee Members, I want to 
begin by recognizing the positive work that this Committee has 
achieved. This Committee has shown time and again on a 
bipartisan way on how to govern. It is an example for all 
Members and all of our colleagues. You will continue to work on 
a bipartisan basis and lead Congress to deliver on the duty to 
provide veterans better health care and positive post-service 
opportunities. The dynamic here is a model for all of our 
colleagues, as I said, and I look forward to continuing to work 
together on behalf of the men and women who protect and serve 
this country.
    Now chief among the promises we make to the men and women 
who serve is to give them support and resources to obtain an 
education after service. That is the reason why many will at 
times even sign up. Applying the lessons they learn in the 
service to the lessons taught in the classroom is an enrichment 
opportunity that our society benefits from greatly.
    Now the Post-9/11 G.I. Bill has long helped countless 
veterans in educational and career pursuits. But today we are 
on the brink of vast career and work transformation. The rise 
of artificial intelligence and robotics are upending how jobs 
are performed and we have traditionally known them in the past. 
But as we saw with the advent of the ATM, this disruption has 
promised to be a job creator, not a destroyer.
    The challenge before us is securing the right response for 
Americans to get ahead and take advantage of the changes. Now 
news reports have shown and highlighted the skills gap in 
today's workforce. If we just look at the AP headline on the 
May jobs report, it was concise. Jobs data could signal a 
shortage of qualified workers to hire. By 2024 the tech 
industry is expected to add almost 500,000 new jobs to the 
industry. However, many tech employers are looking for 
candidates who have a particular skill set that candidates 
often do not learn in traditional settings. Consequently 
industry employers have turned to non-traditional programs like 
boot camps, nanodegrees, and coding schools to find candidates 
with the necessary skill set.
    The traditional career path is no longer a straight shot. 
These non-traditional technology education models are just part 
of the solution to closing the skill gap. Just ask Alphabet, 
Microsoft, Amazon, Ford, GE, or any other of American's great 
companies and they will tell you of the promise these non-
traditional models hold.
    But currently veterans are unable to apply their G.I. 
education benefits to these courses. My provision in this 
legislation creates a pilot program to provide veterans the 
opportunity and ability to take advantage of these education 
opportunities. Veterans are prime candidates for tech positions 
because of our military discipline, ability to work under 
pressure, and teamwork. Many veterans often learn skills during 
their service and training that could be applied to the tech 
industry.
    The Vet Tech Act enables veterans to enroll in non-
traditional technology courses and programs that are geared to 
getting a job after completion. The provision also provides the 
VA the necessary flexibility to approve these education 
programs while also guarding against abuses. These reforms the 
Committee will consider this week will have a positive impact 
felt by the veterans returning to civilian life. This impact 
will be lifelong. And with the renewed commitment to a career 
preparation, particularly in the technology industry, American 
industry and our veterans stand to lead in the 21st Century.
    I happen to serve in California. I look time and again at 
the number of jobs that are being hired. I look at the number 
of tech education that are helping change with nanodegrees, the 
skill set for the individuals to be able to be there. But when 
I go to them and I meet with veterans and I know their 
background, I know their education, and I know their knowledge 
of what they served when they served in the military, not to be 
able to use a G.I. Bill to get a nanodegree to be hired by some 
of the top companies in this country that are craving them, I 
think it is a travesty and I think it is something that has to 
change.
    That is why I thank you for your work and the work you will 
do this week and I look forward to putting it on the floor and 
getting it done in the next week. And I yield back.
    The Chairman. I thank you, Mr. McCarthy. And I appreciate 
your passion for this and I appreciate your support for forward 
this bill next week. And I know you have places to be so you 
are now excused. Thank you for being here.
    Before we recognize our other colleagues at the witness 
table, I will recognize Committee Members who have provisions 
included in H.R. 3218. Mr. Takano, let us start with you. You 
are recognized for five minutes.

           OPENING STATEMENT OF HONORABLE MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. I want to join my 
colleagues in expressing support for this bipartisan effort to 
secure the G.I. Bill for future generations of veterans.
    The G.I. Bill serves two critical functions. First it is a 
powerful tool for recruiting talented young people into 
military service. As we approach our 16th year of war, 
replenishing our all-volunteer military with patriotic and 
qualified Americans is vital to our mission abroad and our 
safety here at home.
    Second, the G.I. Bill ensures that veterans return home to 
more than just a thank you and a pat on the back. It ensures 
they are given the opportunity to build a rewarding, 
purposeful, and prosperous civilian life.
    This legislation guarantees that the G.I. Bill will 
continue both of these functions for decades to come. And 
importantly, it does so without cutting benefits from anyone 
who is currently serving.
    I want to echo many of the supportive comments we have 
heard this evening and over the last week from Members of 
Congress, as well as the veteran's service organizations that 
play an important role in representing the veteran's community. 
The removal of time restrictions for future G.I. Bill 
recipients, the deserved increases in funding for Reservists 
and Guardsmen, and the additional educational support for 
veterans' families, are all features of this legislation that 
are worth celebrating.
    This bill also incorporates my proposal to permanently 
authorize VA's work-study allowance program and my proposal to 
end the unequal treatment of Reservists and Guardsmen. This 
legislation gives them the same ability as Active duty 
servicemembers to accrue G.I. Bill benefits when they are 
ordered into Active duty to receive medical care.
    But I want to focus my comments on one piece of this 
legislative package that represents a major step forward for 
student veterans. For far too long swarm of predatory, for-
profit schools have exploited the generosity of the G.I. Bill 
and have cheated thousands of veterans out of the education and 
the future they deserve. A 2014 Senate HELP Committee study 
found that eight of the top ten schools receiving Post-9/11 
G.I. Bill money were for-profit institutions. At the time, 
seven of those eight schools were under investigation for 
unethical business practices, including the now defunct ITT 
Technical Institute and Corinthian Colleges. From 2009 to 2015, 
these two schools collected more than $1 billion in veteran's 
benefits. I am pleased that this bill provides relief to the 
thousands of student veterans who were left with non-
transferable credits and a depleted G.I. Bill benefit when 
their school abruptly closes in the middle of a semester. 
Restoring both tuition and housing benefits to these veterans 
for a semester cut short by a school closure is simply the 
right thing to do. And by making this provision retroactive we 
are restoring a measure of justice for the students at ITT Tech 
and Corinthian, as well as others across the country who have 
been left out in the cold by a college that shuts down without 
warning.
    I have advocated for this provision since my first days in 
Congress and I truly appreciate Chairman Roe's and Ranking 
Member Walz' work to include it in this bill. However, this 
bill does not solve the problem of unethical schools preying on 
veterans' benefits. In fact, its inclusion is evidence that 
much more needs to be done so that veterans are never forced to 
seek this type of relief in the first place. The 90/10 
loophole, which allows for-profit schools to count G.I. Bill 
benefits as private funding instead of Federal funding, 
continues to incentivize aggressive recruitment of student 
veterans. That loophole still needs to be addressed. The 
gainful employment borrower defense rules, which the Trump 
administration has put on hold, would finally establish 
oversight and accountability for unethical schools. Those rules 
still need to be implemented. As long as these issues remain 
unresolved, bad actors in the for-profit education industry 
will continue to defraud student veterans and taxpayers out of 
billions of dollars.
    I look forward to working with my colleagues to build on 
the progress we have made on this issue. Though there is no 
question that we still have significant work ahead of us to 
address the challenges facing the veteran's community, but this 
legislation is a milestone worth celebrating and certainly 
worth passing into law. The collaborative nature of this bill 
reflects the spirit of bipartisanship that has made this 
Committee so effective over the past several months. Once 
again, I applaud the Chairman and the Ranking Member for their 
leadership, as well as my colleagues on the Committee who 
contributed to the strength of this legislation. I encourage 
all Members to support this bill and I yield back the balance 
of my time.
    The Chairman. I thank the gentleman for his comments and I 
thank the gentleman for yielding. Mr. Bilirakis, you are 
recognized for five minutes.

          OPENING STATEMENT OF HONORABLE GUS BILIRAKIS

    Mr. Bilirakis. Thank you very much, Mr. Chairman. And I 
want to thank the Ranking Member as well. I would like to thank 
my colleagues from both sides of the aisle for all their hard 
work in drafting this important and bipartisan piece of 
legislation. And I really appreciate, Mr. Chairman, you giving 
us the opportunity to testify on behalf of our provisions 
tonight. I really appreciate it. It is very good for the public 
and our veterans to know what is in the bill.
    I am proud of the work we have done this year to ensure 
that we as a Nation take care of our veterans when they return 
home. But there is always more work to be done for these 
honorable Americans. The brave men and women of our U.S. armed 
forces have answered the call to protect the liberties we enjoy 
on a daily basis. We must answer the call to help our veterans 
in return.
    The challenges our Nation's heroes face do not end on the 
battlefield but continue as they make their transition to 
civilian life. We must find viable ways to improve both the 
effectiveness and delivery of transition resources. In order to 
give the best opportunities to our veterans, we must be 
prepared to address new needs as they are identified. And we 
are doing that in this Committee.
    I am very pleased my legislation, H.R. 1994, the Veteran 
Act, was included in the overall bill we are discussing today. 
My provision will make necessary investments to the information 
technology systems of the Veterans Benefits Administration.
    First, it requires all original and supplemental claims for 
educational assistance to be done electronically. That makes 
sense. This will ensure that veterans are able to receive 
benefits in a more timely and efficient manner. The provision 
would authorize $30 million to help the VA carry out the 
mission of assisting our veterans and getting an education and 
transitioning back to civilian life.
    The Secretary of Veterans Affairs will be required to 
submit to Congress a plan to implement proposed changes and 
improvements within 180 days of its enactment. The plan will 
ensure that this Committee has the necessary information to 
perform its oversight duties. After a year of implementing the 
changes, the VA Secretary will also be required to submit a 
report giving the Committee an update on what is working and 
what is not working so that we can fix it. This will provide 
the Committee with the information necessary to continue to 
improve of course how we serve our Nation's heroes. Overall 
this section will modernize the G.I. Bill claims processing and 
help streamline the system for veterans to receive their 
educational benefits.
    Mr. Chairman, I have a letter of support for my bill, the 
Veteran Act, that is included, again from the Association of 
the United States Navy, which I would like to ask unanimous 
consent to include for the record.
    The Chairman. Without objection, so ordered.
    Mr. Bilirakis. Thank you, Mr. Chairman. In closing, I 
remain dedicated to ensuring that our Nation's veterans have 
access to the important educational benefits they have earned 
and deserve. We have a responsibility to make sure our veterans 
are fully prepared with the skills, resources, and education 
they need to thrive in civilian life. I urge my colleagues to 
support this beneficial piece of legislation and I yield back 
the balance of my time. Thank you, Mr. Chairman.
    The Chairman. I thank the Vice Chairman for yielding. Mr. 
Peters, thank you. You are now recognized for five minutes.

          OPENING STATEMENT OF HONORABLE SCOTT PETERS

    Mr. Peters. Thank you very much, Mr. Chairman. I do 
appreciate the chance to take a quick second to speak about my 
bill that is included in this package. The bill would extend 
full education benefits to honorably discharged Purple Heart 
recipients, regardless of their length of service.
    As you all know, G.I. benefits are based on a rating system 
and you need 36 months of Active duty to qualify for 100 
percent benefits. One out of every five Purple Heart vets from 
the War on Terror who is using G.I. benefits does not qualify 
for the full rating. And others are discouraged from pursuing 
an education at all because their benefit does not cover the 
full cost of enrollment.
    This includes veterans like Marine Corps Sergeant Adrian 
Aranda, whose squad was hit by a landmine outside of Kandahar 
Airport in Afghanistan just three months after the 9/11 
attacks. He sustained burns, shrapnel damage to the left side 
of his body, a broken hand, hearing damage, and a traumatic 
brain injury. Sergeant Aranda and his squad mates were the 
first servicemembers to receive Purple Hearts in the War on 
Terrorism.
    After his service Sergeant Aranda went on to earn an 
Associate Degree from a community college and then graduated 
with a Bachelor's from Texas Tech. And while pursuing his 
education he discovered that he only qualified for a 50 percent 
rating for his educational benefits despite being severely 
wounded in the line of duty. We made a promise to the veterans 
who rushed to serve their country after 9/11 that we would 
honor their sacrifice and stand by them when they returned. It 
is wrong that we would exclude veterans, like Sergeant Aranda, 
who suffered life-changing injuries fighting for this country 
from receiving full education benefits.
    By including my Purple Heart bill we are going help an 
estimated 660 Purple Heart recipients per year pursue a college 
degree or vocational training so they can land a good job and 
make the peaceful, prosperous transition to civilian life they 
deserve. In our time of greatest need, these brave 
servicemembers fought and bled for us. They do not just deserve 
these benefits. Just like their Purple Heart medals, they have 
earned them.
    Thank you to Chairman Roe, Ranking Member Walz. I agree 
with Mr. McCarthy on this, this is an exemplar of 
bipartisanship for the rest of the Congress. It is a pleasure 
to work on this Committee. I want to thank the entire Committee 
and Committee staff, and the VSOs, especially in this case the 
Military Order of the Purple Heart, for working with us to 
include this as part of the Forever G.I. Bill. And I yield 
back.
    The Chairman. Thank you, Mr. Peters, for yielding, and 
those kind remarks. Mr. Coffman, you are now recognized for 
five minutes.

          OPENING STATEMENT OF HONORABLE MIKE COFFMAN

    Mr. Coffman. Thank you, Mr. Chairman. And thank you for 
holding this hearing tonight and for including my legislation 
in the Veterans Education Assistance Act. Having earned an 
undergraduate degree at the University of Colorado under the 
Vietnam era G.I. Bill, I fully understand the importance of 
this benefit to our veterans and to our Nation.
    My legislation, H.R. 2549, the G.I. Bill Processing 
Improvement Act, which I introduced with Congressman O'Rourke, 
would ensure those receiving G.I. benefits for their military 
service do so in a more timely manner. It also improves 
oversight of schools and educational facilities who receive VA 
funding for requiring them to certify the G.I. Bill funds 
received are in fact used for veteran's services. Lastly, my 
legislation would require that school certifying officials, 
SCOs, are properly equipped to better counsel veterans on 
academic courses and their financial benefits by requiring more 
transparency and efficiency from our academic institutions 
serving our Nation's veterans. We ensure our veterans use their 
G.I. Bill benefits to realize their full potential.
    Mr. Chairman, I am also proud to be an original co-sponsor 
of this larger G.I. Bill reform effort. The Veterans Education 
Assistance Act includes many life-changing provisions, such as 
a lifetime benefit of the G.I. Bill and an additional nine 
months for G.I. Bill eligibility when pursuing a STEM degree, 
protection of G.I. Bill benefits for veterans impacted by a 
school closure, and make it easier for veterans to use their 
G.I. Bill for tests that lead to a license or a credential.
    Mr. Chairman, it is important that this Committee make a 
veteran's transition as seamless and rewarding as possible. And 
the Veterans Educational Assistance Act does exactly that. I 
look forward to continue working with you to make sure we can 
deliver, you and the Ranking Member, sorry Major Walz, a G.I. 
Bill that is worthy of the service and sacrifice that those 
fighting for our Nation have shown.
    Thank you, Mr. Chairman. I yield back the remainder of my 
time.
    The Chairman. I thank the gentleman for yielding. Dr. 
Wenstrup, you are now recognized for five minutes.

          OPENING STATEMENT OF HONORABLE BRAD WENSTRUP

    Mr. Wenstrup. I thank you, Mr. Chairman. I am pleased to be 
an original co-sponsor of H.R. 3218, the Harry W. Colmery 
Veterans Educational Assistance Act of 2017. And I am thrilled 
that the legislation I introduced to expand benefits to our 
military's Reserve and Guard components is included as a 
provision. This provision, which I introduced as Guard and 
Reservist Education Improvement Act, would enhance the amount 
of G.I. Bill eligibility for servicemembers who do not serve 
enough time to receive 100 percent of the benefit.
    So currently servicemembers who serve at least between 
three to six months and six months to less than 12 months of 
Active duty service can qualify for 40 and 50 percent of the 
full G.I. Bill benefits respectively. What this provision would 
do, it would increase these benefits to 50 percent and 60 
percent respectively, which for students attending a private 
school would result in approximately $2,300 more a year in 
tuition than they are receiving now, and would receive even 
more money for their housing allowance.
    The brave citizen soldiers in the Reserve component and the 
Guard, of which more than a million have been mobilized since 
9/11, contribute greatly to the end strength of our armed 
forces. And they often have to juggle careers, families, and 
the service to our great Nation. We must do all that we can to 
support those who put their lives on the line for our great 
Nation and easier access to an earned education benefit is 
critical.
    The underlying bill goes far to accomplish this goal, 
increasingly accessibility to the educational opportunities 
that the G.I. Bill provides helps ensure the men and women who 
have worn this Nation's uniform receive the benefits they have 
earned and are equipped with the education they need to be 
successful. And our veterans have a high success rate in 
education. So I am proud to support these initiatives and these 
much needed improvements, many of which originated from 
veterans themselves and through the VSOs. And I thank my 
colleagues on this Committee for their willingness and 
commitment to forge a path forward on a bipartisan basis to get 
things done.
    And with that, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman for yielding. Mr. 
Rutherford, you are recognized now for five minutes.

         OPENING STATEMENT OF HONORABLE JOHN RUTHERFORD

    Mr. Rutherford. Good evening, Chairman Roe, and Ranking 
Member Walz, and the rest of the Committee. I want to thank you 
for this opportunity to testify on behalf of the Julian Woods 
Yellow Ribbon Program Expansion Act, which has been included in 
Section 108 of H.R. 3218.
    In my time as a Member on this Committee, I have been 
encouraged by our work to improve the lives of our 
servicemembers and their families. Almost every day we hear 
about new ways we can enhance the assistance our servicemembers 
and their families receive. And I believe as you do that it is 
very important that we seriously take recommendations under 
consideration.
    One component of these benefits focuses on the educational 
success of these selfless men and women. The Marine Gunnery 
Sergeant John David Fry Scholarship currently pays a benefit 
equal to the Post-9/11 G.I. Bill to the children and surviving 
spouses of servicemembers who die in the line of duty. Eligible 
recipients are entitled to 36 months of benefits at the 100 
percent level. They receive a monthly living stipend and book 
allowance. Roughly 6,000 surviving dependents and spouses of 
those who died serving their country rely on this scholarship 
to cover their educational expenses. And as anyone who has sent 
a child or a loved one to school recently knows, college is 
incredibly expensive. The current benefit payment of the Post-
9/11 G.I. Bill is roughly $23,000 a year, which covers most of 
the institutions. Though not the intent of the law this cap 
places financial restrictions on prospective students that have 
suffered the hardship of losing a loved one.
    For servicemembers on the Post-9/11 G.I. Bill this is where 
the Yellow Ribbon Program comes in to help. Under the Yellow 
Ribbon Program degree granting institutions of higher learning 
may choose to make additional funds available if the cost of 
attendance is above the cap that is set by the Post-9/11 G.I. 
Bill. These institutions voluntarily enter into an agreement 
with the VA at no additional cost to the servicemember's G.I. 
Bill privilege and the VA matches that amount to help cover the 
additional cost. Hundreds of institutions participate in this 
program.
    Under current law, however, those on the Fry Scholarship 
are not eligible for the Yellow Ribbon Program. This means that 
the surviving spouses and children of those who have died in 
the line of duty are limited in their ability to choose the 
institution of higher learning that would best help them 
succeed.
    Section 108 is simple yet impactful. It would extend the 
Yellow Ribbon Program to those on the Fry Scholarship. I 
believe that when we empower the Members of our servicemen and 
women, both fallen and surviving, we strengthen our 
communities, we embolden our institutions, and we reinvigorate 
our future.
    Upon introduction of this bill, I was reminded of Petty 
Officer 3rd Class Julian Woods, a Jacksonville native killed in 
action in Fallujah during Operation Iraqi Freedom in 2004. 
Petty Officer Woods was a hospital corpsman killed by enemy 
fire as he rushed to aid a fallen soldier. When I introduced 
H.R. 2103 I spoke with Julian's mother, Carolyn. She told me 
that any work that we do to ease the mind of any person who 
either served or lost someone they loved in the line of duty is 
of incredible importance. I agree with her and I want to do 
everything that we can to ease the burden of those who have 
lost a loved one, including the Petty Officer's only daughter. 
His loss was a tragedy for his family, his daughter, our 
community, and our Nation.
    I thank the Chairman, the Ranking Member, and the VSOs, and 
the Committee staff for working together on this vital piece of 
bipartisan legislation. And I look forward to working with you 
all to move it forward. I yield back the balance of my time.
    The Chairman. Thank you, Mr. Rutherford, for that 
compelling testimony. Mr. Banks, you are now recognized for 
five minutes.

            OPENING STATEMENT OF HONORABLE JIM BANKS

    Mr. Banks. Thank you, Mr. Chairman. We all obviously agree 
on the importance of economic opportunity and skills 
acquisition for our veterans. Helping our veterans not just 
afford an education but also to maneuver the transition from 
servicemember to student is one of the best ways that we can 
help our veterans.
    Since 2009 the VA has operated a pilot program called Vet 
Success on Campus, or VSOC, which helps veterans, 
servicemembers, and their families succeed on campus by 
providing educational and vocational counseling services. These 
services are provided through a vocational rehabilitation 
counselor who works with student veterans to ensure they reach 
both their educational and career goals. This includes 
equipping them with the knowledge on how to effectively use the 
G.I. Bill.
    The pilot program began in 2009 and since then it has 
expanded to 94 campuses across the country. In March, I 
introduced legislation that would make this a permanent program 
authorized by statute. The text of the bill has since been 
included in the bill we are discussing today, H.R. 3218, along 
with many other important reforms for our student veterans. For 
that, I am very grateful on behalf of the thousands of veterans 
on college campuses all over the country.
    With that, Mr. Chairman, and with over three and a half 
minutes left, I yield back.
    The Chairman. I think everyone in the room thanks the 
gentleman for that. I thank all of my colleagues and with us 
today at the witness table we have our colleagues, Colonel Paul 
Cook of California, a former Member of the Committee, and Luke 
Messer of Indiana, a policy chair on the Republican side. Thank 
you for being here tonight, introducing bills we included in 
the package. Mr. Messer, you are now recognized for five 
minutes.

           OPENING STATEMENT OF HONORABLE LUKE MESSER

    Mr. Messer. Well, thank you, Mr. Chairman. I did not know I 
would be first. First I want to thank you for your leadership, 
and your commitment to veterans, and your help with me today as 
we worked through this legislation on this bill. I want to 
thank all the Members of the Committee for the important work 
that you do. And I do have to give a slight shout out to my 
colleague from the great Hoosier State and appreciate his 
leadership, Mr. Banks, and all you do for the Committee.
    I also wanted to thank you for including my proposal in 
this legislation to help veterans impacted by the closure of 
ITT Tech in this bipartisan G.I. Bill reform package. When 
Indiana based ITT Technical Institute abruptly closed its 
doors, 40,000 students nationwide, including 7,000 veterans, 
were left high and dry. Thankfully help came for some. If a 
student attended ITT Tech through a Pell Grant, they had that 
Pell Grant restored. And if they took out a Federal loan, the 
loan was forgiven. But nothing has been done for the student 
veterans who used their G.I. Bill benefits to attend ITT Tech. 
Frankly, our veterans got a raw deal.
    Jason Nicos, a U.S. Navy veteran from Greenfield, Indiana 
in my district, had to start his degree completely from scratch 
after spending two years at ITT Tech. Not a single credit 
transferred and his G.I. Bill is going to run out before he can 
finish a new degree. He told my office, ``to spend two years of 
my life at a place with nothing to show for it is one of the 
biggest disappointments I have ever experienced.'' And Jason's 
story is sadly one of thousands. It is not fair that these 
veterans would lose their G.I. benefits through no fault of 
their own. They deserve better. My proposal restores G.I. Bill 
benefits to veterans who were attending ITT Tech when it closed 
so that they can finish their degree elsewhere. It also helps 
veterans who may be impacted by a school closure in the future. 
Our servicemen and women count on G.I. Bill benefits to help 
them start a career and build a life after serving our country. 
The least we can do is to make sure they get that chance.
    Thank you, Chairman, again, and thank your staff for 
working with us on this critical issue. And I yield back the 
two minutes and 30 seconds of my time.
    The Chairman. I thank the gentleman for yielding and some 
of us, as Mr. Walz pointed out, in Congress may spend two years 
and accomplish absolutely nothing either. So we are glad this 
is something that was overlooked and should be taken care of. 
And I am really, really pleased that these students are going 
to be able to get their time back and be able to go on with 
their lives. Colonel, you are now recognized for five minutes.

            OPENING STATEMENT OF HONORABLE PAUL COOK

    Mr. Cook. Thank you, Mr. Chairman. First I want to thank 
you and Ranking Member Walz for including my bill, H.R. 245, 
the Veterans Education Equity Act, as part of the larger G.I. 
Bill reforms.
    As a veteran and college professor, serving veterans and 
ensuring an affordable path to higher education have always 
been high priorities. The G.I. Bill addresses these two 
critical issues and has been a huge success in helping millions 
of veterans get an education.
    By the way, I want to correct the record in that Mr. 
Poliquin has been spreading a rumor that I was a veteran of the 
Revolutionary War. And I just wanted to make sure that was 
included.
    One part of the G.I. Bill is the basic allowance for 
housing, a monthly stipend that assists veterans with living 
expenses while in school. Unfortunately the current formula 
prevents some veterans from receiving a fair housing payment 
based on their true cost of living or housing. Currently the 
basic allowance for housing payment is based on the zip code 
where the veteran's school is headquartered rather than the zip 
code where the veteran attends classes. This policy results in 
a monthly payment that sometimes fails to cover basic housing 
needs or far exceeds the cost of living in certain areas. It 
also places school headquarters in lower income zip codes at a 
recruiting disadvantage because they offer student veterans a 
much lower monthly payment than satellite campuses of schools 
headquartered in more expensive areas.
    In the Morongo Basin, which is the home to the Marine Corps 
Air Ground Combat Center, and I might add that one of the 
Members of your Committee formerly served in that area where I 
live, many of the veterans utilizing the basic housing 
allowance are adversely affected by the current payout formula.
    Take for example, one community college is located and 
headquartered in Joshua Tree, California, a low-cost area, and 
a second one is headquartered in Orange County, California, a 
very expensive area, but offers classes at satellite facilities 
in the Morongo Basin. Because the current basic allowance for 
housing payment is calculated based on the zip code where the 
college is headquartered, veterans in the Morongo Basin taking 
classes from the Orange County-based college receive as much as 
a thousand dollars more per month than students taking classes 
at the locally headquartered community college.
    These are students living in the same community with the 
same housing costs, but one student receives significantly more 
money than the other student. This not only effectively 
subsidizes some school at the expense of others, but also 
wastes valuable taxpayer dollars that should be spent on 
educating our veterans.
    In other communities, the reverse is true. Satellite 
campuses that are headquartered in less expensive communities 
can leave student veterans without sufficient funds to cover 
their housing needs.
    The Veterans Education Equality Act fixes this discrepancy 
by calculating the basic allowance for housing payments based 
on where the student attends classes, not where the institution 
of higher learning is headquartered. This bill ensures veterans 
receive an adequate and fair housing allowance while 
eliminating a source of abuse in the program. It will ensure 
that veterans receive payments that meet their true costs of 
housing.
    Chairman Roe and Ranking Member Walz, I want to thank you 
both again for including my bill in the Harry Colmery Veterans 
Educational Assistance Act of 2017.
    I have 15 seconds and I want to also add that to the time 
left on it, and I talked longer than most people.
    Thank you again for the time.
    The Chairman. Thank you, Colonel. I appreciate both of you 
all being here.
    And we will forgo a round of questions for our colleagues. 
Any questions that anyone may have may be submitted for the 
record.
    Thanks both for you being here. You all are excused now.
    Mr. Cook. Thank you, sir.
    Mr. Messer. Thank you.
    The Chairman. Thank you all.
    Joining us on our second panel and final panel is Mr. Curt 
Coy, Deputy Under Secretary for Economic Opportunity at the 
Department of Veterans Affairs, who is accompanied by Mr. James 
Ruhlman, Assistant Director for Policy and Procedures of the VA 
Education Service; Mr. Patrick Murray, Associate Director of 
the National Legislative Service for the Veterans of Foreign 
Wars; Mr. William Hubbard, Vice President of Government 
Relations for Student Veterans of America; Mr. John Kamin, 
Assistant Director of the Veteran Employment and Education 
Division for the American Legion; and Ms. Ashlynne Haycock, the 
Senior Coordinator for Education Support Services at the 
Tragedy Assistance Program for Survivors.
    Thank you all for joining us tonight.
    Your complete written statements will be entered into the 
hearing record.
    Mr. Coy, you are recognized for five minutes.

                 STATEMENT OF MR. CURTIS L. COY

    Mr. Coy. Good evening, Chairman Roe, Ranking Member Walz, 
and distinguished Members of the Committee, and particularly 
those Members of the Economic Opportunity Subcommittee.
    Thank you for the opportunity to be here today to discuss 
legislation pertaining to the Department of Veterans Affairs 
programs. Perhaps more importantly, thank you for your 
passionate interest in our student veterans. It is an honor to 
be here to represent VA and those individuals who work hard 
every day to deliver those benefits veterans have earned.
    And if I may, we would also like to again compliment the 
Committee staff for their professionalism, hard work, and 
passion to assist veterans.
    Accompanying me today is James Ruhlman, Deputy Director of 
our Education Service.
    As we reviewed the Harry W. Colmery Veterans Educational 
Assistance Act of 2017, we are encouraged by the number of 
sections aimed at improving educational opportunities for 
veterans and their beneficiaries.
    When I testified at the Senate Veterans' Affairs Committee 
on many of the same proposed legislative actions, I said the 
Post-9/11 GI Bill is truly transformative.
    In a recent talk I gave, I indicated that the original GI 
Bill or Servicemen's Readjustment Act of 1944 was the product 
of what happens when goodwill and the right thing come together 
in Congress. It created a civil renaissance by treating all 
veterans as first class citizens. Empowering veterans proved 
and continues to prove to be the catalyst to revitalizing and 
driving America forward.
    The original GI Bill was heralded as a success and a major 
contributor to America's stock of human capital that sped long-
term economic growth across the Nation. Eight million World War 
II veterans used the GI Bill and Tom Brokaw called them ``The 
Greatest Generation.'' Many believe, including me, particularly 
as you look at the young men and women testifying this evening, 
all GI Bill graduates, that we are on the precipice of the next 
greatest generation. And that is no slight to veterans in 
between, including myself.
    I am hopeful that this hearing will be somewhat uneventful, 
as VA has outlined support, some with concerns in a caveat that 
they are subject to offsets for almost all of these sections. 
We are happy to work with the Committee to ensure we achieve 
the best possible outcomes for veterans, servicemembers, and 
their families.
    We also note that many of these bills would require changes 
to our IT systems, and will require staff and resources in 
order to successfully implement them. We appreciate your 
consideration of many of the effective dates that give us time 
to implement them should they be signed into law.
    The Department looks forward to working with the Committee. 
And rather than attempt to synopsize our views on each of the 
29 sections, we would like to return some of my time in my oral 
statement in order to have the opportunity for the Subcommittee 
to ask questions and comment on my testimony.
    Mr. Chairman, this concludes my statement. Again, thank you 
for your generous interest in improving the lives of veterans 
and their families, and I would be pleased to respond to any 
questions you or the Members of the Committee may have.

    [The prepared statement of Mr. Coy appears in the Appendix]

    The Chairman. Thank you, Mr. Coy.
    And just a question I want to ask the audience and 
everybody in this room, how many of us have used a GI Bill? 
Just hold your hand up.
    Thank you very much. Thank you.
    Mr. Murray, you are now recognized for five minutes.

               STATEMENT OF MR PATRICK D. MURRAY

    Mr. Murray. Chairman Roe, Ranking Member Walz, and Members 
of the Committee, on behalf of the men and women of the 
Veterans of Foreign Wars of the United States and its 
Auxiliary, thank you for the opportunity to provide our remarks 
on today's pending legislation.
    The VFW strongly supports restoring educational benefits 
for those servicemen and women called to Active Duty, National 
Guardsmen and Reservists who were placed on involuntary 
activation orders that did not allow them to accrue benefits 
through time and service like their Active duty counterparts.
    While stationed abroad and away from their homes and 
families, these troops are denied the ability to gain 
educational credit for use after demobilization. 12304(b) and 
additionally 12301(h) orders need to be amended to keep the 
activation authority, but re-institute the benefits that were 
removed. Thousands of National Guardsmen and Reservists have 
been affected by this change.
    More and more, DoD is using our Nation's reserve component 
to fight our decade-and-a-half war against terror, and these 
men and women to come home without equal benefits is something 
that must be changed.
    The VFW supports giving full educational benefits for 
recipients of the Purple Heart. For the past decade and a half, 
we have been sending Reservists into harm's way at an 
unprecedented level and some of them have been wounded in the 
line of duty. Nearly 1500 of these citizen soldiers have bled 
for this country, but have not accrued enough Active duty time 
to obtain full GI Bill benefits. This is the least we can do as 
a country to help those who put their bodies on the line for 
our freedom.
    I especially support this bill because I have a personal 
relationship to it. Jonathan Goldman served in Iraq in my squad 
and he was my driver the night that our vehicle was hit by an 
IED. John, like the rest of our team, was pretty banged up, but 
he was the only one who ultimately did not have to end up being 
medically retired due to his wounds. John still carries the 
scars with him today and he is not eligible for many of the 
other benefits that myself and my other teammate received.
    Extending mere months of education eligibility for troops 
like John is something the VFW fully supports and I personally 
support vehemently.
    Finally, I would like to focus on the school closure 
section of this bill. The VFW strongly supports this portion of 
the legislation to protect student veterans who are negatively 
affected by school closures. Recently, ITT Tech, Corinthian, 
and West Tech College suddenly shuttered their doors after 
losing accreditation. This left thousands of student veterans 
out of school mid-semester with no plan for what to do the rest 
of the term. They have lost weeks or months of GI Bill benefits 
that were wasted at failed institutions. Even worse, they lost 
the monthly housing stipend many relied upon for their living 
situation.
    After the failure of ITT Tech, the VFW reached out to these 
student veterans affected by the closure and offered them 
assistance through our Unmet Needs Grant Program. The VFW 
provided students with emergency grants in order to keep them 
afloat for another month or so.
    The impact the school closing had on these student veterans 
was devastating. We received multiple responses to the students 
we reached out to and the reports of their situations was 
disheartening, to say the least. We had reports of veterans 
being mere weeks away from living in their cars, veterans 
choosing between which meals to skip during the day, and no 
help from the VA or their schools to rectify the situation.
    Thankfully, we were able to reach out and help these 
students during their struggle, but the VFW and organizations 
like ours cannot be the only entities stepping up to remedy the 
situation. We provided the student veterans with some financial 
stability to make it through the next few weeks while they got 
settled after this major life upheaval; this, however, was only 
a Band Aid for the real problem.
    These student veterans need protection for issues like this 
so they will not be affected as badly as they are in the 
future.
    This legislation allows for the affected student veterans 
to recoup the lost months of GI Bill eligibility in only the 
semester their schools are closed. While we support this 
initiative, we feel it does not go far enough. We think student 
veterans should be able to recoup their months of eligibility 
wasted at the closed institutions, just like traditional 
students can with Pell Grants.
    Student veterans who attended schools like ITT have now 
lost these months eligibility and they have no credits to show 
for it. The VFW has heard from these student veterans from the 
closed schools and they are now struggling to complete their 
degrees at other institutions without their previous earned 
credits.
    GI Bill eligibility should be allowed to be recouped and 
student veterans deserve the same equality as every other 
student affected by school closures. This bill is an important 
first step towards rectifying this entire situation.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions you or the Committee may have.

    [The prepared statement of Mr. Murray appears in the 
Appendix]

    The Chairman. Thank you, Mr. Murray.
    Mr. Hubbard, you are now recognized for five minutes.

                STATEMENT OF MR. WILLIAM HUBBARD

    Mr. Hubbard. Chairman Roe, Ranking Member Walz, and Members 
of this Committee, thank you for inviting Student Veterans of 
America to submit our testimony on the Harry W. Colmery 
Veterans Educational Assistance Act.
    This legislation seeks to fix many of the current 
challenges within the Post-9/11 GI Bill, while also addressing 
ongoing inequities to provide veterans and their family's 
access to the benefits they earned.
    In May, we convened nearly 40 military, veteran, and higher 
education organizations for a roundtable discussion at the 
headquarters of our friends at the American Legion to discuss 
education policy priorities for veterans, and last week we had 
the second roundtable discussion, hosted by our gracious 
friends at the VFW, to determine how we make those priorities a 
reality.
    This proposal is where it is at today thanks to the 
incredible leadership of this Committee, as well as the support 
from the following organizations: The Veterans of Foreign Wars, 
Got Your 6, the Tragedy Assistance Program for Survivors, 
Vietnam Veterans of America, the American Legion, and the 
Military Order of the Purple Heart. This broad coalition of 
organizations, and many others, is firmly committed to getting 
the Colmery GI Bill through this Congress and onto the 
President's desk for signature.
    The first inequity addressed in this proposal includes the 
National Guard and Reserve members who served under the 
12304(b) authorization orders. I would like to highlight the 
case of the deployment of the Special Purpose Marine Air Ground 
Task Force in 2016 who experienced this issue firsthand.
    In the case of this unit, hundreds of Marine Corps Reserves 
were inaccurately advised by senior leadership that they would 
receive GI Bill benefits for their Active duty service, only to 
later learn that they would get nothing. The fully retroactive 
solution in this proposal addresses this regrettable oversight.
    Next, this legislation would begin to tackle the challenge 
of making whole veterans who experience school closures. The 
closure of ITT Tech demonstrated that the issue of school 
closures is not likely to go away any time soon. Beginning with 
the stunning moral and fiscal bankruptcy of the Corinthian 
Colleges brought to light in 2015, student veterans are known 
to be the only students that currently receive no type of 
restitution.
    We also strongly encourage the consideration of the 
following recommendations. Broaden the restitution for veterans 
who experience school closures, ensuring that VA has similar 
authority to restore GI Bill benefits as the Department of 
Education to provide restitution for Federal student loan 
borrowers after school closures.
    Full funding for the state approving agencies, the 
watchdogs of the GI Bill, with a total annual increase from $19 
million to the requested funding rate of $26 million, with 
assurances that these additional funds will help prevent future 
school closures by looking out for signs of predatory programs.
    Restoration of GI Bill benefits for any credits earned at a 
closed school that cannot be transferred to a new program or 
institution, with a specific focus on providing relief to the 
beneficiaries affected by the ITT closures.
    We also enthusiastically praise this Committee for the 
recognition of the importance and the value of science, 
technology, engineering, and math, STEM, degrees. These degrees 
provide a high value for the veteran and the country, but often 
require additional time to complete. We would like to work 
closely with the SAAs to ensure students entering these fields 
are protected and that they reflect the national need.
    I want to also acknowledge Congressman David McKinley and 
Congresswoman Dina Titus for recognizing this challenge early 
and remaining steadfast in pursuing the STEM Extension Act now 
included in this package as the Edith Rogers Scholarship.
    When I first saw the text of this bill I thought, if 
student veterans sat down to write a bill, it would look like 
this. This package reflects so many essential solution-oriented 
provisions that increase access to education, address the 
inequities of this earned benefit, and look forward to the 
future well beyond our own generation. The passage of this bill 
will represent the start of a new era for education for 
veterans.
    Additionally, the staff of the Chairman and the Ranking 
Member demonstrate their dedication to the cause of veterans in 
such a manner that it is humbling to consider them as 
colleagues and friends.
    I would like to acknowledge Jon Clark, Kelsey Baron, Ray 
Kelly, Cathy Yu, Caroline Ponseti, and Tiffany Haverly. To each 
of you, you have demonstrated the heartfelt appreciation of 
millions of veterans and their families.
    To Leader McCarthy and Leader Pelosi, as well as their 
staff, Tiffany Wolfolk and Patty Ross, you also have proven a 
spirit of bipartisanship and commitment to veterans that will 
be remembered for many years to come.
    Chairman Roe, Ranking Member Walz, America is fortunate to 
have you at the helm of this esteemed body, two Members of 
Congress that have demonstrated a model of bipartisanship and 
collaboration to the country.
    Thank you.

    [The prepared statement of Mr. Hubbard appears in the 
Appendix]

    The Chairman. Thank you, Mr. Hubbard, for your kind words 
and your leadership on this issue.
    Mr. Kamin, you are recognized now for five minutes.

                  STATEMENT OF MR. JOHN KAMIN

    Mr. Kamin. Chairman Roe, Ranking Member Walz, and 
distinguished Members of this Committee, on behalf of National 
Commander Charles E. Schmidt and the two million members of the 
American Legion, we thank you for your leadership on behalf of 
servicemembers and veterans.
    The last few months were not easy as solutions were 
proposed to improve the GI Bill. With public disagreements 
dividing us, many believed that it would be impossible to get 
anything done this year for veterans' education, yet this 
Committee made it happen in under three months. This reflects 
remarkable determination and statesmanship from Chairman Roe 
and Ranking Member Walz, as well as the broad bipartisanship 
that rose to the occasion.
    As the largest organization of wartime veterans, we 
appreciate the opportunity to present the American Legion's 
views on the Harry W. Colmery Veterans Educational Assistance 
Act. As all of us worked together over the past few months on 
the future of the GI Bill, we can think of no greater namesake 
than our past National Commander Harry Colmery.
    In 1943, the Committee on World War Veterans was deeply 
focused on the inevitable issues servicemembers would face 
whenever the war ended. Many believed that education had no 
place as a veteran's benefit and others believed the benefit 
should be limited exclusively to wounded veterans.
    Harry Colmery had a different vision. As a World War I 
veteran, he knew firsthand the challenges of transitioning from 
war. He saw the potential for a benefit that didn't create 
dependence, but would foster greater citizenship through 
economic empowerment; a benefit rooted in the idea that the 
individual, not the Government, could decide how and where to 
use it; a benefit that would challenge the status quo that 
education was the providence of the wealthy and the elite.
    Working from Washington's Mayflower Hotel over five months, 
Colmery handwrote page after page of his vision on the back of 
hotel stationery. These notes would become the Servicemen's 
Readjustment Act of 1944.
    As we now turn our attention to improving our generation's 
GI Bill, we proudly proclaim that this bill reaffirms the 
ideals of Harry Colmery and the American Legion, that investing 
in veterans' education makes this country greater. This bill 
does this through 28 distinct sections, most strikingly is 
making the GI Bill a forever benefit. This has the potential to 
greatly increase GI Bill usage rates by providing 
servicemembers the flexibility they need to pursue their 
educational aspirations.
    No matter how widely it is known, not all veterans will 
utilize the GI Bill with a 15-year cap simply because it 
doesn't make sense for some of them to use it. If a Marine 
Sergeant with a Bachelor's degree transitions to civilian life 
as a Government contractor, it may not make sense for her to 
immediately use the GI Bill. However, if 15 years later she 
seeks a different career path, the GI Bill is as valuable to 
her future as it was as if she had just transitioned from 
Active duty. This bill makes it possible for veterans to 
utilize this benefit at the right time and the right place and, 
more importantly, it takes the benefit out of the Government's 
hand and gives it to the veteran.
    This bill also begins to address a burgeoning issue: 
unequal education benefits for Reserve and National Guard 
servicemembers with the advent of 12304(b) orders. While there 
have been roughly 6,000 activations thus far, make no mistake 
as to how the Department of Defense intends to utilize this 
order. To wit, the Department of the Army's OCO budget 
requested 18,738 man years for 12304(b) orders for fiscal year 
2018.
    We could have not asked for a better champion on this than 
a National Guard Sergeant Major and we applaud the Ranking 
Member for his tenacity on behalf of all Guard and Reservists. 
This bill not only accomplishes this, but also awards 
retroactive benefits to all servicemembers issued these orders.
    As the Committee affirms its commitment to veterans' 
education, it is for us to rededicate our efforts to refining 
the GI Bill for the next generation. We see numerous areas that 
can still be improved: increasing the state approving agency's 
funding from 19 million to a rate of 26 million, so SAAs can 
effectively perform their oversight responsibilities; 
empowering our servicemembers and veterans to be informed 
consumers who can make the choices they can on how to use their 
benefit; and developing a solution that would provide GI Bill 
resources and start-up capital to small businesses, just as the 
original GI Bill did.
    These improvements may seem small, but the impact cannot be 
overstated. Just as the original GI Bill was beyond any 
measurement at the time, the bills that this Committee passes 
will have an impact beyond our years, not just on our veterans, 
but on the country as a whole.
    As I conclude, I would like to quote the closing remarks of 
Harry Colmery's testimony to Congress in 1944. ``These men will 
be a potent force for good or evil in the years to come: they 
can make our country or they can break it, they can restore our 
democracy or scrap it, they can promote world order or World 
War III. The answer lies in leadership. We look to the American 
Congress to step forward and give some of that leadership. This 
is your opportunity and you can count on the American Legion to 
add its experience and influence to assist in guiding and 
directing the Nation along the path of peaceful progress.''
    Chairman Roe, Ranking Member Walz, distinguished Members of 
this Committee, to evoke Harry Colmery, you can still count on 
us today.
    Thank you very much and I look forward to your questions.

    [The prepared statement of Mr. Kamin appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Kamin.
    Ms. Haycock, you are recognized now for five minutes.

               STATEMENT OF MS. ASHLYNNE HAYCOCK

    Ms. Haycock. Chairman Roe, Ranking Member Walz, and 
distinguished Committee Members, thank you for the opportunity 
to speak on behalf of surviving families of our Nation's fallen 
heroes.
    I am the surviving daughter of Army SFC Jeffrey Haycock, 
who died in the line of duty in 2002, and Air Force Veteran 
Nichole Haycock, who died by suicide in 2011.
    In 2010, I was one of the very first recipients of the 
Marine Gunnery Sergeant John Fry Scholarship, and for that 
opportunity I am incredibly grateful to this Committee.
    I would also like to thank the Committee for several 
expansions of survivor benefits included in the Jeff Miller and 
Richard Blumenthal Veterans Health Care and Benefits 
Improvement Act of 2016, such as guaranteed in-state tuition 
for Fry recipients and additional time to utilize the Fry 
Scholarship for our earliest post-9/11 widows.
    TAPS' main legislative priority over the last several years 
has been the expansion of the Yellow Ribbon Program to Fry 
Scholarship recipients. Currently, only those receiving the 
Post-9/11 GI Bill and those with transferred entitlement are 
eligible. If the veteran is still alive and transferred their 
benefits to their dependents, they would be eligible for this 
expanded benefit, while children and spouses of America's 
heroes who died in the line of duty are not. We would like to 
see this inequity corrected.
    This impacts children like Emily McClimans, whose father 
was an Army Officer killed in action in 2011 when Emily was 
just 13 years old. Emily is a sophomore at Texas Christian 
University. The tuition is over $40,000 per year, but her Fry 
Scholarship only covers 22,000 of it. That is more than $18,000 
that Emily has to come up with every single year. TCU offers 
750 Yellow Ribbon Program scholarships and they only filled 300 
of them this year. These are slots that could go to children 
like Emily to pursue her dreams and allow her to graduate from 
college debt-free, a dream her father had for her.
    TAPS strongly supports Section 108 of H.R. 3218.
    TAPS is also advocating for an increase in Chapter 35 
education benefits. The current rate is $1,024 per month and is 
far inferior to the rates of Post-9/11 and Montgomery GI Bills. 
The rates have not been increased with the exception of for 
cost of living since 2003.
    Many of TAPS survivors are not eligible for the Fry 
Scholarship because the servicemember died before 9/11 or died 
in veteran or retiree status. This includes children like Shana 
Pellegrin whose mother, Navy Lieutenant Karen Pellegrin, died 
in the line of duty just a few months before 9/11, making her 
ineligible for the Fry Scholarship.
    Shana is a rising sophomore at Virginia Tech; she is also 
here with us this evening. Her father has had to pay a large 
portion of Shana's college out of pocket, because the $9,000 a 
year under Chapter 35 is not enough to cover the cost of 
attendance. While the extra money per month included in 
proposed legislation would not cover everything, it would make 
a huge difference to families like Shana's who are not 
fortunate enough to be eligible for robust benefits like Fry, 
even though their service and sacrifice were the same.
    TAPS strongly supports Sections 202 and 203 of H.R. 3218.
    We are also grateful for the inclusion of a technical 
change for transferred entitlement in Section 109. Currently, a 
servicemember or veteran who has transferred their GI Bill can 
adjust the number of months of eligibility between the 
different family members, but when they die those months are 
locked in and the family cannot adjust them as needed. This 
impacts survivors like Coleen Bowman, whose Army husband died 
from burn pit exposure in 2013.
    Sergeant Major Bowman was medically retired because of 
terminal cancer, so his children are not Fry eligible, but 
Sergeant Major Bowman split his GI Bill between his wife and 
four daughters. Coleen has no intention of ever using her 
allocated months and would like to give it to her children, but 
because of current regulations she cannot do this.
    This would not allow families to add new transferees, only 
adjust the number of months amongst themselves, something the 
servicemember would have been able to do if they were still 
alive.
    TAPS strongly supports Section 109 of H.R. 3218.
    TAPS is proud to have worked closely with partner 
organizations such as Student Veterans of America, the American 
Legion, and the Veterans of Foreign Wars to raise awareness of 
the many issues in the Harry W. Colmery Veterans Educational 
Assistance Act of 2017. TAPS supports the bill in its entirety, 
but specifically the points that impact survivors.
    We would also like to reiterate our support for the removal 
of the arbitrary 15-year eliminating date. We understand that 
these programs are expensive and we appreciate that there is a 
recommendation to fund these changes, as well as the upgrades 
to the GI Bill.
    Our families have already paid the price for these benefits 
through the loss of their loved ones. The proposed legislation 
protects and expands survivor benefits, creates new and 
innovative programs for veterans, and helps sustain the GI Bill 
for a new generation of servicemembers.
    Thank you for this opportunity and I am honored to answer 
any questions.

    [The prepared statement of Ms. Haycock appears in the 
Appendix]

    The Chairman. Thank you very much, Ms. Haycock, for your 
advocacy, and it really struck a nerve with me.
    I know in, let's see, 52 years ago a good friend of mine 
was killed in Vietnam and left four children, and basically our 
country provided nothing for them. Unbelievable that we 
provided almost and our lives are worth $10,000 from what 
Colonel Cook was talking about in Vietnam.
    This was so easy for me to support and I was so passionate 
because of what happened to that family. And to this day I 
still mourn him and it affected how his kids grew up, the kind 
of education they could get.
    This is a great addition to this bill and I want to thank 
you for your advocacy that you do each and every day.
    Mr. Walz, I have no questions at this time. On behalf of 
the Committee, I want to thank you all for being here. But I 
have no questions, I will yield to you.
    Mr. Walz. No, I don't either. I would just like to thank 
you.
    And the words together I think, again I go back to this, 
the way we all conduct ourselves in respect of that sacrifice 
that was given to self-governing, getting this right.
    And I thank you too, Mr. Coy and the VA, for carrying out 
these and being partners in this. We really appreciate the 
guidance and the expertise as we started to craft these, so 
thank you for that.
    I yield back.
    The Chairman. I thank the gentleman for yielding.
    Mr. Bilirakis, you are recognized for five minutes.
    Mr. Bilirakis. I have no questions, but I want to thank the 
Ranking Member and the Chairman and the VSOs for working 
together for our veterans. This is incredible stuff and it is a 
big deal. It may not get in the newspaper tomorrow morning, but 
this is why we are in Congress. This is what we should be doing 
to help our true American heroes.
    So I yield back, Mr. Chairman. Thank you.
    The Chairman. I thank the gentleman for yielding.
    Mr. Takano, you are recognized for five minutes.
    Mr. Takano. I will follow suit and ask no questions, even 
though I have some, but I will refrain until later.
    [Laughter.]
    The Chairman. We are putting the bar pretty high tonight.
    Mr. Coffman, you are recognized for five minutes.
    Mr. Coffman. Mr. Chairman, I have no further questions 
other than to thank the panel for working on this issue and 
your dedication to it, as well as the Chairman and the Vice 
Chairman.
    I yield back.
    The Chairman. I thank the gentleman for yielding.
    Ms. Brownley, you are recognized for five minutes.
    Ms. Brownley. I have no further questions either, but too I 
want to just express my gratitude to really everybody in this 
room and the leadership on this Committee. It really is an 
important day and a memorable day. And I am looking forward to 
the markup and the President's signature and getting this bill 
going. Thank you very much.
    I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Dr. Wenstrup, you are recognized for five minutes.
    Mr. Wenstrup. I just have one question, since everyone 
worked so well together on all of this, do you have any 
questions of us?
    [Laughter.]
    Mr. Wenstrup. If not, I yield back.
    The Chairman. I thank the gentleman for yielding.
    Ms. Kuster, you are recognized for five minutes.
    Ms. Kuster. I don't have any questions. Thank you and thank 
you to all our colleagues. And I just hope we can get the word 
out that Congress can work together and get something done.
    Thank you. I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Mrs. Radewagen, you are recognized for five minutes.
    Mrs. Radewagen. Thank you, Mr. Chairman. I have no further 
questions. I just want to thank you all for your great service 
and God bless America.
    I yield back.
    The Chairman. Ms. Esty, you are recognized for five 
minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    No questions, but just saying this is really a model of 
democracy, which is not just about Congress working, but about 
the American people, those of you in this room who served and 
those who served by helping us get it right.
    The military is changing, the country is changing, and it 
was high time for the GI Bill to change in accordance with it.
    So congratulations to the Chairman and Ranking Member, 
everyone on this Committee, but most importantly the people in 
this room who helped us get it if not completely right, at 
least better for those who are serving now.
    Thanks very much.
    The Chairman. I thank the gentlelady for yielding.
    Mr. Poliquin, you are recognized for five minutes.
    Mr. Poliquin. God bless the United States of America, God 
bless our veterans. The more knowledge, the more education the 
better. We owe it to our veterans. God bless you.
    Thank you. No questions, sir.
    The Chairman. I thank the gentleman for yielding.
    Mr. Correa, you are recognized for five minutes.
    Mr. Correa. No questions, but comments. Again, Mr. Chair 
and Ranking Member, Members of this Committee, and our 
veterans, thank you very much. It looks like a great piece of 
legislation.
    I am going to put it to the acid test in the next few 
weeks. I am going to go back to my district and do a road show 
with my veterans and see what they have to say. I think they 
will be happy, but they have the final say.
    Thank you very much, sir.
    The Chairman. Thank you, Mr. Correa. Thank you, sir.
    Let's see--oh, okay. Yes, Dr. Dunn. Sorry.
    Mr. Dunn. Thank you, Mr. Chairman. Let me add my thanks 
both to you and to Mr. Walz. It is a pleasure and an honor to 
serve with you on this Committee, and also to serve the men and 
women who served us so well in uniform.
    I will say that it is sort of sad to contemplate in 
response to your remark about the newspaper, you may not see 
this in the newspaper tomorrow. We may not, but I think it is 
actually some of the most important things that we have done in 
a long time up here.
    And thank you all very much and thank you, Mr. Chairman.
    I yield back.
    The Chairman. I thank the gentleman for yielding.
    General Bergman, you are recognized for five minutes.
    Mr. Bergman. Well, as the Chairman of the Oversight and 
Investigation Committee, I hope I don't have a follow-up 
hearing on this, and I am sure the Ranking Member Kuster feels 
the same.
    Thanks to everyone for all you have done, but I do have a 
quick question.
    Mr. Coy, when you implement the policies in this bill, what 
do you anticipate the biggest challenges are going to be for 
the VA. Knowing this is a change, this is a new bill, what are 
you thinking you are going to run into?
    Mr. Coy. I think across the board when you talk to the 
people that work at the VA, this bill is an exciting bill for 
lots of reasons and many of them have been expressed this 
evening.
    Probably my biggest concern is two words: IT. We have an IT 
system and much or almost all of these sections require some 
degree of changes in our IT system, and that is what concerns 
me the most, sir.
    Mr. Bergman. Okay. Thank you.
    Mr. Hubbard, in your written testimony you discussed the IT 
needs of the GI Bill and they are overlooked. Could you please 
address that thought and how it is, you know, best addressed in 
this bill?
    Mr. Hubbard. Yes. Thank you for the question, Congressman, 
I appreciate that.
    We too support the VA on a daily basis, we work closely 
with their staff and are intimately familiar with many of the 
needs required to implement many of these provisions. As such, 
we had that expressed in there and certainly fully support the 
VA. We would love to work with this body to ensure that the 
intent of this legislation is carried out and executed properly 
and to the full extent of the available provisions provided, 
and we look forward to that.
    Mr. Bergman. Thank you.
    And, you know, I know it is early in the process here and, 
you know, we are before even a rollout, but I just implore the 
VA and all the VSOs and all those involved with the rollout of 
this that sense of urgency when it comes to actually catching 
something early on when it is not going right, that sense of 
urgency brings it to the forefront so we can address the issue 
on behalf of the veterans.
    And with that, sir, I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman for yielding.
    Mr. Banks, you are recognized for five minutes.
    Mr. Banks. No questions, Mr. Chairman.
    The Chairman. I thank the gentleman for yielding.
    Miss Gonzalez-Colon, you are recognized for five minutes.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    I will have no questions, but I would like to command and 
recognize your leadership and Mr. Walz. It is an honor to serve 
on this Committee under your leadership.
    I think it is a great opportunity to see things happening 
in just seven months I have been here, so many great 
legislation, and being here today, amending and having a new 
bill, a GI Bill.
    I can't vote on the floor, as you may know, as a 
representative from the Island, but this bill, I will be on 
Wednesday in this markup when I do and can vote, and 
representative for the million American citizens that do go to 
war and represent the United States in every branch of our 
military that do serve proudly. I feel very honored to be an 
original cosponsor of this bill.
    Thank you and I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Mr. Rutherford, you are recognized for five minutes.
    Mr. Rutherford. I yield back, Mr. Chairman, my time, other 
than I don't want to miss the opportunity to thank all of our 
VSOs, everyone in this room. Thank you so much, panel.
    And thank you, Mr. Chairman and the Ranking Member and 
Committee. God bless.
    The Chairman. I thank the gentleman for yielding.
    And on behalf of this Committee, I want to thank each and 
every one of you for your testimony and your incredible hard 
work, along with the staff, over the past several months. You 
know, we have had a hiccup or two getting where we are tonight 
sitting here and Wednesday we are going to mark this up, and 
hopefully get unanimous consent and on board.
    And I can't tell you how much I appreciate personally your 
effort of all the organizations in this room and sat down 
around the table with staff and worked out the issues. And it 
is the way it should work and I can't not thank you enough for 
that.
    I will now yield to Mr. Walz for any closing statements.
    Mr. Walz. I concur.
    The Chairman. I think there are three or four things that 
are for me absolute terrific. My GI Bill benefit ran out in ten 
years, this is a lifetime benefit. People having to retain in 
their lives now for these incredible tech jobs and so forth 
that are out there to be had right now, high-paying jobs.
    I think the Guard and Reserve, that is bothered me since I 
have been here that we didn't call a Guard and Reservist a 
veteran and it just bothered me, tremendously bothered me. And 
I think now doing the right thing for the Guard and Reserve is 
to me very important.
    And I think the Purple Heart recipients, I mean, that goes 
without saying. I think Americans wouldn't understand why that 
wouldn't happen and I think once they understand that it is 
happening, I think they will be very pleased that this 
Committee and that the VSOs and others have worked towards this 
means.
    And another one for me are the Gold Star families that lose 
a loved one in service to our great Nation and then find out 
that we are not treating them the same as others. That was 
wrong and we have corrected those wrongs in this bill. And I 
again, once again, I can't thank you enough for the work you 
have done to make this successful.
    And before we close, I ask unanimous consent that the 
statements be submitted into the hearing record for the 
following organizations and individuals: Representative David 
McKinley of West Virginia, Representative Markwayne Mullin of 
Oklahoma, Representative Tim Ryan of Ohio, Representative Susan 
Brooks of Indiana, Representative Raul Labrador of Idaho, the 
Military Order of the Purple Heart, the National Guard 
Association of the United States, the Veterans Education 
Success, Captain Edward H. Hill, Vietnam Veterans of America, 
High Ground Veterans Advocacy, Iraq and Afghanistan Veterans of 
America.
    Hearing no objection, so ordered.
    I now ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
extraneous material.
    Hearing no objection, so ordered.
    I would like to remind the Members we will hold a Full 
Committee hearing markup on this legislation, as well as other 
bills pending before the Committee, 10:00 a.m. on Wednesday of 
this week.
    I thank all Members in attendance tonight. The meeting is 
adjourned.

    [Whereupon, at 8:46 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Curtis L. Coy
    Good evening, Mr. Chairman and Members of the Subcommittee. I am 
pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on H.R. 3218, the ``Harry W. Colmery Veterans 
Educational Assistance Act of 2017.'' Unfortunately, due to the late 
notice of the hearing and the receipt of the draft bill on July 10, 
2017, we are unable to provide complete cost estimates for many 
sections.
    Accompanying me today is James Ruhlman, Assistant Director for 
Policy and Procedures of the VA Education Service.
           TITLE I - POST-9/11 EDUCATIONAL ASSISTANCE PROGRAM
SECTION 101

    Section 101 would amend 38 United States Code (U.S.C.) Sec.  
3301(1)(B) to count the time that a reservist is ordered to active duty 
to receive authorized medical care, be medically evaluated for 
disability, or complete a Department of Defense (DoD) health care 
study, as active duty for purposes of the Post 9/11 Veterans 
Educational Assistance Act of 2008. The amendment would be retroactive 
to immediately after enactment of the Post-9/11 Veterans Educational 
Assistance Act of 2008, and a reservist could use such entitlement to 
pursue a course of education on or after August 1, 2018.
    VA supports the intent of section 101, regarding the proposed 
changes to qualifying active duty service under the Post-9/11 GI Bill, 
subject to the availability of funds. We note, however, that this 
change to the eligibility criteria would require VA to make 
modifications to the type of data exchanged between DoD and VA through 
the VA/DoD Identity Repository and displayed in the Veteran Information 
System. In addition, new rules would need to be programmed into the 
Long term Solution system (LTS) in order to calculate eligibility based 
on service described in new section 3301(1)(B) and to allow for 
retroactive benefit payments, while limiting awards of educational 
assistance based on such service to programs pursued on or after August 
1, 2018. VA estimates that it would need one year from enactment to 
complete these changes.
    There are no additional full time equivalent employee (FTE) or 
general operating expense (GOE) costs associated with the proposed 
legislation.

SECTION 102

    Section 102 would amend 38 U.S.C. Sec.  3311(b) by consolidating 
the current amount of qualifying active duty service required after 
September 10, 2001, for payment of educational assistance at the 50-
percent and 60-percent benefit levels under the Post-9/11 Educational 
Assistance Program. As a result, the current benefit level requiring at 
least six months but less than twelve months of active-duty service 
would be eliminated. This means that an individual with aggregate 
service of at least six months but less than eighteen months of active-
duty service (excluding entry and skill training) would qualify at the 
60 percent benefit level. Section 102 would be effective on August 1, 
2018.
    VA supports section 102, subject to the availability of funds. VA 
estimates that it would require one year from the date of enactment to 
make modifications to the LTS necessary to implement section 102. We 
have not, however, fully determined if there would be any costs 
associated with information technology (IT) changes.
    Finally, additional conforming amendments to title 38 U.S.C. would 
be required based upon the changes made by amending section 3311(b) and 
3313(c).
    There are no FTE and GOE costs requirements associated with this 
section.

SECTION 103

    Section 103 would amend 38 U.S.C. Sec.  3311(b) to expand Post-9/11 
GI Bill educational assistance to individuals awarded the Purple Heart 
for service in the Armed Forces occurring on or after September 11, 
2001, at the same rate (100%) as for individuals entitled to Post-9/11 
GI Bill educational assistance who served at least 3 years on active 
duty or who served at least 30 days on active duty and were discharged 
for a service-connected disability. Section 103 would also allow such 
Purple Heart recipients to participate in the Yellow Ribbon G.I. 
Education Enhancement Program. Section 103 would be effective August 1, 
2018.
    VA supports section 103, subject to the availability of funds. 
Because VA would need to modify its existing IT system to implement 
section 103, there would be associated IT costs. Specifically, VA would 
need to modify the LTS, VA's Post-9/11 GI Bill processing system, to 
verify eligibility for Purple Heart recipients. VA would also need to 
make changes to the VA application forms (VA Form 22-1990 and Veterans 
On-Line Application) to identify Purple Heart recipients. VA suggests a 
review of other medals, i.e., Medal of Honor, Silver Star, and Service 
Cross, recipients of which could also merit eligibility at the 100% 
benefit level as well.

SECTION 104

    Section 104 would provide that a reservist who established 
eligibility to educational assistance under 10 U.S.C. Sec.  16163(a)(1) 
before November 25, 2015, and loses eligibility for such assistance 
under 10 U.S.C. Sec.  16167(b) would be able to elect to have such 
service credited towards establishing eligibility under 38 U.S.C. Sec.  
3313 equal to the number of months of entitlement remaining under 
chapter 1607 of title 10 U.S.C.
    VA supports the intent of section 104 because it would provide 
educational assistance benefits for individuals who abruptly lost 
eligibility to the Reserve Educational Assistance Program on November 
25, 2015. However, VA has the following concerns regarding section 104. 
First, section 104(c) refers to 38 U.S.C. Sec.  3311(b)(6) as amended 
by section 104(a); however, section 104(a) does not contain an 
amendment to section 3311(b)(6). We believe that section 104(c) should 
refer to section 102(a) of the bill, and we recommend that section 
104(c) be amended accordingly. Second, we interpret section 104(c) to 
mean that all individuals establishing eligibility under this provision 
would be eligible for Post-9/11 GI Bill benefits at the 60-percent 
benefit level, regardless of the amount of aggregate service. However, 
section 104 is silent as to how additional active-duty service not 
credited toward chapter 1607 would impact the benefit level of an 
individual who establishes eligibility to the Post-9/11 GI Bill under 
section 104. We would be happy to provide further technical assistance 
as necessary to accomplish the desired intent.
    There are no additional FTE or GOE cost requirements associated 
with this section.

SECTION 105

    Section 105 would amend Sec.  3313(c)(1)(B)(i)(I) of title 38 to 
provide for the calculation of the monthly housing allowance (MHA) 
payable under the Post-9/11 GI Bill based on the location of the campus 
where the individual physically participates in a majority of classes, 
rather than the location of the institution of higher learning (IHL) at 
which the individual is enrolled. Section 105 would apply to the 
initial enrollment in a program of education on or after August 1, 
2018.
    VA supports section 105 because it would make MHA payments 
commensurate with the cost of housing in the location where students 
actually attend classes. In particular, section 105 would address two 
situations in which the current MHA is likely not aligned with the cost 
of living where an individual actually attends classes: (1) courses 
that are held at a branch or satellite location of an IHL rather than 
at the IHL's main campus; and (2) online degree programs that require 
some in-residence courses. We believe that section 105 would also 
remove the issue of the amount of the MHA as a factor in choosing a 
school and instead allow students to focus on the educational program 
when choosing an IHL. VA would need to modify LTS in order to calculate 
MHA based on whether the initial enrollment in a program of education 
occurred on or after August 1, 2018.
    VA is unable to determine if any costs or savings would result from 
section 105 because of a lack of data on trainees who attend school at 
a branch location with a zip code that is different than the main 
campus. Therefore, the total increase or decrease in MHA payments 
cannot be determined. This legislation would ensure that MHA payments 
are relative to the trainees' actual training location and cost of 
living, not the main campus' location. Additionally, this bill would 
prevent trainees from seeking an IHL that would yield a higher MHA 
payment at a main campus when compared to a branch campus. If trainees 
no longer seek IHLs based on higher MHA payments, this may result in a 
savings. However without data, VA cannot determine if this bill would 
result in any costs or savings. There are no additional FTE or GOE cost 
requirements associated with this section.

SECTION 106

    Section 106 would amend 38 U.S.C. Sec. Sec.  3315(c) and 3315A to 
allow for the proration of entitlement charges for licensing and 
certification examinations and national tests under the Post-9/11 GI 
Bill based on the actual amount of the fee charged for the test. 
Section 106 would also add educational assistance for chapter-33 
beneficiaries for a ``national test that evaluates prior learning and 
knowledge and provides an opportunity for course credit at an 
institution of higher learning as so described.'' The amendments made 
by this section would apply to a test taken on or after August 1, 2018.
    VA supports section 106 because it would benefit Post-9/11 GI Bill 
beneficiaries by reducing the negative impact of test reimbursement on 
their remaining benefit entitlement and increasing the months of 
training available for the beneficiaries, thus expanding educational 
opportunities. Under current sections 3315 and 3315A, an individual is 
charged entitlement for the reimbursement of fees associated with a 
licensing or certification exam, or a national test, in whole months. 
Thus, VA charges an individual 1 month of entitlement for each 
$1,832.96 reimbursed for the academic year beginning on August 1, 2016, 
rounded to the nearest whole month, regardless of the cost of the test. 
However, VA suggests that the parenthetical ``(rounded to the nearest 
whole month)'' be struck from sections 3315(c) and 3315A(c) as the 
phrase would now be superfluous.
    As noted in VA's Fiscal Year (FY) 2017 legislative proposal, the 
Department believes the law should be amended to charge entitlement for 
reimbursement of VA approved exams at a prorated number of days of 
entitlement based on the ratio of the cost of the test to the statutory 
amount.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 107

    Section 107 would add a new section 3699 to title 38 U.S.C. which 
would provide that, if VA finds that an individual was forced to 
discontinue pursuit of a course or courses under the Post-9/11 GI Bill 
as a result of closure of an institution or disapproval of a course of 
study and did not receive credit or lost training time toward 
completion of the program being pursued at the time of closure, any 
payment of educational assistance to the individual for pursuit of the 
course or courses would not be charged against the individual's 
entitlement to benefits under the Post-9/11 GI Bill or counted against 
the aggregate period for which 38 U.S.C. Sec.  3695 limits the 
individual's receipt of educational assistance. The period for which 
educational assistance would not be charged against entitlement or 
counted toward the aggregate period under section 3695 would not exceed 
the aggregate of the portion of the period of enrollment from which the 
individual failed to receive credit or lost training time, and the 
period by which a monthly stipend is extended under section 
3680(a)(2)(B) of title 38. VA may treat a course of education that is 
disapproved under this chapter as being approved, if VA determines, on 
a case-by-case basis, that the course was disapproved for one of the 
reasons stated above and continuing the course is in the best interest 
of the individual.
    Section 107 would also amend section 3680(a) of title 38 U.S.C. to 
authorize VA to prescribe regulations to continue awarding a monthly 
housing allowance stipend under the Post-9/11 GI Bill following a 
permanent school closure or the disapproval of a course of study as 
described in section 3699(b)(1)(B). The housing allowance would be 
payable until the earlier of the date of the end of the term, quarter, 
or semester during which the school closure or disapproval occurred; or 
120 days after the date of the school closure or disapproval. The 
proposed legislation would take effect 90 days after enactment and 
apply to courses and programs of education discontinued after January 
1, 2015.
    VA supports section 107. The closure of educational institutions 
while GI Bill beneficiaries are actively pursuing an approved program 
of education or training negatively impacts student Veterans and 
eligible dependents. While VA can pay benefits for the term, quarter, 
or semester up to the time of the school's closure, the student is 
charged entitlement for the period prior to the closure for which 
benefits are received, even if the student does not earn any credit 
toward completion of a program. In some instances, this could result in 
a beneficiary exhausting chapter-33 entitlement prior to being able to 
complete his/her program at another institution. Allowing VA to restore 
entitlement and to continue to pay MHAs in the event of a school 
closure would be in the best interests of Veterans and would help 
ensure that they are able to successfully complete their educational 
goals.
    VA sees no need for the provision that would allow for the 
restoration of entitlement in cases involving course disapproval. 
Current VA policies provide that whenever a program loses its approval, 
any student currently enrolled in the program is allowed to complete 
the current term because, unlike in the case of a school closure, the 
students may still pursue the program. Therefore, there are not any 
students who do not receive credit, or lose training time, toward 
completion of the program as a direct result of the disapproval. 
Consequently, inclusion of disapproved courses in section 107 is 
superfluous.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 108

    Section 108 would amend 38 U.S.C. Sec.  3317(a) to provide that 
recipients of the Marine Gunnery Sergeant John David Fry Scholarship 
would be covered under the Yellow Ribbon GI Education Enhancement 
Program. The Yellow Ribbon program is currently available to Veterans 
and most transfer of entitlement recipients receiving Post-9/11 GI Bill 
benefits at the 100% benefit level attending institutions of higher 
learning. The program provides payment for up to half of the tuition 
and fee charges that are not covered by the Post-9/11 GI Bill, such as 
charges that exceed an academic year cap or out-of-state charges, if 
the institution enters into an agreement with VA to pay or waive an 
equal amount of the charges that exceed Post-9/11 GI Bill coverage. 
This section would be effective on August 1, 2018.
    VA supports the intent of section 108, subject to the availability 
of funds. Also, VA estimates that implementation of section 108 would 
require one year from the date of enactment to make needed 
modifications to the Benefits Delivery Network (BDN), the VA-Online 
Certification of Enrollment (VA-ONCE), and LTS.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 109

    Section 109 would amend 38 U.S.C. Sec.  3319 to authorize transfer 
of unused Post-9/11 GI Education Assistance benefits to a different 
eligible dependent upon the death of the originally designated 
dependent if the dependent dies before using such entitlement. Also, if 
an individual transferring entitlement under section 3319 dies before 
the dependent to whom entitlement is transferred has used all of such 
entitlement, the dependent would be able to transfer such entitlement 
to another eligible dependent. Section 109 would apply to deaths on or 
after August 1, 2009, and the entitlement could be used on or after 
August 1, 2018.
    VA defers to DoD regarding the amendment providing for designation 
of a dependent upon the death of the originally designated dependent. 
Currently, an individual cannot designate a new dependent to receive a 
transfer of entitlement to Post-9/11 Education Assistance after 
separating from the Armed Forces. However, we interpret section 109 to 
provide that if a Servicemember or Veteran does not transfer the 
maximum entitlement to a dependent, the amount that was not transferred 
would be forfeited.
    VA supports allowing an eligible dependent to transfer entitlement 
to another eligible dependent if the individual who transferred 
entitlement dies before the designated dependent uses all of his or her 
entitlement. Currently, if an individual who has transferred 
entitlement subsequently dies, no additional changes to the transferred 
entitlement are authorized.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 110

    Section 110 would add a new section, 3320 to title 38 U.S.C. to 
create the Edith Nourse Rogers STEM Scholarship. The scholarship would 
provide up to 9 months of additional Post-9/11 GI Bill benefits to an 
individual who: (1) has used all of his or her Post-9/11 GI Bill 
educational assistance or who will, based on the individual's rate of 
usage, use all such assistance within 180 days of application for 
benefits; and (2) is enrolled in a program of education leading to a 
post-secondary degree that requires more than the standard 128 semester 
(or 192 quarter) credit hours for completion in biological or 
biomedical science; physical science; science technologies or 
technicians; computer and information science and support services; 
mathematics or statistics; engineering; engineering technologies or an 
engineering-related field; a health profession or related program; or a 
medical residency program, and has completed at least 60 standard 
semester (or 90 quarter) credit hours in a field listed above, or has 
earned a post-secondary degree in one of these fields and is enrolled 
in a program of education leading to a teaching certification. Priority 
would be given to individuals who require the most credit hours and to 
individuals who are entitled to 100 percent of Post-9/11 GI Bill 
benefits. Each eligible individual would be entitled to a one time 
lump-sum payment that is the lesser of the amount available under 38 
U.S.C. Sec.  3313 or $30,000. These additional benefits would not be 
transferrable to a dependent. Individuals who receive this scholarship 
would also be eligible for the Yellow Ribbon G.I. Education Enhancement 
Program. However, VA would not be authorized to issue any Yellow Ribbon 
payments for these individuals. Additionally, the total amount of 
benefits paid to all eligible individuals may not exceed $100,000,000 
during any fiscal year. Section 110 would be effective on August 1, 
2018.
    VA supports the intent of section 110 subject to the availability 
of funds. However, VA has concerns about the eligibility criteria for 
the additional educational assistance. As currently drafted, 
individuals who have completed at least 60 standard semester (or 90 
quarter) credit hours in a science, technology, engineering, and 
mathematics (STEM) program of education at the point at which they 
exhaust the 36 months of the chapter-33 entitlement would be eligible 
for an additional 9 months of educational assistance. We do not believe 
that providing additional benefits under these circumstances would 
serve the purpose of section 110, which is designed for programs that 
require more than the standard 128 semester (or 192 quarter) credit 
hours for completion. The additional 9 months of educational assistance 
would not enable individuals who previously completed 60 standard 
semester hours of STEM classes to complete a STEM program.
    In addition, it would be difficult for VA to gauge whether an 
individual would use all of his or her entitlement within 180 days from 
date of application for the scholarship. Several factors influence 
entitlement usage such as the length of the enrollment period and an 
individual's decision to reduce the number of classes in which the 
individual is enrolled or to withdraw from school for a period of time.
    To implement section 110, VA would need to make modifications to 
VA-ONCE and LTS in order to verify eligibility and allow for the award 
of additional months of educational assistance. VA estimates that it 
would require 1 year from the date of enactment to make the IT changes 
necessary to implement section 110.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 111

    Section 111 would amend 38 U.S.C. Sec.  3321(a) and (b) by 
eliminating the time limitation for use of Post-9/11 GI benefits by 
individuals, including children of deceased Servicemembers, who first 
become entitled to benefits on or after January 1, 2018. Individuals 
who first become entitled to Post-9/11 GI Bill educational assistance 
prior to January 1, 2018, would remain subject to the current 15-year 
time limitation for using their Post-9/11 GI Bill benefits.
    VA supports section 111, subject to the availability of 
funds,because it would ensure that certain beneficiaries have an 
expanded opportunity to use all their Post-9/11 GI Bill educational 
assistance. However, section 111 would require VA to administer a 
lifelong program for millions of Veterans and dependents. As a result, 
additional staffing and IT resources would be needed because VA would 
have to make modifications to the LTS. Also, section 111 could impact 
VA's ability to predict future workload trends and resource 
requirements.

SECTION 112

    Section 112 would add a new subsection (j) to 38 U.S.C. Sec.  3313 
to provide for payment of MHA on a pro rata basis for any period in 
which a reservist pursuing a program of education is not performing 
active duty. More specifically, VA would award housing allowance 
benefits for each day of the month an individual is not serving on 
active duty. Currently, monthly housing allowance benefits for an 
otherwise eligible individual are terminated at the end of the month 
that the individual enters onto active duty service. When discharged, 
VA commences payment of the monthly housing allowance for an otherwise 
eligible individual at the beginning of the following month. This 
amendment would be applicable to a quarter, semester or term commencing 
on or after August 1, 2018.
    VA supports section 112 as it would be equitable to prorate MHA 
payments for any period in which a reservist or individual is not 
performing active duty. We note, however, that section 112 would result 
in a decrease in the amount of MHA for the month in which a reservist 
is ordered to active duty and in an increase in the MHA for the month 
in which a reservist is released from active duty. Consequently, the 
amount of MHA that each reservist receives would depend upon the dates 
on which the reservist entered and was released from active duty. We 
note as well that new section 3313(j) would not apply to other persons 
on ``active duty'' as defined in 38 U.S.C. Sec.  3301(1)(A) and (C).
    We note that due to the proposed definition of ``an individual'' as 
specified in the bill, and current VA regulations, members of the 
regular components of the Armed Forces and members of the Army National 
Guard or Air National Guard serving on active duty would not be 
impacted by the amendment (i.e., changes to housing allowance benefits 
due to changes in duty status would continue to be effective at the 
beginning of the month following the change in duty status based on VA 
regulations).VA would have to modify the LTS to calculate the prorated 
MHA and manual award calculations and payment authorizations would be 
required until the LTS is modified.

SECTION 113

    Section 113(a) would require VA to make changes and improvements to 
the Veterans Benefits Administration (VBA) IT systems to ensure that, 
to the maximum extent practicable, all original and supplemental claims 
for educational assistance under chapter 33 are adjudicated 
electronically and that rules-based processing is used to make 
decisions on such claims with little human intervention.
    The proposed section would require VA to submit a plan to implement 
the changes and improvements to VBA's IT systems to Congress no later 
than 180 days after enactment. VA would also be required to submit a 
report to Congress on the implementation of the changes and 
improvements one year after enactment.
    Finally, this section would authorize an appropriation of 
$30,000,000 to VA to carry out the requirements of this section during 
fiscal years 2018 and FY 2019. VA concurs that there is room to improve 
the automation of the processing of education benefits claims. VBA is 
currently working with the Office of Information and Technology to 
assess IT capabilities. While VA is currently prioritizing replacement 
of legacy systems due to the risk of maintaining these systems, VA is 
also considering additional LTS functionality needed to provide faster 
and more accurate claims processing for those who apply for Post-9/11 
GI Bill benefits and submit supplemental claims. The current average 
processing time for eligibility claims, which are not automated and are 
very labor-intensive, is 26 days. During calendar year 2017, an average 
of over 5,200 supplemental (reenrollment) claims were processed 
automatically each day using LTS, without human intervention. The 
remainder of the supplemental claims are processed using partial 
automation.
    VA would be able to provide a plan of implementation for the 
required IT changes within 180 days after enactment; however, VA would 
require at least 24 months from the date of enactment in order to 
report on those changes due to the time needed for the procurement 
process, systems development, testing, and deployment.
    No benefit costs are associated with section 113. There are no 
additional FTE or GOE costs associated with this section.

SECTION 114

    Section 114 would require the Secretary of Veterans Affairs to 
carry out a pilot program for 5 years under which eligible Veterans who 
are entitled to educational assistance would be able to enroll in high 
technology programs of education. The term ``high technology program of 
education'' would be defined as a program of education that is offered 
by an entity other than an IHL, does not lead to a degree, and provides 
instruction in computer programming, computer software, media 
application, data processing, or information sciences. Within 180 days 
after August 1, 2018, VA would be required to seek to enter into 
contracts with multiple qualified providers of such programs. Under 
these contracts, VA would agree to pay the provider 25 percent of the 
cost of providing the program of education upon enrollment of an 
eligible Veteran; 25 percent of the cost upon completion of the program 
by the Veteran; and 50 percent of the cost upon the employment of the 
Veteran in the field of study of the program following completion of 
the program. A qualified provider would be defined as a provider of a 
high technology program that has been operational for at least 2 years; 
has successfully provided the high technology program for at least one 
year; and meets the approval criteria developed by VA. VA would be 
required to give preference to a qualified provider that offers tuition 
reimbursement for students who complete a program of education offered 
by the provider and do not find full-time meaningful employment in the 
field of study of the program within the 180-days after completing the 
program. Each Veteran enrolled in a high technology program of 
education under the pilot program on a full-time basis would receive a 
monthly housing stipend as follows: in the case of a Veteran pursuing 
resident training, the monthly amount of the basic allowance for 
housing payable under section 403 of title 37 U.S.C. for a member with 
dependents in pay grade E-5 residing in the military housing area that 
encompasses all or the majority portion of the zip code area in which 
is located the institution at which the individual is enrolled; or in 
the case of a Veteran pursuing a program of education through distance 
learning, a monthly amount equal to 50 percent of the amount payable to 
a Veteran enrolled full-time pursuing resident training. This bill 
would require VA to submit to Congress a report on the pilot program 
not later than one year after the date of enactment and annually 
thereafter. The bill would authorize an appropriation of $15 million 
for each fiscal year during which the pilot program operates. The 
authority to carry out the pilot program would terminate 5 years after 
the date on which VA first enters into a contract under this bill.
    VA has significant concerns regarding the implementation and 
administration of the pilot program. First, section 114 would apply to 
all Veterans entitled to assistance under any VA education program. 
However, it would also require payment of the Post-9/11 GI Bill MHA, 
which is a marked departure from the rates currently payable under 
programs other than the Post-9/11 GI Bill. VA recommends that section 
114 apply only to covered individuals under the Post 9/11 GI Bill. 
Second, section 114 would require VA to manage contracts and pay 
providers that are not IHLs. Given the scope of the pilot program, VA 
would have to hire additional FTEs to manage the program. Finally, VA 
estimates that it would require 12 to 18 months from the date of 
enactment to make the IT system changes necessary to implement section 
114 and the acquisition timeline for $15 million in contracts.
    Section 114 does not specify whether the mandatory Readjustment 
Benefits account, discretionary VBA GOE account, or a mixture of both 
would be used to fund the pilot program. However, direct costs of the 
pilot, including payments for contractors and housing allowance, are 
estimated to be $15 million in 2018 and $75 million over 5 years.
            TITLE II - OTHER EDUCATIONAL ASSISTANCE PROGRAMS
SECTION 201

    Section 201 would amend 38 U.S.C. Sec.  3485(a)(4) by removing the 
expiration date of June 30, 2022, for work-study allowances for 
Veterans pursuing VA programs of rehabilitation, education, or training 
who perform certain ``qualifying work-study activity,'' which includes 
outreach services for a State approving agency (SAA), providing 
hospital and domiciliary care and medical treatment to Veterans in a 
State home, or performing an activity relating to the administration of 
a national cemetery or a state Veterans' cemetery.
    VA supports section 201 because it would permanently authorize 
work-study allowances for individuals who are performing work-study 
activities that involve providing services to or on behalf of 
Servicemembers and Veterans.
    Benefit costs are estimated to be $0 in FY 2018, $277,000 over 5 
years, and $6.6 million over 10 years. There are no additional FTE or 
GOE costs associated with this section.

SECTION 202

    Section 202 would amend 38 U.S.C. Sec.  3511(a)(1) to provide 
educational assistance under the Survivors' and Dependents' Educational 
Assistance (DEA) program for 36 months for individuals who first enroll 
in programs of education using such benefits on or after August 1, 
2018. Individuals who first enrolled in a program of education prior to 
August 1, 2018, would still qualify for a maximum of 45 months of 
entitlement.
    VA supports section 202 as this would bring the amount of 
entitlement under the DEA program in line with the maximum number of 
months of entitlement under all other VA educational assistance 
programs. VA would need to make modifications to the BDN in order to 
implement section 202.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 203

    Section 203 would increase the amounts of educational assistance 
payable for pursuit of institutional courses under the DEA program. An 
eligible person would be entitled to a monthly allowance of $1,224 for 
full-time coursework, $967 for 3-quarter time, and $710 for half-time 
coursework. The increases would be effective August 1, 2018.
    VA supports section 203, subject to the availability the funds, 
because it would provide additional funding for individuals currently 
utilizing the benefit for pursuit of these types of programs. These 
rates were last increased in 2003 and have only been increased through 
an annual cost of living allowance in subsequent years.
    There are no additional FTE or GOE costs associated with this 
section.
     TITLE III - ADMINISTRATION OF EDUCATIONAL ASSISTANCE PROGRAMS
SECTION 301

    Section 301 would amend 38 U.S.C. Sec.  3674(a) to provide that 
reasonable and necessary salary and travel expenses of SAA employees 
and local agencies that VA has agreed to pay would be payable out of 
appropriated amounts as well as from amounts available for payment of 
readjustment expenses. Section 301 would authorize $3 million in 
appropriated funds per fiscal year, and the maximum total amount 
available under section 3674 for any fiscal year would be increased 
from $19 million to $21 million. Beginning in FY 2019, the maximum 
total amount available for these expenses would increase by the same 
percentage as the annual increase in the benefit amounts payable under 
title II of the Social Security Act.
    VA supports section 301 as it would provide additional Federal 
funding in support of SAA duties. The current budgetary allocation of 
$19 million, unchanged since 2007, has not kept up with the 
inflationary pressures experienced by state governments. SAAs must have 
the necessary funding to maintain their critical mission. VA believes 
the proposed increase in the funding level and the annual appropriation 
would prove sufficient to cover both inflationary pressures and the 
SAA's expanded workload.
    There are no additional FTE or GOE costs associated with this 
section. We believe, however, that the language in new section 
3674(a)(4) and (a)(5) requires further clarification. On the one hand, 
new section 3674(a)(4) would state authorize appropriations of $3 
million ``[i]n addition to'' the $21 million provided for in new 
section 3674(a)(5). On the other hand, section 3674(a)(5) would state 
that the ``total amount made available under this section for any 
fiscal year shall be $21 million.'' It is unclear therefore whether 
appropriated funds for SAA funding would be $21 million plus the $3 
million authorized in annual appropriations under section 3674(a)(4) or 
whether only $21 million would be available.

SECTION 302

    Section 302 of this bill would amend 38 U.S.C. Sec.  3680A(a)(4) to 
authorize the use of Post-9/11 educational assistance to pursue 
accredited independent study programs at the following educational 
institutions that are not IHLs: area career and technical education 
schools as defined in 20 U.S.C. Sec.  2302(3) that provide post-
secondary level education and postsecondary vocational institutions as 
defined in 20 U.S.C. Sec.  1002(c). Currently, under section 
3680A(a)(4), the Secretary may only approve enrollment in an 
``accredited independent study program (including open circuit 
television) leading (A) to a standard college degree, or (B) to a 
certificate that reflects educational attainment offered by an 
institution of higher learning.'' As such, VA is not authorized to pay 
educational assistance for independent study courses at an institution 
that is not considered to be an IHL.
    VA supports section 302, subject to the availability of funds. This 
section would expand VA's approval authority to pay Post-9/11 GI Bill 
benefits for enrollment in accredited independent study certificate 
programs at educational institutions that are not IHLs but are 
accredited by an accreditor recognized by the Secretary of Education 
and at career and technical schools that lead to industry-recognized 
credentials and certificates for employment. VA understands and 
appreciates the importance of career and technical education courses 
and the growth in the utilization of online and other 21st century 
training modalities in the delivery of instruction for both degree and 
non-degree programs. As such, expanding the approval authority for 
certain independent study programs would be in the best interests of VA 
education beneficiaries.
    We note that, because section 302 would amend 38 U.S.C. Sec.  
3680A, the expansion of benefits would not be limited to Post-9/11 GI 
Bill benefits. If the intent of section 302 is to limit this expansion 
to chapter 33 beneficiaries, the provision should be codified in 
chapter 33 or the bill should be revised to incorporate this 
limitation.
    There are no FTE and GOE costs requirements associated with this 
section.

SECTION 303

    Section 303 would amend 38 U.S.C. Sec.  3698(c)(1)(C) to require VA 
to improve outreach and transparency to Veterans and Servicemembers by 
providing information on whether an IHL administers a priority 
enrollment system that allows certain student Veterans to enroll in 
courses earlier than other students.
    VA supports section 303. VA's GI Bill Comparison Tool currently 
enables prospective students to compare educational institutions using 
key measures of affordability and value through access to school 
performance information and consumer protection information. Providing 
information about priority enrollment for Veterans would further help 
Veterans become informed post-secondary education consumers. VA would 
need to make modifications to the GI Bill Comparison Tool to include 
information on priority enrollments. VA estimates that it would need 
one year from enactment to make these changes.

SECTION 304

    Section 304 would amend 38 U.S.C. Sec.  3684(c) to revise 
requirements governing reporting fees payable to educational 
institutions and joint apprenticeship training committees. Section 304 
would increase the annual fee to $16 for each eligible individual 
enrolled in VA's education and vocational rehabilitation and employment 
programs. Section 304 would prohibit an educational institution or a 
sponsor of a program of apprenticeship with 100 or more enrollees from 
using reporting fees from VA for or merging such fees with the amounts 
available for the general fund of the educational institution or 
sponsor of a program of apprenticeship. This section would be effective 
on August 1, 2018.
    VA supports section 304 because it would prohibit schools and 
sponsors of apprenticeship programs from using reporting fees for, or 
merging such fees with, their general funds. Educational institutions 
and sponsors of apprenticeship programs are required to use reporting 
fees solely for making certifications or otherwise supporting programs 
for Veterans, and this would ensure that the reporting fees are used 
solely for those purposes.
    There are no additional FTE or GOE costs associated with this 
section.

SECTION 305

    Section 305 would authorize VA, in consultation with the SAAs, to 
provide training requirements for school certifying officials employed 
by covered educational institutions that offer courses of education 
approved under chapter 36 of title 38 U.S.C. If an educational 
institution does not ensure that a school certifying official meets the 
training requirements, VA may disapprove any course of education 
offered by the educational institution. A ``covered educational 
institution'' would refer to an educational institution that has 
enrolled 20 or more individuals using VA educational assistance, and a 
``school certifying official'' would be defined as an employee of an 
educational institution with primary responsibility for certifying 
Veteran enrollment at the educational institution. This section would 
be effective on August 1, 2018.
    VA supports section 305. VA currently provides guidance and 
training opportunities for school certifying officials via webinars, 
the School Certifying Official Handbook, and on the GI Bill website, 
but does not have the authority to require school certifying officials 
to complete this training or to disapprove educational programs if the 
training is not completed. Section 305 would provide VA with the 
authority to require school certifying officials to meet certain 
training requirements as determined by VA. VA suggests that the 
proposed requirements be codified in chapter 36 of title 38 U.S.C.
    No benefit costs are associated with this section. There are no 
additional FTE or GOE costs associated with this section.

SECTION 306

    Section 306 of the bill would amend 38 U.S.C. Sec.  3692(c) to 
extend the authorization for the Veterans' Advisory Committee on 
Education (VACOE) through December 31, 2022. VACOE provides advice to 
the Secretary on the administration of education and training programs 
for Veterans and Servicemembers, members of the National Guard and 
Reserve Components, and dependents of Veterans under chapters 30, 32, 
33, and 35 of title 38 U.S.C. and chapter 1606 of title 10, United 
States Code.
    VA supports section 306. If authorization for the VACOE is 
extended, the Secretary would be able to continue to receive 
recommendations and seek advice from VACOE in order to enhance VA's 
educational assistance programs.
    No benefit costs are associated with this section. GOE costs for 
the first year are expected to be $51,000 and include oversight, member 
operations, travel, and other fees for 10 members of the VACOE. 5 year 
costs are estimated to be $255,000.

SECTION 307

    Section 307 would amend chapter 36 of title 38 U.S.C. to add a new 
section, 3697B, titled ``On-campus educational and vocational 
counseling.'' New 38 U.S.C. 3697B would: (1) require VA to provide 
educational and vocational counseling services for individuals 
described in 38 U.S.C. 3697A at locations on IHL campuses as selected 
by VA; (2) provide criteria for the selection of IHLs to participate in 
these services; and (3) require that no later than 180 days after 
enactment, and each year thereafter, VA will submit a report to the 
Congress regarding the average ratio of counselors providing these 
services to individuals who receive these services at each location, a 
description of the services provided, and recommendations for improving 
the provision of these services.
    VA supports the objectives of providing eligible participants with 
quality, readily available counseling services. However, we believe 
that section 307 would duplicate the VetSuccess on Campus (VSOC) 
program, which VA already administers under the Secretary's authority 
in 38 U.S.C. Sec. Sec.  3115 and 3116. VSOC aims to help Veterans, 
Servicemembers, and their qualified dependents succeed and thrive 
through a coordinated delivery of on-campus benefits assistance and 
counseling, leading to completion of their education and preparing them 
to enter the labor market in viable careers.
    VA, however, remains concerned that the VSOC program is not 
separately funded and continues to leverage existing Vocational 
Rehabilitation and Employment counselors to fill VSOC positions. In 
addition, VA does not believe that reporting on the ratio of 
individuals served to counselors would accurately reflect the amount of 
services provided because counselors often have multiple contacts with 
an individual and handle multiple issues for the individual. We believe 
that it would be more accurate to report on the number of contacts in 
which services were provided by a counselor.

SECTION 308

    Section 308 would add a new section 3699A to title 38 U.S.C. that 
would require VA to make available to educational institutions offering 
courses of education that have been approved for educational assistance 
to which a Veteran or individual is entitled information about the 
amount of educational assistance to which a Veteran or individual is 
entitled. This information would be provided to the educational 
institution through a secure IT system accessible by the educational 
institution and would be updated regularly to reflect any amounts used 
by the Veteran or other individual. A Veteran or other individual 
pursuing a course of education may elect not to provide the information 
to an educational institution in a manner prescribed by VA. This 
section would be effective August 1, 2018.
    VA supports the intent of section 308. However, section 308 would 
present implementation challenges for VA. Currently, VA provides the 
amount of a Veteran's entitlement (original and remaining) and other 
information such as the delimiting date for educational assistance to 
the educational institution in which the individual is enrolled through 
VA-ONCE. This information is available for individuals training under 
chapter 30 of title 38 U.S.C.and chapters 1606 and 1607 of title 10 
U.S.C. after VA processes an award for education benefits. This 
functionality is not currently available for Veterans or other 
individuals training under chapters 32, 33, or 35 of title 38 U.S.C.; 
therefore, VA would need to make programming changes to VA-ONCE in 
order to make this information available for these individuals as well, 
and also ensure that the information is not provided to educational 
institutions for those individuals who make an election not to provide 
information. We note in this regard that there are very few individuals 
who remain eligible for chapter 32 benefits.
    No benefit costs are associated with this section. There are no 
additional FTE or GOE costs associated with this section.

SECTION 309

    Section 309 would amend 38 U.S.C. Sec.  3684(a) to require 
educational institutions to treat a course that begins 7 or fewer days 
before or after the first day of the academic term as if it began on 
the first day of the academic term for purposes of reporting enrollment 
under 3684.
    VA understands that section 309 would eliminate the separate 
reporting requirement for courses that begin seven or fewer days before 
the first day of an academic term. We note however that VA policy 
guidance currently does not require schools to separately certify 
classes that begin within 7 calendar days after the start of the term, 
quarter, or semester. Nonetheless, it should be noted that the amended 
section 3684(a) would not change the period(s) for which VA educational 
assistance can be paid, which are codified in 38 U.S.C. Sec.  3680(a) 
and in the various education benefit chapters. As a result, the 
information reported under the amended section 3684(a) would be 
inconsistent with the periods for which VA can award educational 
assistance.
                 TITLE IV - RESERVE COMPONENT BENEFITS
SECTION 401

    Section 401 would amend 38 U.S.C. Sec.  3301(1)(B), to include, in 
the case of members of the reserve components of the Armed Forces, 
service on active duty under a call or order to active duty under 10 
U.S.C. Sec. Sec.  12304a and 12304b as service constituting active duty 
for purposes of Post-9/11 GI Bill benefits. Section 401 would apply to 
such service in the Armed Forces occurring on or after the after the 
enactment of the Post- 9/11 Veterans Educational Assistance Act of 
2008, and entitlement to such benefits could be used to pursue a course 
of education beginning on or after August 1, 2018.
    VA supports section 401 of the bill, subject to the availability of 
funds. Under current law, 2 reserve component (RC) members who are 
serving side-by-side on active duty may not receive similar benefits 
under the Post-9/11 GI Bill. The active duty time of an RC member who 
volunteers for active duty under 10 U.S.C. Sec.  12301(d) is counted 
towards the aggregate time required to establish Post-9/11 GI Bill 
eligibility, while the active duty time of an RC member who was 
involuntarily activated under 10 U.S.C. Sec. Sec.  12304a or 12304b for 
similar duty does not count toward establishing Post-9/11 GI Bill 
eligibility. Section 401 would allow RC members who are involuntarily 
activated under 10 U.S.C. Sec. Sec.  12304a and 12304b to receive the 
same benefits as those RC members who have volunteered to perform duty 
under 10 U.S.C. Sec.  12301(d).
    The LTS would need to be programmed in order to calculate 
eligibility based on service under 10 U.S.C. Sec. Sec.  12304a and 
12304b and to limit awards of educational assistance based on such 
service to programs pursued on or after August 1, 2018.

SECTION 402

    Section 402 would amend 38 U.S.C. Sec.  3103(f) to extend the 
eligibility period for participation in a vocational rehabilitation 
program for RC members who are ordered to active duty under 10 U.S.C. 
Sec. Sec.  12304a and 12304b by the length of time the RC members serve 
on active duty plus 4 months.
    VA supports section 402. Currently, 38 U.S.C. Sec.  3103(f) 
provides for an extension of the eligibility period for vocational 
rehabilitation and employment benefits for reservists who are ordered 
to active duty under certain provisions of title 10 U.S.C. Section 402 
would provide the same extended eligibility period for reservists who 
are prevented from participating in a vocational rehabilitation program 
during their period of eligibility because they are ordered to active 
duty to provide assistance in response to a major disaster or emergency 
or to augment the active forces for preplanned missions in support of 
combatant commands.
                        TITLE V - OTHER MATTERS
SECTION 501

    Section 501 would make any modification of the amount of the basic 
allowance for housing (BAH) inside the United States applicable to 
benefits administered by VA. Section 501 would take effect on January 
1, 2018, and apply to individuals who first use their entitlement on or 
after that date.
    VA supports section 501, subject to Congress finding appropriate 
offsets. This legislation would align the maximum MHA rate for full-
time training under the Post-9/11 GI Bill with DoD's BAH rate for an E-
5 with dependents. The MHA and BAH rates have been out of alignment for 
a few years, which has led to confusion on the part of Post-9/11 GI 
Bill beneficiaries. The LTS would need to be programmed in order to 
calculate MHA based on whether the individual first used entitlement on 
or after January 1, 2018, or prior to that date.
    There are no FTE and GOE costs requirements associated with this 
section, but would incur some IT costs.
    This concludes our statement, Mr. Chairman. We would be happy now 
to entertain any questions you or the other members of the Subcommittee 
may have.

                                 <F-dash>
                Prepared Statement of Patrick D. Murray
    Chairman Roe, Ranking Member Walz, and distinguished members of the 
Committee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to present the VFW's thoughts on the pending GI Bill 
legislation.

Section 101

    The VFW supports this section which would allow for National 
Guardsmen and Reservists ordered to active duty for medical treatment 
to receive the same educational benefits as their active duty 
counterparts. There are service members who were injured during their 
military service and who are convalescing at military treatment 
facilities throughout the country, but are not accruing the same 
educational benefits as other service members currently on active duty. 
Their time on active duty should be considered no different than any 
others and this legislation will make that possible.
    This bill will rectify the mistake made by the Department of 
Defense (DOD) in putting National Guardsmen and Reservists on 12301(h) 
orders which exempt them from benefits in order to save money. DOD 
should not have used this cost cutting measure because it is 
detrimental to our troops' morale and welfare. The VFW endorses any 
legislation like this that will ensure full benefits for our troops 
while they are away from their civilian lives on active duty.

Section 102

    The VFW agrees with the intent of this section which would increase 
the rates of educational benefits provided to National Guardsmen and 
Reservists. Educating our veteran population is one of the VFW's 
highest priorities, and we are happy this committee values education as 
a priority as well.

Section 103

    The VFW supports this section increasing the rate of educational 
benefits for recipients of the Purple Heart. For the past decade and a 
half, our country has been sending National Guardsmen and Reservists 
into harm's way at an unprecedented level, and some of them have been 
wounded in the line of duty. Nearly 3,000 of these Citizen Soldiers 
have bled for this country, but have not accrued enough active duty 
time to attain full GI Bill benefits.
    The VFW thinks that service men and women who have bled for this 
country should be compensated for their injuries by granting them full 
education benefits. This is the least we as a country can do for those 
who put their bodies on the line for our freedoms.

Section 104

    Veterans who lost entitlements while pursuing education through the 
Reserve Educational Assistance Program (REAP) should be allowed to have 
their benefits restored. Allowing those that lost the benefit the 
ability to recoup their eligibility and switch into chapter 33 is a 
straightforward, common sense solution to address this problem.

Section 105

    The VFW would ask that more research be done on how many student 
veterans would be affected by this change and how much money would 
increase or decrease. There have been cases where school recruiters 
have sought out new students with the promise of making more money in 
their housing stipend based on zip code differences. Students should 
not choose their schools based on Basic Allowance for Housing rates; 
they should choose their schools based on the value of education they 
would receive. However, adjusting this rule could have some unintended 
consequences to veterans through no fault of their own. Making a change 
to the housing stipend with regard to the location of schools without 
doing the due diligence as to how many veterans this would affect is a 
hasty decision, and we would like to see additional information before 
we make a decision to support this portion of the legislation.

Section 106

    The VFW supports this section which would change the structure of 
charging for the costs of the tests and certifications veterans apply 
for, instead of a months' worth of eligibility from their GI Bill. The 
GI Bill pays for books, labs and fees for student veterans attending 
college. This bill would include test fees in the GI Bill payment 
structure, and would provide a savings to the government and also allow 
student veterans to retain GI Bill eligibility, instead of having to 
use it for a test fee.

Section 107

    The VFW strongly supports this section to protect student veterans 
who were negatively affected by school closures. Recently ITT Technical 
Institute and Westech College suddenly shuttered their doors after 
losing accreditation. This left thousands of student veterans out of 
school mid-semester, with no plan for what to do the rest of the term. 
They had lost weeks or months of GI Bill benefits that were wasted at 
failed institutions. Even worse, they lost the monthly housing stipend 
many relied upon for their living situation. This legislation allows 
these affected student veterans to recoup their lost months of GI Bill 
eligibility.
    While we support this initiative, we do not feel it goes far 
enough. We think student veterans should be able to recoup the months 
of eligibility wasted at the closed institutions just like traditional 
students can with Pell Grants. Student veterans who attended schools 
like ITT have now lost those months of GI Bill eligibility and they 
have no credits to show for it. The VFW has heard from student veterans 
from the closed schools, and they are now struggling to complete their 
degrees without their previous credits. GI Bill eligibility should be 
allowed to be recouped like Chapter Four Pell Grants can be by 
traditional students. Student veterans deserve the same equity as every 
other student affected by school closures.
    Additionally, these student veterans now have no monthly income 
from their GI Bill benefits. The VFW strongly supports extending the 
Basic Allowance for Housing payments for a maximum of four months or 
until the end of the term, whichever is earliest. Our team at the VFW 
immediately reached out to the student veterans affected by each of the 
school closures and offered them a stopgap measure through our Unmet 
Needs Program. We provided the student veterans with some financial 
stability to make it through the next month or so while they got 
settled after this major life upheaval. This was, however, only a band-
aid for the real problem. These student veterans need protection for 
the future so issues like this do not affect them as badly as these 
past closures have.

Section 108

    The VFW supports this section that offers additional financial 
assistance for the children of our fallen heroes. The Fry Scholarship 
gives 100 percent GI Bill benefits to the children and spouses of 
fallen service members who gave their lives serving our country. While 
this is a great benefit for the families of the fallen, there are some 
cases where financially it is not enough.
    This legislation would bridge the gap, so the children or spouses 
who are eligible for the Fry Scholarship would not have to pay any out-
of-pocket costs to achieve their educational goals. Allowing recipients 
of the Fry Scholarship eligibility to the Yellow Ribbon Program is just 
a very small measure that does not even begin to repay the sacrifice 
their service member made for our country.

Section 109

    The VFW agrees with the intent of this section which would allow 
for the transfer of benefits to a surviving child after the loss of 
another child. The loss of a child is such an unimaginable tragedy that 
allowing the transference of benefits to a surviving child is only a 
small measure of relief that we feel is completely reasonable. If a 
veteran has already transferred their benefits to one child, it should 
be in their right to move the benefit to another child in cases of 
death.

Section 110

    The VFW strongly supports this provision to grant additional months 
of GI Bill eligibility for student veterans pursuing degrees in 
Science, Technology, Engineering and Math (STEM). Our nation is making 
a push to encourage more students to pursue STEM degrees in order to be 
competitive and outpace other nations around the world. Student 
veterans should be at the forefront of this initiative. In order to 
make this a possibility, there needs to be some additional eligibility 
granted for those pursuing these degrees, because STEM programs often 
take longer than the traditional four years to complete a bachelor's 
degree. The VFW wants to see student veterans succeed at the highest 
levels, and extending school eligibility in this case may be necessary 
to complete these highly important degrees.

Section 111

    The current GI Bill has a 15-year, use-it-or-lose-it time limit on 
the benefit. This arbitrary cap negatively impacts those veterans 
looking to use their educational benefit later on in life. Veterans 
should not be punished for successfully transitioning shortly after 
their service, and choosing to go back to school afterwards. This 
legislation would eliminate the 15-year limit and allow the GI Bill to 
be used whenever a veteran chooses, making this truly a forever GI 
Bill.

Section 112

    The VFW supports prorating the monthly eligibility for those 
service members called up on involuntary orders. National Guardsmen and 
Reservists should not lose an entire month of eligibility if they are 
not using the entire month due to activation orders. These service 
members should have that month prorated so they can still retain some 
of the eligibility.

Section 113

    The VFW strongly supports the improvement of Department of Veterans 
Affairs (VA) information technology (IT) systems. Time and time again, 
VA has failed to accurately account for millions of dollars of wrongful 
payments due to outdated IT systems. Any efforts to enhance the IT 
systems and bring them into the 21st century is strongly supported by 
the VFW. We would like to see this fixed as soon as possible in order 
to save taxpayer money and alleviate repayment burdens from veterans 
attending school.

Section 114

    The VFW supports this section as it would provide new job 
opportunities in expanding fields for the future. Creating innovative 
ways that service members and veterans can achieve training and 
proficiency in new technology-related fields is essential for the 
future of our country and those who served it. The VFW would like to 
see this program move forward, and we highly endorse the input from the 
State Approving Agencies (SAA), which are instrumental in ensuring the 
value and validity of programs like this. The SAA is tasked with 
overseeing programs such as this and we would like their agencies' 
approval before moving completely forward with this as a permanent 
program.

Section 201

    This section is a simple extension of VA's authority to offer work-
study allowances for student veterans. The VFW has long supported VA's 
work-study program, and we would proudly support this initiative to 
extend the program to 2027. Work-study is a valuable tool for student 
veterans to support valuable initiatives in and around their school 
community and earn extra income while taking classes.
    While the VFW supports this addition, we would like to see the end 
date for this program extended indefinitely. There should not be any 
time in the foreseeable future where there are not veterans attending 
schools after their enlistments, so we do not see any time where work-
study would not be an added value to student veterans.

Section 202

    The VFW has no position on this section.

Section 203

    The VFW supports increasing the payments made to survivors and 
dependents for educational benefits. As the years have gone on, there 
has not been a significant increase in the amount of money survivors 
and dependents receive as their educational benefit. It is beyond time 
to make an increase in payments so as to keep pace with the rising cost 
of present day college tuitions.

Section 301

    The VFW supports increasing the funding allocated to the State 
Approving Agencies. These agencies are the first line in ensuring 
schools are properly accredited and providing a high standard of 
education for student veterans. There have been thousands of student 
veterans left out on their own after their schools closed, sometimes 
with little or no notice. The SAA's role is to make sure that 
institutions are accredited and providing the services they claim to 
provide. For that reason, the VFW endorses additional funding in the 
hopes that school closures like ITT do not affect veterans in the 
future. While this section proposes an increase of three million 
dollars, the VFW would like to see the added funding be seven million 
dollars in order to strengthen the SAAs even more.

Section 302

    The VFW supports the development and authorization of an 
independent study program that would further advance a veteran's 
education. We realize that not every class has to be taken in a 
traditional brick and mortar institution, and innovative programs like 
this would provide a new opportunity for veterans to succeed.

Section 303

    The VFW supports authorizing veterans using GI Bill benefits to 
enroll in classes before the standard enrollment date. Veterans have a 
finite time to use their education benefits, and being locked out of 
required classes due to capacity issues is a real problem for student 
veterans. An easy way to avoid this is to allow veterans using the GI 
Bill to enroll earlier than the general student body, so as to make 
sure they do not get denied entrance into their required classes. 
Providing study results that show this as a viable option would be an 
excellent path forward for veterans, and is something the VFW would 
gladly support.

Section 304

    The VFW supports the limitation of reporting fees for general 
school uses. At the beginning of each term, a School Certifying 
Official (SCO) reports the enrollment of a GI Bill user to VA. This 
enrollment signifies the usage of educational benefits for the 
individual. After this is complete, the school receives a $12 payment 
from VA for certifying the enrollment. Currently, there is no 
limitation on where that money is disbursed within the school's system. 
This legislation would ensure that schools are not using that reporting 
fee for their own general use. The VFW supports the plan to limit the 
usage of those fees for veteran services only. This would add to the 
amount of money available for veteran programs within those 
institutions.

Section 305

    The VFW supports mandatory training for SCOs. In 2014 alone, there 
were $262 million dollars in erroneous Post-9/11 GI Bill payments to 
students and most times the students, not the schools, are the ones 
burdened with repaying the money. Making sure the SCO's are properly 
trained is one step in avoiding overpayments, and the VFW supports this 
action. While this legislation does not specifically address the source 
of funding for this training, the VFW thinks the schools themselves 
should be responsible for the cost of the training

Section 306

    The VFW supports extending the authority of the Advisory Committee 
on Education until 2022. This is a valuable asset the VA Secretary can 
use to gather information and advice on how student veterans are using 
their education benefits, and the committee can advise on any changes 
or improvements that may be needed. The VFW supports this committee and 
would like to see its authority extended indefinitely. Student veterans 
will always be going to school, so we think this committee should 
always be present.

Section 307

    The VFW supports adding vocational and educational counselors to 
campuses to further expand the resources available to student veterans. 
Student veterans sometimes face an uphill fight to transition from 
service to school. Having an additional knowledge base the veterans can 
lean on is an incredible tool that will only help those veterans 
succeed in their goals.

Section 308

    The VFW supports giving SCOs access to student veteran' records in 
order to appropriately counsel the students on their entitlements. As 
student veterans progress through their educational journey, there are 
often times they seek help or have questions. Student or academic 
advisors do not have the ability look up the student veterans' VA 
eligibility, so allowing the SCO's to do so is a great help. The SCO's 
should already have familiarity with student veterans and their needs, 
so installing the ability to view their records should be a seamless 
addition.
    While the VFW supports improving the access to veterans' academic 
eligibility, we do not see why there should be a cost associated with 
this. Allowing SCO's to log into VA's system to check on eligibility 
should not cost millions of dollars. We agree with the process, but not 
the cost.

Section 309

    The VFW supports allowing leniency in school start dates in terms 
of processing and payments. Schools across the country are allowed to 
begin their school years at varying times. A school that is allowed to 
start the term a day or so later than other schools should not reflect 
upon the student veteran attending that school. Allowing VA to treat 
start dates the same across different schools will help the students 
and VA itself in simplifying this process.

Section 401

    The VFW strongly supports this legislation that would correct the 
oversight of the Department of Defense by cutting service members' 
benefits while on active duty orders. National Guardsmen and Reservists 
were placed on involuntary activation orders that did not allow them to 
accrue benefits through time and service like their active duty 
counterparts. While stationed abroad and away from their homes and 
families, these troops were denied the ability to gain educational 
credit for use after demobilization.
    12304(b) orders need to be amended to keep the activation 
authority, but reinstitute the benefits that were removed. Thousands of 
National Guardsmen and Reservists have been involuntarily activated 
under these orders and have not received benefits equal to their active 
duty counterparts. More and more, DOD is using our nation's reserve 
component to fight our decade and a half war against terror, and for 
these men and women to come home without equal benefits is something 
that must change.

Section 501

    The VFW supports the repeal of Subsection (b) of section 604 of the 
Carl Levin and Howard P. ``Buck'' McKeon National Defense Authorization 
Act for Fiscal Year 2015. This change does not cut benefits and covers 
the cost of these great additions to the GI Bill.
    Mr. Chairman, this concludes my testimony. I am prepared to take 
any questions you or the members of the committee may have.

                                 <F-dash>
                 Prepared Statement of William Hubbard
    Chairman Roe, Ranking Member Walz and Members of the Committee:
    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the modernization of the GI Bill and other pending 
legislation. With over 1,400 chapters representing the nearly 1.1 
million student veterans in schools across the country, we are pleased 
to share the perspective of those directly impacted by the subjects 
before this committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the nation, we place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country, fostering the success of veterans in school is 
paramount in their preparation for productive and impactful lives.
    We will discuss our unwavering interest in achieving a GI Billr for 
all future veterans, along with other policy proposals to expand 
education access for Purple Heart recipients, Guard and Reserve 
members, school closure students, and survivors. Since the passage of 
the Post-9/11 GI Bill in 2008, SVA has been working with a coalition of 
higher education and veteran organizations to improve the GI Bill for 
generations to come, including discussions that began in 2016 with the 
veteran community about making the GI Bill permanent. We also strongly 
support the removal of the arbitrary 15-year time limit on using this 
earned benefit, a provision that will truly make this program 
``Forever''.
    Our National Veteran Education Success Tracker (NVEST) research 
demonstrates that the GI Bill has a high return on investment for 
veterans and the country-a program worth ensuring for all generations 
to come. \1\ As the most recently transitioned generation of veterans, 
student veterans are ambassadors to the all-volunteer force, and 
recognize the value of this investment.
---------------------------------------------------------------------------
    \1\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. (2017). 
National Veteran Education Success Tracker: A report on the academic 
success of student-veterans using the Post-9/11 GI Bill. Washington, 
D.C.
---------------------------------------------------------------------------
    SVA and the over 1.1 million student veterans in school today look 
forward to working with congress and the wider community to make this 
proposed expansion a reality.

    Sec. 101. Consideration of certain time spent receiving medical 
care from Secretary of Defense as active duty for purposes of 
eligibility for Post 9/11 Educational Assistance.

    This section proposes amending title 38, United States Code, to 
consider certain time spent by members of reserve components of the 
Armed Forces while receiving medical care from the Secretary of Defense 
as active duty for purposes of eligibility for Post-9/11 Educational 
Assistance. The missing code of 12301(h) was a known problem as early 
as October 2014, documented in an October 1, 2014 Reserve Forces Policy 
Board memorandum. SVA maintains a hard stance on addressing this issue 
immediately, and looks forward to seeing a solution passed this year.

    Sec. 102. Consolidation of certain eligibility tiers under Post-9/
11 Educational Assistance Program of the Department of Veterans 
Affairs.

    This section proposes to amend title 38, United States Code, to 
consolidate certain eligibility tiers under the Post-9/11 Educational 
Assistance Program. For reservists, the opportunity to serve on active 
duty and earn GI Bill benefits may be limited for some, while the wider 
reserve components continue to be an integral component of the overall 
global Department of Defense posture. This proposal recognizes the 
importance that National Guard and Reserve Members play in the 
protection of our nation in service overseas.
    The modified tiers of eligibility would provide 10% increases, 
specifically for those who serve on active duty up to 12 months. The 
minimum threshold of benefits would be increased up to 50% eligibility 
for those who serve between three to six months (see table below for 
reference). Our research indicates that student veterans are 
quintessentially non-traditional students, which often includes 
significant financial obligations and costs associated with raising 
families. \2\
---------------------------------------------------------------------------
    \2\ Cate, C.A., Davis, T, (2016), Spotlight Brief, https://
studentveterans.org/images/SVASpotlightBrief-1.pdf
---------------------------------------------------------------------------
    The increase in education benefits at the lower tiers makes 
achieving educational success a significantly more attainable goal. The 
reserves of the U.S. Armed Forces has been greatly tested as our 
country has been at war for well over a decade. Many of these 
reservists have the opportunity to apply their education in the service 
of our nation as they are mobilized for deployments, making this 
increase a direct impact to the overall national security of the 
country as well.

                                          Percentage of Maximum Benefit
----------------------------------------------------------------------------------------------------------------
                   Member Service                               Current                       Proposed
----------------------------------------------------------------------------------------------------------------
                    Service-Connected Disability                           100%                          100%
----------------------------------------------------------------------------------------------------------------
                                      36+ months                           100%                          100%
----------------------------------------------------------------------------------------------------------------
                                  30 - 36 months                            90%                           90%
----------------------------------------------------------------------------------------------------------------
                                  24 - 30 months                            80%                           80%
----------------------------------------------------------------------------------------------------------------
                                  18 - 24 months                            70%                           70%
----------------------------------------------------------------------------------------------------------------
                                   12- 18 months                            60%                           60%
----------------------------------------------------------------------------------------------------------------
                                   6 - 12 months                            50%                    60% (+10%)
----------------------------------------------------------------------------------------------------------------
                                    3 - 6 months                            40%                    50% (+10%)
----------------------------------------------------------------------------------------------------------------

    Sec. 103. Educational assistance under Post-9/11 Educational 
Assistance Program for members of the Armed Forces awarded the Purple 
Heart.

    This section would acknowledge the sacrifice of men and women who 
have served our country with dignity, sustaining battlefield injuries. 
Currently, only veterans who either served at least 36 months on active 
duty or are medically retired receive Post-9/11 GI Bill benefits at the 
100 percent rate, excluding nearly 3,000 Purple Heart recipients over 
the next ten years who may not meet these administrative requirements. 
In practice, this error penalizes men and women who were wounded before 
they could reach the full term of their contract to receive GI Bill 
eligibility. SVA believes that those who shed blood in our country's 
defense should have the opportunity to go to school. For those who have 
sacrificed their own self in service, we strongly believe those men and 
women have fully met the service requirement for GI Bill eligibility.

    Sec. 104. Eligibility for Post-9/11 Educational Assistance for 
certain members of reserve components of Armed Forces who lost 
entitlement to educational assistance under Reserve Educational 
Assistance Program.

    This section would allow members of the National Guard and Reserves 
who lost benefits under the Reserve Educational Assistance Program 
(REAP) as a result of the National Defense Authorization Act of 2016 to 
access Post-9/11 GI Bill benefits. Individuals who have experienced a 
loss of earned benefits due to technical oversights have resulted in 
many student veterans losing access to education. This section would 
fix this gap for these students, and provide the critical opportunity 
to return to school, a much-needed fix.

    Sec. 105. Calculation of monthly housing stipend under Post-9/11 
Educational Assistance Program based on location of campus where 
classes are attended.

    This section would adjust the calculation of the monthly housing 
stipend under Post-9/11 Educational Assistance Program based on 
location of campus where classes are attended. Currently this disparity 
exists between where a veteran physically attends classes and resides, 
and the monthly stipend provided under the Post-9/11 GI Bill.
    For example, a veteran could be enrolled at an online institution 
of higher learning (IHL) based in San Francisco, while living in a 
rural district of North Dakota; in such a case, the individual would 
receive substantially higher Basic Allowance for Housing (BAH) than 
necessary, inflating the programs costs unnecessarily. During a visit 
to our Student Veterans of America chapters in Hawaii, it was 
discovered that options at local campuses were limited; while students 
sought to attend programs online through leading universities, the low 
rate of BAH based on the location of the university, not the student, 
greatly limited the opportunities of these geographically displaced 
student veterans. Unfortunately, this scenario is all too common, while 
others are earning BAH at much higher rates compared to their locality. 
It is our position that students should not be profiting off of GI Bill 
payments, as they exist for the purpose of allowing individuals to 
attend school.
    Additionally, we have seen too many instances of this disparity in 
BAH calculation encouraging abusive behavior on the part of several 
schools who locate the IHL address in a high-BAH district, while 
offering the physical course delivery in a low-BAH location while using 
the lucrative BAH stipend as a recruiting incentive. The converse of 
this situation is also a major point of contention, and results in harm 
to the student veteran while enrolled in an IHL as we have 
demonstrated. We support this legislation which would adjust the 
calculation to account for the reality of the living situation.

    Sec. 106. Charge to entitlement for certain licensure and 
certification tests and national tests under Department of Veterans 
Affairs Post-9/11 Educational Assistance Program.

    This section would allow veterans to apply their GI Bill benefits 
to afford the cost of certain licensure and certification tests and 
national tests. Under the current system, veterans who seek to apply 
their GI Bill benefits to the cost of taking certification or licensing 
tests are charged an entire month of their entitlement, regardless of 
how comparatively low the cost of such test is.
    It is common sense that veterans would be able to pro-rate the cost 
of that charge and retain the remaining value of that month's benefit. 
This measure will prevent veterans from being dissuaded by the current 
overcharging inconsistency, and instead encourage taking critical tests 
necessary for career development without paying costs out of pocket. 
SVA is fully in support of this common-sense solution, which preserves 
valuable earned benefits for future education requirements.

    Sec. 107. Restoration of entitlement to educational assistance and 
other relief for veterans affected by school closure or disapproval.

    This section would allow for the restoration of entitlement to GI 
Bill benefits for student veterans affected by closures of educational 
institutions. When 28 IHLs under the Corinthian Colleges system closed, 
there were hundreds of student veterans that were using Post-9/11 GI 
Bill benefits to attend one of those IHLs. Many of these affected 
students now find themselves stranded, with their lives on-hold. The VA 
Secretary currently does not have the authority to provide meaningful 
relief to student veterans who find themselves in such a situation.
    The proposal will apply to veterans receiving GI Bill benefits 
while pursuing a program of education at an IHL that closed, or who 
withdrew from a closed IHL within 120 days of the closure, to fully 
restore for tuition payments. Veterans who complete their program of 
education at another IHL pursuant to a teach-out plan would not be 
eligible for relief. VA would also have the authority to identify other 
students veterans who were harmed by their IHL and may be eligible for 
such relief.
    SVA additionally recommends the inclusion of a provision granting 
VA the authority to bring appropriate action against an IHL to recover 
the expenses of providing relief. To ensure that student veterans who 
have already been harmed can receive relief, the bill would 
retroactively apply to anyone who received Post-9/11 GI Bill benefits 
beginning January 1, 2015, thereby covering the Corinthian school 
closures and those thereafter.
    Congress must act to ensure that hard-earned GI Bill benefits are 
not squandered because of an IHL's failure to serve its students. SVA 
supports this measure with the conditions of expanding the timeframe to 
restore entitlement to those affected in the Corinthian closures.

    Sec. 108. Inclusion of Fry Scholarship recipients in Yellow Ribbon 
G.I. Education Enhancement Program.

    This section would amend title 38, United States Code, to include 
the Fry Scholarship in the Yellow Ribbon G.I. Education Enhancement 
Program. SVA stands with many other organizations in strong support of 
this legislation that would allow the dependents of a service member 
who died in the line of duty to access Yellow Ribbon Program benefits.
    The Marine Gunnery Sergeant John David Fry Scholarship goes to 
families that have made the ultimate sacrifice for their country; we 
believe they have more than earned the right to attend an IHL of their 
choice without comparatively minor tuition costs hampering their 
success. This is a common-sense proposal; frankly it is ridiculous that 
that this error has existed for nearly a decade and not yet been 
amended. We look forward to this being expeditiously put into effect. 
SVA stands in vigorous support for this legislation.

    Sec. 109. Additional authorized transfer of unused Post-9/11 
Educational Assistance benefits to dependents upon death of originally 
designated dependent.

    This bill would authorize the transfer of unused benefits to 
dependents upon death of originally designated dependent. At present, 
in the tragic scenario when a veteran's dependent with transferred GI 
Bill benefits passes away without using the full extent of those 
benefits, the unused benefits become unusable. We believe this is an 
unintended consequence of the way the law is written, and vigorously 
support this correction, which honors the sacrifice of our military 
families.
    SVA supports this technical correction for transferred GI Bill 
benefits. Currently, if a service member transfers their GI Bill while 
alive and subsequently passes, the allocation of benefits and amount 
allotted to surviving family members is locked in place indefinitely. 
If the service member or veteran were still living, they could simply 
adjust the number of months allotted to each family member at will. SVA 
recommends allowing those entitled to the transferred benefits to 
determine the decision and amount of reallocation of benefits as an 
additional component of this proposal.

    Sec. 110. Edith Nourse Rogers STEM Scholarship.

    This scholarship would be named after Edith Rogers, a long-time 
Massachusetts Member of Congress and drafter of the Original GI Bill in 
1944; Rep. Rogers espouses the spirit of the Got Your 6 empowerment 
campaign and their focus on empowering women veterans, \3\ #shesbadass. 
\4\ A true champion of veterans, she was one of the first women to 
serve in the U.S. House of Representatives, and completed her service 
after nearly 35 years in the House. This scholarship likewise presents 
veterans with an opportunity to achieve STEM degrees, and in the honor 
of a woman who equally sought to benefit the country in ways bigger 
than herself.
---------------------------------------------------------------------------
    \3\ Hachey, Thomas E. (Winter 1973-1974). ``American Profiles on 
Capitol Hill: A Confidential Study for the British Foreign Office in 
1943''. Wisconsin Magazine of History. 57 (2): 141-153.
    \4\ Got Your 6, https://gotyour6.org/impact/shesbadass/
---------------------------------------------------------------------------
    This section would amend title 38, United States Code, to authorize 
the Secretary of Veterans Affairs to provide additional educational 
assistance benefits under the Post-9/11 Educational Assistance Program 
of VA to certain eligible individuals, specifically those seeking STEM 
(science, technology, engineering, and math) degrees. With the current 
resources provided by the GI Bill, the marginal cost of an additional 
academic year for student veterans pursuing STEM will yield the 
essential mass of leaders our country needs. Investing in an additional 
year for STEM-focused student veterans will ultimately result in 
economic gains and tighter national security, and supporting this 
section is the first step.
    Presently, 16-20% of all undergraduate students are in pursuit of a 
STEM degree. While less than one fifth of current students seeking STEM 
degrees, even fewer achieve them since more than one third of the 
general population change their major before they graduate. Compare 
those numbers to what we learned from the research we published this 
year, the National Veteran Education Success Tracker (NVEST), we found 
that 14% sought STEM degrees.
    The aptitude and interest is clear-the resources to deliver more 
STEM graduates in the single major barrier to even greater numbers of 
STEM graduates \5\. According to a report from Georgetown University's 
Center of Education and the Workforce, ``The Economic Value of College 
Majors'', top-paying college majors earn a total $3.4 million more than 
the lowest-paying majors over a lifetime; the top ten highest paying 
majors are all in STEM fields, eight of which are in engineering \6\.
---------------------------------------------------------------------------
    \5\ Cate, CA, 2017, National Veteran Education Success Tracker, 
http://nvest.studentveterans.org/
    \6\ Carnevale, Anthony, ``The Economic Value of College Majors'', 
Georgetown University Center for Education and the Workforce, 2015, 
https://cew.georgetown.edu/cew-reports/valueofcollegemajors/ 2----
---------------------------------------------------------------------------
    In today's economic environment, the highest paying majors will 
earn graduates an average mid-career salary of $136,000. The lowest 
earning potential includes majors such as studio arts or human 
services. Such majors earn a mid-career salary of nearly $100,000 less 
per year. The tax revenue from STEM professionals alone suggests this 
is a beneficial proposal. The need for STEM-focused professionals with 
a commitment to service, and the leadership skills to make a difference 
has never been greater.
    Our country faces a key decision point. We are currently affording 
veterans the opportunity to go to IHLs, but we must determine what 
shapes this new and dynamic workforce. After these veterans graduate, 
wouldn't we prefer that our country gains scientists, engineers, 
cybersecurity professionals, physicists, and other high-demand 
professionals? The marginal cost of an additional academic year is 
well-worth the added short-term cost, noting the long-term benefit to 
the economy.
    Veterans should not be forced to decide between continued service 
through a STEM career, and the financial burden that mitigates the 
value of their earned GI Bill benefits. It has long been our goal to 
see every veteran maximize the potential of their GI Bill, and this is 
the answer. It would otherwise take years to find other graduates with 
level of experience and knowledge that veterans already possess-time we 
simply do not have.
    The ability and expertise of these veterans, when coupled with a 
STEM education, will be an unparalleled force. Our service members are 
routinely exposed to highly technical equipment, processes, and 
environments, often with lives depending on their ability to succeed in 
high-pressure situations. We know they can, and do, succeed when given 
the opportunity.
    When determining our support for this proposal, we consider the 
long-term economic impact of increased tax revenue from higher-paid 
STEM professionals; we consider the national security need for leaders 
in these fields; and we consider how the previous GI Bill prepared our 
country for the most modern workforce of its time. We know veterans 
have a demonstrated commitment to service, and the leadership skills 
necessary to make the country's STEM fields an unmatched force.
    SVA recognizes Rep. David McKinley (WV-1) and Rep. Dina Titus (NV-
1) for initially proposing this concept in 2015. Their foresight 
recognized the need and value of such a scholarship, and we look 
forward to the Rogers STEM Scholarship becoming a reality.

    Sec. 111. Honoring the national service of members of the Armed 
Forces by elimination of time limitation for use of entitlement.

    We believe that veteran education benefits are not a cost of war, 
but instead a right of service. We believe that education opportunities 
should be a lifetime benefit, and thus require the removal of the 
current 15-year delimiting date within Chapter 33 benefits. Such an 
arbitrary cap on the opportunity to use this earned benefit serves only 
as a hindrance to the success of veterans.
    In addition to the removal of the 15-year limit, it is imperative 
that the GI Bill no longer be considered through the strict lens of 
wartime eras. Indeed, tying education benefits to wartime eras led to 
each previous iteration of the benefit being cut. As a component of 
service, there should be one bill that serves all current and future 
veterans, and therefore should be updated in name to reflect this 
timeless concept, as ``The Veterans Education Assistance Act'' or 
referred to simply as the GI Bill. This simplified naming convention 
may seem minor, but it's importance is far-reaching as the re-naming of 
the benefit indicates its importance to all generations of veterans.

    Sec. 112. Monthly stipend for certain members of the reserve 
components of the Armed Forces receiving Post -9/11 Educational 
Assistance.

    This section would pro-rate the housing allowance to reflect 
periods when the service member is not on active duty and allow them to 
fully partake in their earned housing allowance under their GI Bill 
benefits. While many National Guard and Reserve members continue to 
serve while attending an IHL, many lose eligibility for GI Bill housing 
allowances when ordered to duty under title 10, United States Code. 
Caught between active duty, though receiving an insufficient housing 
allowance from the active duty service, and coupled with the inability 
to receive GI Bill housing payments, the veteran is punished for their 
continued service. This technical change would address this oversight.

    Sec. 113. Improvement of information technology of the Veterans' 
Benefits Administration of the Department of Veterans Affairs.

    This section would direct the VA Secretary to make improvements to 
the information technology system of the Veterans Benefits 
Administration (VBA) of VA. The directs that to the maximum extent 
possible, VBA should access information technology (IT) funding to 
address critical IT infrastructure updates. Presently VA's Office of IT 
(OIT) functions as a collective funding source for the total VA; simply 
put, individual departments have no dedicated resources for IT needs.
    The result of VA's current IT resourcing model structure is that 
OIT must constantly determine the highest priority needs of the VA as a 
whole, leaving some departments with a low level of resources for 
sustained periods of time. The dedication of these resources will allow 
the Veterans Benefits Administration (VBA) with the opportunity to 
receive necessary support in IT upgrade which directly the ability of 
VA to effectively process payments of benefits to student veterans.

    Sec. 114. Department of Veterans Affairs high technology pilot 
program.

    This section proposes to direct the Secretary of Veterans Affairs 
to carry out a high technology education pilot program. The proposal 
would operate as a five-year pilot program, funded for up to $15 
million annually. SVA views this as complimentary to existing education 
programs, and addresses the need to develop innovative programs 
targeted at non-traditional students. The split payment requirement 
incentivizes providers to deliver high quality programs with high-
impact and successful student outcomes.
    With an increase in innovation in higher education with companies 
like Dog Tag Bakery at Georgetown University, the education industry is 
beginning to recognize the need to adapt to more flexible or hybrid 
models for new generations of students. It is unclear if the contracts 
under this proposal reset annually, or how those funds are to be 
dispersed, however SVA is confident that such logistical details would 
be minor hurdles when compared to the overall benefit of this concept.
    The industry desire for such a program is clear, including support 
from the Information Technology Industry Council (ITI), the global 
voice of the tech sector. \7\ Over 60 members of ITI include technology 
giants such as Google, Twitter, Amazon, Facebook, Adobe, Microsoft, 
IBM, Intel and many others. \8\ Like VA's Accelerated Learning Program 
(ALP), SVA is eager to learn about the outcomes of this proposal.
---------------------------------------------------------------------------
    \7\ ITI letter to the Honorable Kevin McCarthy, ``Re: H.R. 1989, 
the Veteran Employment Through Technology Education Courses Act'', 
April 25, 2017.
    \8\ Information Technology Industry Council, Member Companies, 
http://www.itic.org/about/member-companies, Accessed June 10, 2017

---------------------------------------------------------------------------
    Sec. 201. Work-study allowance.

    This section would amend title 38, United States Code, to extend 
the authority to provide work-study allowance for certain activities by 
individuals receiving educational assistance by the Secretary of 
Veterans Affairs. The VA Work-Study Program is widely accepted as a 
highly beneficial system that provides student veterans the opportunity 
to earn additional income while attending an IHL, and simultaneously 
support the broader mission of VA.
    The Post-9/11 GI Bill is the most comprehensive and generous 
education benefit ever offered, though it often does not cover the 
total costs student veterans' experience. As the quintessential non-
traditional students, student veterans are often more mature by age and 
experience, 52% have families, and 18% are single parents. Roughly half 
of student veterans work full-time while attending an IHL, and another 
25% work part-time. With nearly 780,000 student veterans working while 
attending an IHL, it is clear that the demand for this opportunity is 
high.

    Sec. 202. Duration of educational assistance under Survivors' and 
Dependents' Educational Assistance Program.

    This section modifies the Survivors' and Dependents' Educational 
Assistance (DEA) Program from 45 months of educational benefits to 36 
months. The benefits of survivors and dependents would be comparable to 
those of the servicemembers. The DEA hasn't been updated to reflect the 
rising costs of college in many years, and unfairly offers survivors a 
lower rate. The compression of months is more reflective of the typical 
time to completion rate. Also, the change will afford an increase in 
the current payment rates, while maintain a budget-neutral, or cost 
reduction benefit.

    Sec. 203. Olin E. Teague increase in amounts of educational 
assistance payable under Survivors' and Dependents' Educational 
Assistance Program.

    This section would increase the amounts of educational assistance 
payable under DEA. In conjunction with section 202, this will provide 
survivors with an increased benefit, which is desperately needed due to 
the outdated payment rates. Unfortunately, many survivors are 
ineligible for the Fry Scholarship because the service member died 
prior to September 11, 2001, or were separated with a medical discharge 
and passed away as a retiree. It is our unwavering position that family 
members of the fallen utilizing these benefits earned with the ultimate 
sacrifice should be viewed as equal to veterans themselves for the 
purposes of education benefits.

    Sec. 301. State approving agency funding.

    This section proposes an increase in resources provided to State 
Approving Agencies (SAA), the primary oversight and approval entities 
that determine program eligibility for GI Bill benefits. SVA believes 
that SAAs are a critical component to ensuring quality education, 
preventing fraud and abuse, and looking out for student veterans who 
may be subject to bad practices at various IHLs.
    SAAs are effectively the gatekeepers of the GI Bill. Yet, the 
amount of resources provided to them has not kept pace with inflation 
and rising costs. We continue to urge congress to increase support for 
SAAs, and are pleased to see the inclusion of this legislation. The 
amount of resources spent on oversight should reflect the importance of 
resources spent in educational benefits; as such SVA supports the 
recommendations of the National Association of State Approving Agencies 
(NASAA) to increase funding from $19 million to $26 million.

    Sec. 302. Authorization for use of Post-9/11 Educational Assistance 
to pursue independent study programs at certain educational 
institutions that are not institutions of higher learning.

    This section permits veterans to use Post-9/11 Educational 
Assistance for an accredited independent study program (including open 
circuit television) at an educational institution that is an area 
career and technical education IHL or a postsecondary vocational IHL 
providing postsecondary level education.

    Sec. 303. Provision of information on priority enrollment for 
veterans in certain courses of education.

    This section proposes that, pursuant to subsection (b)(5) of Title 
38 section 3698, the Secretary of VA will seek to collect information 
on whether or not IHLs operate priority enrollment programs. In 
discussions with dozens of higher education organizations, it is 
abundantly clear that there is a lack of information regarding the 
existence or application of priority enrollment programs as it pertains 
to student veterans.
    The majority of student veterans are non-traditional students, and 
many have spouses, children, and careers. It is true that they do not 
have the luxury of waiting a year or a few semesters to take a required 
course when their livelihood is in the balance. SVA believes collection 
of this information over time will provide a strong basis for 
understanding the need and potential solutions to applying this 
concept, as well as the proper level that such programs should be 
applied.

    Sec. 304. Limitation on use of reporting fees payable to 
educational institutions and sponsors of programs of apprenticeship.

    This section proposes increasing reporting fees as high as $16 per 
number of eligible veterans to execute or offset services required to 
process benefits. It also requires them to use the money for veterans. 
SVA believes the reporting fees to be critical components of offsetting 
the cost of administering GI Bill education benefits at the institution 
level; we also support requiring this reporting fee be accounted for 
appropriately as well as being expended on activities related to the 
execution of veteran benefit processing.
    Some concern has been expressed that IHLs with very few veterans 
would be caused undue strain in establishing a separate account for 
such a low number of students. As such, SVA supports setting a 
threshold to require IHLs with significant populations to adhere to 
this requirement, to avoid IHLs with only several student veterans from 
experiencing undue accounting strain as result of this provision.

    Sec. 305. Training for school certifying officials.

    This section codifies the requirements for school certifying 
officials (SCO) training. SVA supports this provision, as the training 
provided through VA is critical for SCO's to maintain a high level of 
professional aptitude. In some cases, IHLs have not allowed SCOs to 
attend training, alleging that it was not required. This requirement 
removes any doubt about the importance of that training.

    Sec. 306. Extension of authority for Advisory Committee on 
Education.

    This section extends the authority of the VA Advisory Committee on 
Education (VACOE), an advisory body of subject matter experts that 
provide the Secretary of VA input on veteran issues in higher 
education. Previously, SVA provided input at through this forum to 
highlight necessary reform changes and statute which legally required 
VA to establish an agreement with the Federal Trade Commission (FTC).
    Upon recommendation to the Secretary of VA at the 2015 VACOE 
meeting, the agreement with FTC was reached. This is an example of the 
significant value and detailed level of policy analysis that the VACOE 
can provide to the Secretary. Additionally, SVA recommends the 
inclusion of a current student veteran to incorporate the perspective 
of those directly impacted by these policies, and looks forward to 
working with VA on implementing this recommendation.

    Sec. 307. Department of Veterans Affairs provision of on-campus 
educational and vocational counseling for veterans.

    This section would direct the Secretary of Veterans Affairs to 
provide educational and vocational counseling for veterans on campuses 
of institutions of higher learning, and codify the program. SVA has 
been a long-time supporter of the VetSuccess on Campus (VSOC) program, 
which entails the campus having a VSOC Counselor, an expert full-time 
VA detailee, right on campus. We frequently hear student veterans 
identify the VSOC program as a top benefit that they find to be most 
valuable for their higher education experience.
    In providing feedback to SVA regarding the VSOC program, one 
student veteran shared, ``We have a VSOC Counselor from VA come to the 
IHL twice a month so Vets can start a new claim or ask questions 
concerning a claim. This helps immensely as the VA hospital is a 35-
minute drive from IHL and keeps our Vets on campus. Vets can ask our 
counselor any type of question concerning their benefits. They are also 
a Vocational Rehabilitation (VocRehab) counselor for a few of the Vets 
on campus. We are incredibly lucky to have this program on campus.''
    In addition to appreciating the on-site access to a qualified VA 
counselor, many alluded to a direct personal impact on their academic 
performance. Another student veteran shared, ``The VSOC has been there 
to help me through the transition from soldier to student. Counseling, 
advising, financial help, even tutoring has been afforded to me through 
the VSOC. The VA representative has gone above and beyond to help me 
succeed, especially when IHL and life became overwhelming for me.''
    These comments are indicative of the general feedback we received 
from members over the past several months in our field research on the 
program. In addition to the general support provided by VSOC 
counselors, student veterans noted the ability of counselors to quickly 
correct and process certifications as a major benefit to their campus. 
They often appreciated the connection counselors make with IHL 
administration as well. We believe the VSOC program is highly 
beneficial to student veterans and would like to see it expanded as 
resources allow.

    Sec. 308. Provision of information regarding veteran entitlement to 
educational assistance.

    This section proposes allowing IHLs to view the total and remaining 
amount of educational benefits of a veteran thereby allowing the IHL to 
properly counsel those veterans on their financial obligation and IHL 
requirements. This is a simple change with a significant impact, 
enabling greater communication between the IHL and the veteran.
    SVA is pleased to see the inclusion of an opt-out option for 
students who do not wish their IHL to have access to this information. 
In some cases, the potential for low-quality schools to use this 
information to the advantage of the school instead of the student is of 
concern. The opt-out option allows the student to manage this risk by 
providing them a mechanism to prevent their school from accessing the 
information regarding their GI Bill benefits.

    Sec. 309. Treatment, for purposes of educational assistance 
administered by the Secretary of Veterans Affairs, of educational 
courses that begin seven or fewer days after the first day of an 
academic term.

    This section would allow IHL SCO and regional processing officers 
(RPO) the ability to define a ``calendar week'' for the purpose of 
education benefits as ``the seven-day period beginning on the first day 
of the institution's published academic calendar''. At present, VA 
defines a calendar week as being from Sunday to Sunday, while policy 
guidance for SCOs necessitates that those officials process terms 
depending on the first date the class meets for that period of the 
week. This minor technical discrepancy has led to some confusion in 
processing benefits, as well as duplicative efforts. SVA supports this 
change to reflect the reality of processing these benefits consistent 
with our interpretation of the congressional intent of the benefit.

    Sec. 401. Eligibility of reserve component members for Post 9/11 
Educational Assistance.

    &

    Sec. 402. Time limitation for training and rehabilitation for 
veterans with service-connected disabilities.

    Sections 401 and 402 recognize the service of National Guard and 
Reserve Members and ensures that an order to serve on active duty under 
sections 12304a and 12304b of title 10, United States Code, is treated 
the same as other orders to serve on active duty for the purposes of 
determining benefits eligibility of service members and veterans.
    Many of these service members perform the exact same duties as 
their active duty counterparts, yet they realize none of the benefits. 
Fixing this discrepancy is a top priority for SVA, as well as nearly 40 
other military, veteran, and higher education organizations that 
identified this issue with unanimous consent as being an imperative 
change. \9\
---------------------------------------------------------------------------
    \9\ GI Bill Roundtable meeting, The American Legion Headquarters, 
May 18, 2017
---------------------------------------------------------------------------
    This section will fix an issue affecting thousands of National 
Guard and Reserve members have been negatively impacted. Deployments 
such as the deployment of an array of Marine Corps Reserve units as 
part of the Special Purpose Marine Air-Ground Task Force (SPMAGTF) in 
2016 experienced this issue first-hand. In the case of the SPMAGTF, 
nearly 300 Marine Corps Reservists were inaccurately advised from 
senior leadership that they would receive GI Bill Benefits, among other 
entitlements, for their active duty service.
    Those Marines and Sailors spent nearly six months serving in 
austere conditions, including several weeks as the initial reaction 
force in Haiti immediately following Hurricane Matthew \10\. While 
these servicemembers served side by side with their active duty 
counterparts, the Marine Reservists learned toward the end of the 
deployment that due to their activation code (12304b), they would not 
be eligible for GI Bill benefits.
---------------------------------------------------------------------------
    \10\ Joint Task Force Matthew Arrives in Haiti To Provide Relief 
Efforts, Oct 7, 2016, http://www.marines.mil/News/News-Display/Article/
967658/joint-task-force-matthew-arrives-in-haiti-to-provide-relief-
efforts/
---------------------------------------------------------------------------
    Many of those young men and women had looked forward to earning an 
education, and were abruptly forced to drastically alter their 
education timelines. These sections would address the negative effects 
of this technical oversight, and empower these servicemembers to 
finally pursue their education goals.

    Sec. 501. Repeal inapplicability of modification of basic allowance 
for housing to benefits under laws administered by Secretary of 
Veterans Affairs.

    This section proposes aligning the basic allowance for housing 
under the Secretary of Veterans Affairs with the cost of adequate 
housing as determined by the Secretary of Defense. SVA supports this 
provision as it is grounded in common sense, while affording the 
opportunity to address the many issues presented within the previous 
sections.
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. We also want to recognize the dedication of the 
Chairman's staff, especially Jon Clark, Kelsey Baron, Caroline Ponseti, 
and Tiffany Haverly, who have dedicated countless hours to refining 
these provisions in close coordination with their colleagues in the 
Senate. As always, we welcome your feedback and questions, and we look 
forward to continuing to work with this committee, the House Veterans' 
Affairs Committee, and the entire congress to ensure the success of all 
generations of veterans through education.

                                 <F-dash>
                    Prepared Statement of John Kamin
                  LEGISLATIVE HEARING ON THE TOPIC OF:
 SECTIONS 101, 102, 103, 104, 105, 106, 107, 108, 109, 110, 111, 112, 
 113, 114, 201, 202, 203, 301, 302, 303, 304, 305, 306, 307, 308, 309, 
                             401, 402, 501
                                   OF
    THE HARRY W. COLMERY VETERANS EDUCATIONAL ASSISTANCE ACT OF 2017
    JULY 17, 2017

 
----------------------------------------------------------------------------------------------------------------
   Section                                     Title                                      Page        Position
----------------------------------------------------------------------------------------------------------------
 Section 101                                                                       Consideration3of certSupporte spent receiving medical care from
                Secretary of Defense as active duty for purposes of eligibility for
                                                   Post-9/11 Educational Assistance
----------------------------------------------------------------------------------------------------------------
 Section 102                                                                       Consolidation4of certSupportgibility tiers under Post-9/11
               Educational Assistance Program of the Department of Veterans Affairs
----------------------------------------------------------------------------------------------------------------
 Section 103   Educational Assistance Under Post-9/11 Educational Assistance Program            6       Support
                           for Members of the Armed Forces Awarded the Purple Heart
----------------------------------------------------------------------------------------------------------------
 Section 104   Educational assistance under Post-9/11 for certain members of reserve            6       Support
                     components of Armed Forces who lost entitlement to educational
                            assistance under Reserve Educational Assistance Program
----------------------------------------------------------------------------------------------------------------
 Section 105                                                                       Calculation o7 monthlSupportng stipend under Post-9/11 Educational
                   Assistance Program based on location of campus where classes are
                                                                           attended
----------------------------------------------------------------------------------------------------------------
 Section 106                                                                       Charge to ent7tlementSupportrtain licensure and certification tests
                  and national tests under Department of Veterans Affairs Post-9/11
                                                     Educational Assistance Program
----------------------------------------------------------------------------------------------------------------
 Section 107   Restoration of entitlement to educational assistance and other relief            8       Support
                             for veterans affected by school closure or disapproval
----------------------------------------------------------------------------------------------------------------
 Section 108          Inclusion of Fry Scholarship Recipients in Yellow Ribbon G.I.             8       Support
                                                      Education Enhancement Program
----------------------------------------------------------------------------------------------------------------
 Section 109         Additional authorized transfer of unused Post-9/11 Educational             9   Support with
               Assistance benefits to dependents upon death of originally designated                 amendments
                                                                          dependent
----------------------------------------------------------------------------------------------------------------
 Section 110    Additional Educational Assistance Program of Department of Veterans            10       Support
                                                                            Affairs
----------------------------------------------------------------------------------------------------------------
 Section 111        Honoring the national service of members of the Armed Forces by            10       Support
                             elimination of time limitation for use of entitlement.
----------------------------------------------------------------------------------------------------------------
 Section 112   Monthly stipend for certain members of the reserve components of the            11       Support
                           Armed Forces receiving Post-9/11 Educational Assistance.
----------------------------------------------------------------------------------------------------------------
 Section 113         Improvement of information technology of the Veterans Benefits            12       Support
                               Administration of the Department of Veterans Affairs
----------------------------------------------------------------------------------------------------------------
 Section 114                 Department of Veterans Affairs High Technology Program            12   No Position
----------------------------------------------------------------------------------------------------------------
 Section 201                                                   Work-Study Allowance            13       Support
----------------------------------------------------------------------------------------------------------------
 Section 202    Duration of educational assistance under survivors' and dependents'            13   No Position
                                                     educational assistance program
----------------------------------------------------------------------------------------------------------------
 Section 203            Increase in amounts of educational assistance payable under            14   No Position
                          survivors' and dependents' educational assistance program
----------------------------------------------------------------------------------------------------------------
 Section 301                                         State Approving Agency Funding            14   Support with
                                                                                                     amendments
----------------------------------------------------------------------------------------------------------------
 Section 302    Authorization for use of Post-9/11 Educational Assistance to pursue            15       Support
                independent study programs at certain educational institutions that
                                            are not institutions of higher learning
----------------------------------------------------------------------------------------------------------------
 Section 303        Provision of information on priority enrollment for veterans in            16       Support
                                                                    certain courses
----------------------------------------------------------------------------------------------------------------
 Section 304             Limitation on use of reporting fees payable to educational            16       Support
                            institutions and sponsors of programs of apprenticeship
----------------------------------------------------------------------------------------------------------------
 Section 305                                                   Training for School Certifying O17icials Support
----------------------------------------------------------------------------------------------------------------
 Section 306                                   Extension of authority for Advisory Committee on18ducatioSupport
----------------------------------------------------------------------------------------------------------------
 Section 307    Department of Veterans Affairs provision of on-campus education and            18       Support
                                                 vocational counseling for veterans
----------------------------------------------------------------------------------------------------------------
 Section 308   Provision of information regarding veteran entitlement to educational           19       Support
                                                                         assistance
----------------------------------------------------------------------------------------------------------------
 Section 309   Treatment, for purposes of educational assistance administered by the           19       Support
                   Secretary of Veterans Affairs, of educational courses that begin
                        seven or fewer days after the first day of an academic term
----------------------------------------------------------------------------------------------------------------
 Section 401     Eligibility of reserve component members for Post-9/11 Educational            20       Support
                                                                         Assistance
----------------------------------------------------------------------------------------------------------------
 Section 402      Time limitation for training and rehabilitation for veterans with            21   Support with
                                                     service-connected disabilities                  amendments
----------------------------------------------------------------------------------------------------------------
 Section 501   Repeal inapplicability of modification of basic allowance for housing           21       Support
               to benefits under laws administered by Secretary of Veterans Affairs
----------------------------------------------------------------------------------------------------------------


    Chairman Roe, Ranking Member Walz, and distinguished members of the 
committee; On behalf of Charles E. Schmidt, the National Commander of 
the largest Veteran Service Organization in the United States of 
America, representing more than 2 million members of The American 
Legion, the nation's largest veterans organization, we express our 
support for draft legislation entitled the Harry W. Colmery Veterans 
Educational Assistance Act of 2017.
    This bill, as currently written, would launch a new era for all who 
have honorably served in uniform, and for the nation as a whole. It 
would close current gaps in the existing Post 9/11 GI Bill and 
guarantee that veterans have access to their hard-earned GI Bill 
benefits beyond the current 15-year time limit. In essence, it would 
help today's GI Bill live up to the world-changing accomplishments of 
the original penned by Harry W. Colmery, which transformed America 
after World War II. In that vein, The American Legion urges this new 
implementation of the GI Bill is amended to be titled the ``Colmery GI 
Bill.''
    Through Resolution No. 349, Support Legislation to Improve the 
Post-9/11 GI Bill, The American Legion stands firmly behind the Harry 
W. Colmery Veterans Educational Assistance Act of 2017. As The American 
Legion did when the original GI Bill was passed in 1944, and subsequent 
versions were introduced, we will fight for this improved version until 
it is sent to the President's desk for his signature. The American 
Legion will continue to work closely with the Committee to ensure that 
veterans and their families rally across this country for these 
improvements.

    Section 101. Consideration of certain time spent receiving medical 
care from Secretary of Defense as active duty for purposes of 
eligibility for Post-9/11 Educational Assistance

    Members of the National Guard or Reserve who are wounded in combat 
are often given orders under 10 USC 12301(h) for their recovery, 
treatment, and rehabilitation. Unfortunately, Federal law does not 
recognize such orders as eligible for Post-9/11 GI Bill education 
assistance, meaning that unlike other members of the military, these 
members of the National Guard and Reserve lose benefits for being 
injured in the line of duty. An example is Captain Bryan Lowman of the 
North Carolina National Guard.
    In 2010, Captain Lowman was deployed to Afghanistan in a detachment 
with the North Carolina National Guard. During the deployment, he 
became severely ill with typhoid fever, lapsed into a coma and 
underwent multiple emergency surgeries over the course of a year in 
Afghanistan, Germany and at Walter Reed Medical Center in Bethesda, MD. 
After his long recovery, Captain Lowman aimed to pursue a college 
degree. Based upon his active-duty time on his DD214, Captain Lowman 
was to be entitled to 90 percent of his Post-9/11 GI Bill benefits. 
However, since his activation status was changed to 12301(h) medical 
orders, his eligibility was reduced to only the time he served before 
his illness. Section 101 would end that unequal treatment and ensure 
these servicemembers are eligible for the same GI Bill benefits as 
Active Duty members of the military.
    The American Legion considers it truly unjust to deny wounded and 
injured servicemembers the ability to accrue educational benefits for 
the time they spend receiving medical care. No veteran should lose 
their benefits simply because they were injured while serving this 
nation.
    Resolution No. 20: GI Bill Fairness for Wounded Servicemembers and 
Activated National Guard and Reservists supports any legislative 
proposal that provides amendments to U.S. Code Titles 5, 10, 37 and 38 
commensurate with U.S. Code Title 10 authorized service, such as 12304b 
and 12301(h), that grant Post-9/11 GI Bill benefits. \1\
---------------------------------------------------------------------------
    \1\ The American Legion Resolution No. 20 (2017): GI Bill Fairness 
for Wounded Servicemembers and Activated National Guard and Reservists

---------------------------------------------------------------------------
    The American Legion supports Section 101.

    Section 102. Consolidation of certain eligibility tiers under Post-
9/11 Educational Assistance Program of the Department of Veterans 
Affairs

    Reservists and National Guard troops often incur large sums of 
educational debt due to partial eligibility of GI Bill benefits. The 
American Legion feels that any effort to expand benefits to National 
Guard and Reservists for educational advancement will lead to more 
productive, work ready, and educated veterans. In 2009, the U.S. Bureau 
of Labor Statistics showed that there was a direct correlation between 
education and unemployment. 9% of Americans with only a high school 
diploma were unemployed, whereas only 4.3% of Americans with a 
Bachelor's degree or higher were unemployed. \2\
---------------------------------------------------------------------------
    \2\ U.S. Bureau of Labor Statistics: https://www.bls.gov/spotlight/
2010/college/
---------------------------------------------------------------------------
    Additionally, many veterans are non-traditional students with 
families. 52% of student veterans are married, and 23% are single 
parents. \3\ Given these added responsibilities, incurring educational 
debt can be burdensome for a family. This draft bill aims at 
alleviating some of the education liability of attending college by 
adjusting the eligibility tiers currently in place under the Post-9/11 
Educational Assistance program for Reserves and National Guard.
---------------------------------------------------------------------------
    \3\ https://studentveterans.org/images/SVASpotlightBrief-1.pdf
---------------------------------------------------------------------------
    From 1995 to 2015, the average cost of tuition and fees at a 
private national university increased 179%. The average in-state cost 
for tuition and fees at a public university grew by 296%. \4\ The 
American Legion feels that it is time to adjust the percentage of 
maximum benefit payable to individuals serving our nation to better 
cover the costs associated with attending higher education. We support 
the following pay structure alignment:
---------------------------------------------------------------------------
    \4\ U.S. News & World Report: https://www.usnews.com/education/
best-colleges/paying-for-college/articles/2015/07/29/chart-see-20-
years-of-tuition-growth-at-national-universities

                           Old Tier Structre:
------------------------------------------------------------------------
                                                  Percentage of Maximum
                 Member Serves                       Benefit Payable
------------------------------------------------------------------------
                           At least 36 months                      100%
------------------------------------------------------------------------
At least 30 continuous days on active duty and                     100%
   must be discharged due to service-connected
                                    disability
------------------------------------------------------------------------
  At least 30 months, but less than 36 months                       90%
------------------------------------------------------------------------
  At least 24 months, but less than 30 months                       80%
------------------------------------------------------------------------
  At least 18 months, but less than 24 months                       70%
------------------------------------------------------------------------
  At least 12 months, but less than 18 months                       60%
------------------------------------------------------------------------
  At least 06 months, but less than 12 months                       50%
------------------------------------------------------------------------
    At least 90 days, but less than 06 months                       40%
------------------------------------------------------------------------


                           New Tier Structre:
------------------------------------------------------------------------
                                                  Percentage of Maximum
                 Member Serves                       Benefit Payable
------------------------------------------------------------------------
                           At least 36 months                      100%
------------------------------------------------------------------------
At least 30 continuous days on active duty and                     100%
   must be discharged due to service-connected
                                    disability
------------------------------------------------------------------------
  At least 30 months, but less than 36 months                       90%
------------------------------------------------------------------------
  At least 24 months, but less than 30 months                       80%
------------------------------------------------------------------------
  At least 18 months, but less than 24 months                       70%
------------------------------------------------------------------------
  At least 06 months, but less than 18 months                       60%
------------------------------------------------------------------------
    At least 90 days, but less than 06 months                       50%
------------------------------------------------------------------------

    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\5\
---------------------------------------------------------------------------
    \5\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 102.

    Section 103. Educational Assistance Under Post-9/11 Educational 
Assistance Program for Members of the Armed Forces Awarded the Purple 
Heart

    Section 103 would grant full Post-9/11 GI Bill eligibility to all 
Purple Heart veterans who qualify for a portion of the benefit. 
Currently, only veterans who either serve at least 36 months on active-
duty or are medically retired receive Post-9/11 GI Bill benefits at the 
100 percent rate. Unfortunately, this leaves out many Purple Heart 
recipients, particularly from the Reserve Components, injured in combat 
but activated for less than three years in total. These servicemembers 
should not be penalized for being wounded before they could reach the 
full term of their contract to receive GI Bill eligibility. Resolution 
No. 318: Ensuring the Quality of Servicemember and Veteran Student's 
Education at Institutions of Higher Education supports any legislative 
proposal that improves the Post-9/11 GI Bill.s \6\
---------------------------------------------------------------------------
    \6\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 103.

    Section 104. Educational assistance under Post-9/11 for certain 
members of reserve components of Armed Forces who lost entitlement to 
educational assistance under Reserve Educational Assistance Program

    Section 104 would allow servicemembers who elected but did not 
utilize Chapter 1607, the Reterans Education Assistance Program (REAP) 
eligibility for the Post-9/11 GI Bill. REAP was officially sunsetted on 
November 25, 2015. While some individuals will remain eligible for REAP 
benefits until November 25, 2019, most are no longer eligible for REAP, 
despite their accrued months of eligibility. These servicemembers 
earned their educational benefits, and should not be penalized because 
of an arbitrary sunsetting of Chapter 1607. This section is a common 
sense solution that would allow transferability of remaining months of 
Chapter 1607 eligibility over to Chapter 33.
    The American Legion believes that Post-9/11 military service 
deserves Post-9/11 education benefits.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves education benefits so 
servicemembers, veterans, and their families can maximize its usage. 
\7\
---------------------------------------------------------------------------
    \7\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 104.

    Section 105. Calculation of monthly housing stipend under Post-9/11 
Educational Assistance Program based on location of campus where 
classes are attended

    This provision of the draft bill corrects a discrepancy in the 
determination of Post-9/11 GI Bill housing payments by calculating the 
payment based on where students attend their classes, rather than where 
the institution of higher learning is certified.
    Currently, the VA determines the Basic Allowance for Housing (BAH) 
amount based on the zip code where the school is certified, not 
necessarily the location of the school. This policy can result in 
monthly BAH payments that fall below or far exceed the cost of living 
in certain zip codes. As a consequence, some schools receive an unfair 
recruiting advantage by paying student veterans more than what was 
intended for BAH in that area.
    The American Legion believes that veterans should not make their 
educational choices based on housing benefit inconsistencies. Section 
105 ensures veterans receive an adequate and fair housing allowance 
while eliminating fraud and abuse of the program.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\8\
---------------------------------------------------------------------------
    \8\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 105.

    Section 106. Charge to entitlement for certain licensure and 
certification tests and national tests under Department of Veterans 
Affairs Post-9/11 Educational Assistance Program

    After completing their military service, veterans are eligible for 
a limited number of months of GI Bill benefits, which reimburses them 
for educational expenses incurred. Current law requires veterans to use 
a full month of their GI Bill eligibility to be reimbursed for 
licensing, certification, and national tests. Such tests open new doors 
to employment and allow veterans to advance and enhance their education 
and career. Given the relatively low cost of many tests, it is often 
simply not worth losing reimbursement for an entire month of tuition 
payments for other less expensive educational expenses.
    Section 106 allows veterans to be reimbursed for approved 
licensing, certification, and national tests, while still allowing the 
veteran to use their remaining GI Bill benefits for additional 
educational expenses in the same month.
    Resolution No. 338: Support Licensure and Certification of 
Servicemembers, Veterans and Spouses supports any legislative proposal 
that empowers the Department of Veterans Affairs to take appropriate 
steps to ensures that servicemembers and veterans be trained, tested, 
evaluated, and have the opportunity to obtain any credential (i.e., 
licensure, certification, certificate, degree, etc.) that may be 
required in the local civilian workforce. \9\
---------------------------------------------------------------------------
    \9\ The American Legion Resolution No. 338 (2016): Support 
Licensure and Certification of Servicemembers, Veterans and Spouses

---------------------------------------------------------------------------
    The American Legion supports Section 106.

    Section 107. Restoration of entitlement to educational assistance 
and other relief for veterans affected by school closure or disapproval

    When a school closes, non-veteran students have federal protections 
to support them. Affected students with federal student loans have the 
ability to discharge their student loans. Students who received Pell 
Grants can have their eligibility periods reset for the time spent at a 
closed institution. The American Legion believes strongly that veterans 
are entitled to the same protection as their civilian counterparts. 
Over 6,000 student veterans were attending ITT Tech when they abruptly 
shut down their campuses, \10\ and more school closures will inevitably 
occur.
---------------------------------------------------------------------------
    \10\ http://www.indystar.com/story/money/2016/09/06/why-veterans-
have-most-lose-if-itt-tech-closes/89710280/ ``Why ITT closing hits 
veterans hardest''
---------------------------------------------------------------------------
    The American Legion applauds the Committee's effort in addressing 
this issue. With multiple solutions to school closures presented to the 
Committee from both sides of the aisles, provisions were specifically 
selected to maximize support for displaced student veterans. Section 
107 is not only backdated to support veterans affected by the 
Corinthian closures but also provides emergency housing stipends to 
support veterans in the event of permanent school closures.
    Resolution No. 21: Education Benefit Forgiveness and Relief for 
Displaced Student-Veterans supports legislation that restores lost 
benefits to student-veterans attending schools that abruptly shut down. 
\11\
---------------------------------------------------------------------------
    \11\ The American Legion Resolution No 21: Education Benefit 
Forgiveness and Relief for Displaced Student-Veterans

---------------------------------------------------------------------------
    The American Legion supports Section 107.

    Section 108. Inclusion of Fry Scholarship Recipients in Yellow 
Ribbon G.I. Education Enhancement Program

    Section 108 would amend title 38, United States Code, to expand the 
Yellow Ribbon G.I. Education Enhancement Program to apply to 
individuals pursuing programs of education while on active duty, to 
recipients of the Marine Gunnery Sergeant John David Fry scholarship, 
and to programs of education pursued on half-time basis or less, and 
for other purposes.
    This would address a current statutory regulation that excludes 
eligible dependents of a servicemember killed in action from enhanced 
tuition reimbursement available through the Yellow Ribbon Program. This 
simple legislative fix will provide Fry Scholarship recipients with the 
same benefits as other Chapter 33 eligible beneficiaries and allow 
scholarship awardees access to education at Yellow Ribbon Schools.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\12\
---------------------------------------------------------------------------
    \12\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 108.

    Section 109. Additional authorized transfer of unused Post-9/11 
Educational Assistance benefits to dependents upon death of originally 
designated dependent

    Section 109 would permit reassignment of veterans' education 
benefits in cases where the designated beneficiary passes away. 
Unfortunately, it took a tragic event to realize the necessity for this 
change.
    In 2012, 16-year old Shauna Hill died in a two-car crash. Her 
father, retired Navy Capt. Edward Hill had granted Shauna his education 
benefits to his daughter to go to college. After her death, Mr. Hill 
had hoped to transfer this education benefit to his younger daughter, 
however, was informed that federal law prohibits transferring GI Bill 
benefits from one child to another post-retirement. Section 109 is a 
common sense bill aimed at making the lives easier for veterans who 
have chosen to gift their hard-earned education benefit.
    However, The American Legion requests another technical correction 
for transferred GI Bill Benefits concerning survivors. If a service 
member transfers their GI Bill while alive and subsequently passes, the 
family is prohibited from adjusting the number of months of benefits 
allotted to each family member. As Congress reviews improvements to 
legislation affecting the families who have sacrificed the most, it 
must not forget about this technical oversight.
    Resolution No. 308: Amending the Eligibility for the Transfer for 
the Post-9/11 GI Bill supports legislation that would authorize all 
servicemembers with ten years or more of active-duty service, who are 
eligible for the Post-9/11 GI Bill educational benefits, be able to use 
the transferability entitlement to give to their immediate family 
members. \13\
---------------------------------------------------------------------------
    \13\ The American Legion Resolution No. 308 (2016): Amending the 
Eligibility for the Transfer for the Post-9/11 GI Bill Educational 
Benefits

    The American Legion supports Section 109 but requests that 
additional amendments be made to allow survivors of those who had 
transferred the GI Bill and passed to adjust the months amongst those 
---------------------------------------------------------------------------
designated.

    Section 110. Additional Educational Assistance Program of 
Department of Veterans Affairs

    The American Legion wants all veterans to succeed and would like to 
see more veterans enter Science, Technology, Engineering and Math 
(STEM) fields. This section would incentivize veterans to enter fields 
where there are critical shortages and high yearly job growth. In order 
to successfully compete on the global stage, America must determine 
innovative solutions to incentivize and promote involvement in STEM 
fields. Section 110 would introduce our country's best to meet the 
needs of this highly skilled workforce by extending the GI Bill for up 
to nine additional months of eligibility.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\14\
---------------------------------------------------------------------------
    \14\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 110.

    Section 111. Honoring the national service of members of the Armed 
Forces by elimination of time limitation for use of entitlement.

    Section 111 would give servicemembers and veterans who are eligible 
for the GI Bill an unlimited time to use to earned education benefits 
by repealing the 15-year limit. This has the potential to greatly 
increase GI Bill usage rates, and give servicemembers greater 
flexibility while pursuing educational opportunities.
    Recent research by Student Veterans of America (SVA) has produced a 
compelling case that the Post-9/11 GI Bill is fulfilling the legacy of 
the original GI Bill as being a sound investment for the country. SVA's 
recently released National Veterans Education Success Tracker (NVEST) 
has calculated a success rate for student veterans of 72%, performing 
better than their non-traditional student peers, and producing 
demonstrable results. From 2009 to 2013, the Post-9/11 GI Bill helped 
earn over 377,000 degrees and credentials, with projections exceeding 
1.4 million over ten years. \15\
---------------------------------------------------------------------------
    \15\ ``National Veteran Education Success Tracker'', Student 
Veterans of America
---------------------------------------------------------------------------
    While it is still too early to determine the usage rate of the GI 
Bill implemented in 2009 given it's 15-year limitation, historical 
trends suggest it will not be utilized by all eligible veterans. In 
2003, the Montgomery GI Bill Biennial Report to Congress cited only 59% 
of eligible servicemembers had used some or all of their benefits, a 
striking number considering eligible servicemembers had paid $1,200 to 
receive the benefit. \16\
---------------------------------------------------------------------------
    \16\ ``Hearing Before the Committee on Veterans Affairs, United 
States Senate'' May 9, 2007 Statement of Hon. Maria Cantwell, Senator 
from Washington
---------------------------------------------------------------------------
    It is clear that a reasonable explanation for the lack of usage is 
satisfaction with present educational and economic status, especially 
for military retirees. However, there is no guarantee that this will 
always be the case. For example, if a Marine Staff Sergeant who 
possesses a Bachelor's degree transitions to civilian life as a 
government contractor, the necessity to utilize the GI Bill may not 
exist initially after departing military service. However, fifteen 
years later, external circumstances and career changes may occur that 
make the GI Bill necessary to her future more than it was the day she 
transitioned from Active Duty. And as SVA's research has shown: the 
country would benefit by providing her these benefits.
    Resolution No. 312: Eliminate Delimiting Dates for the Montgomery 
GI Bill and Post-9/11 GI Bill supports lifting time constraints with 
regards to the Montgomery GI Bill and Post-9/11 GI Bill. \17\
---------------------------------------------------------------------------
    \17\ The American Legion Resolution No. 312 (2016): Eliminate 
Delimiting Dates for the Montgomery GI Bill and Post-9/11 GI Bill

---------------------------------------------------------------------------
    The American Legion supports Section 111.

    Section 112. Monthly stipend for certain members of the reserve 
components of the Armed Forces receiving Post-9/11 Educational 
Assistance.

    Section 112 prorates the monthly housing allowance for the portion 
of the month the servicemember is not on active duty by amending Title 
38, U.S.C. to clarify the eligibility for monthly stipends paid under 
the Post-9/11 Educational Assistance Program for certain members of the 
reserve components of the Armed Forces.
    Many reservists are required to routinely perform their jobs in a 
Title 10 status due to their specific job requirements and functions. 
These commonly include aircrew, intelligence personnel, and Unmanned 
Aerial Vehicle and Remote Piloted Aircraft operators. While not in a 
drill status, or if in a drill status under Title 38, an individual is 
entitled to their monthly housing allowance (MHA) and book allowance. 
When the drill status is under Title 10, the individual is entitled to 
the MHA and book allowance, but only for the first portion of the month 
up to when they entered active duty under Title 10. Therefore, if an 
individual goes on active duty on the first day of the month for three 
days, the individual does not receive any MHA or book allowance for the 
rest of that month. Just one day of Title 10 service can result in 
forfeiture of MHA and book allowance for all or most of the month. In 
order to maintain combat readiness, many reservists have to commit to a 
minimum of four training days per month in a Title 10 status. Many 
reservists are also full-time students and rely on their MHA to pay 
rent, but as a result of the current rules, they are denied their full 
MHA and book allowance, causing many members to incur thousands of 
dollars of debt. This is compounded by the fact that members of the 
reserve are used more frequently due to the increased tempo of 
operations around the world.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage. 
\18\
---------------------------------------------------------------------------
    \18\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 112.

    Section 113. Improvement of information technology of the Veterans 
Benefits Administration of the Department of Veterans Affairs

    This section would compel the Secretary of Veterans Affairs to make 
changes and improvements to the information technology system of the 
Veterans Benefits Administration to ensure that all original and 
supplemental claims for education assistance are handled 
electronically. This draft bill authorizes $30 million to the Secretary 
of Veterans Affairs to carry this out during fiscal years 2017 and 
2018.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\19\
---------------------------------------------------------------------------
    \19\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 113.

    Section 114. Department of Veterans Affairs High Technology Program

    Section 114 would direct the Secretary of Veterans Affairs to carry 
out a pilot program allowing student veterans to attend approved non-
traditional educational programs with a focus on obtaining technology 
micro-degrees. While the VA has the authority to cover costs of non-
traditional educational programs, we have seen in the past that this 
approval process has been burdensome. It is important for the VA to 
address new forms of non-traditional learning as the realm of higher 
education evolves.
    Technological micro-degrees are non-traditional degree programs 
that focus on specialized technology disciplines and typically 
comprises an accelerated education model. Veterans are prime candidates 
for the technological degree programs and can see their entire 
education covered using their earned GI Bill benefits. Currently, there 
are only a handful of non-traditional organizations offering classes 
through the current VA GI Bill process; even fewer offer non-
traditional technology programs forcing veterans to cover these costs 
on their own.
    The American Legion supports efforts in expanding educational 
assistance to non-traditional students attempting to find employment by 
earning a micro-degree in a specific field of study and applauds the 
Committee on its efforts to expand education to non-traditional student 
veterans. Although The American Legion supports the intent, we have 
concerns with Section 114.
    Oversight is needed before the VA can approve a non-traditional 
program and the State Approving Agencies (SAAs) are best equipped to 
certify these educational courses. Additionally, the provisions of this 
bill fall outside the scope of established resolutions of The American 
Legion. As a large, grassroots organization, The American Legion takes 
positions on legislation based on resolutions passed by the membership. 
With no resolutions addressing the provisions of the legislation, The 
American Legion is researching the material and working with our 
membership to determine the course of action which best serves 
veterans.

    The American Legion has no current position Section 114.

    Section 201. Work-Study Allowance

    This section would extend the authority to provide work-study 
allowance for certain activities by individuals receiving educational 
assistance by the Secretary of Veterans Affairs.
    The VA Work-Study program provides part-time employment to students 
receiving VA education benefits who attend school three-quarter time or 
more. The student may work at the school veterans' office, the VA 
Regional Office, or at approved State employment offices. Work-study 
students are paid either the State or Federal minimum wage, whichever 
is greater. Many student veterans use the work-study program as a 
supplement to pay their bills and other costs not covered by VA 
educational programs. In addition to supporting veterans education 
benefits processing, these student veterans are also establishing 
connections with their peers on campus, thereby fostering greater 
awareness of other veterans.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\20\
---------------------------------------------------------------------------
    \20\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 201.

    Section 202. Duration of educational assistance under survivors' 
and dependents' educational assistance program

    Section 202 would reduce the months of eligibility for Chapter 35, 
Survivors and Dependents Assistance from 45 months to 36 months. 
However, the provision in this section of the draft bill falls outside 
the scope of established resolutions of The American Legion. As a 
large, grassroots organization, The American Legion takes positions on 
legislation based on resolutions passed by our membership. With no 
resolutions addressing the provisions of the legislation, The American 
Legion is researching the material and working with our membership to 
determine the course of action that best serves veterans.

    The American Legion has no current position on Section 202.

    Section 203. Increase in amounts of educational assistance payable 
under survivors' and dependents' educational assistance program

    Section 203 would increase education benefits for survivors and 
dependents (Chapter 35), which currently provides the least payable 
educational assistance of any VA program. Currently, Chapter 35 
recipients are paid at the monthly rate of $788 for full-time, $592 for 
three-quarter-time, or $394 for half-time pursuit of education. This is 
in stark contrast to Montgomery GI Bill payments, which receive $1,857 
for full-time, $1,392.75 for three-quarter time, and $928.50 for half-
time enrollment. While survivors and dependents of servicemembers who 
died in the line of duty are eligible for the Post-9/11 GI Bill through 
the Gunnery Sergeant John Fry Scholarship, survivors and family members 
of veterans who are permanently and totally disabled due to a service-
related condition or of veterans who died outside the line of duty have 
a right to demand more equitable benefits.
    However, the provision in this section of the draft bill falls 
outside the scope of established resolutions of The American Legion. As 
a large, grassroots organization, The American Legion takes positions 
on legislation based on resolutions passed by our membership. With no 
resolutions addressing the provisions of the legislation, The American 
Legion is researching the material and working with our membership to 
determine the course of action that best serves veterans.

    The American Legion has no current position on Section 203.

    Section 301. State Approving Agency Funding

    State Approving Agencies are responsible for approving and 
supervising programs of education for the training of veterans, 
eligible dependents, and eligible members of the National Guard and 
Reserves. SAAs grew out of the original GI Bill of Rights from 1944. 
Though SAAs have their foundation in Federal law, SAAs operate as part 
of state governments. SAAs approve programs leading to vocational, 
educational or professional objectives. These include vocational 
certificates, high school diplomas, GEDs, degrees, apprenticeships, on-
the-job training, flight training, correspondence training and programs 
leading to required certification to practice in a profession.
    In accordance with the Jeff Miller and Richard Blumenthal Veterans 
Health Care and Benefits Improvement Act of 2016, SAAs are now 
recognized as a valuable addition to the approval process of GI Bill 
schools. The SAAs ensure that programs meet certain eligibility 
criteria, in order to see that GI Bill funds are not wasted. Their 
unique focus on how GI Bill funds are spent makes their mission 
distinct from all other oversight and approving bodies.
    In order to fulfill their additional requirements for compliance 
reviews, additional funding is required. The SAAs have far more complex 
responsibilities than the across the board certifications that existed 
pre Post-9/11 GI Bill, yet the SAAs funding has not increased since 
2005. In order to rectify this with their greater responsibilities, 
this draft bill authorizes $3 million to be appropriated for each 
fiscal year.
    The American Legion believes the $3 million increase is not 
adequate to cover the SAAs overall scope and encourages Congress to 
allocate $5 million annually for the SAAs.
    Resolution No. 304: Support Accountability for Institutions of 
Higher Education supports any legislative proposal that provides 
additional resources and increased funding for state approving 
agencies. \21\
---------------------------------------------------------------------------
    \21\ The American Legion Resolution No. 304 (2016): Support 
Accountability for Institutions of Higher Education

    The American Legion requests that this section be amended to 
---------------------------------------------------------------------------
authorize $5 million to be appropriated for each fiscal year.

    Section 302. Authorization for use of Post-9/11 Educational 
Assistance to pursue independent study programs at certain educational 
institutions that are not institutions of higher learning

    Section 302 authorizes veterans to use their GI Bill education 
benefits to continue their education for independent study programs at 
career technical education (CTE) centers. \22\ In Oklahoma alone, 
veterans have lost access to over 200 accredited educational programs, 
simply because there is a distance learning or online component. This 
section would allow veterans to take independent study programs at CTE 
centers while using their GI Bill benefits.
---------------------------------------------------------------------------
    \22\ Congressman Mullin Press Release: http://mullin.house.gov/
news/documentsingle.aspx?DocumentID=447
---------------------------------------------------------------------------
    This section would provide student veterans with an expanded scope 
and usage of the Post-9/11 GI Bill education benefits to other forms of 
postsecondary institutions. This potential legislation adds needed 
options to student-veterans in the pursuit of their educational goals.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\23\
---------------------------------------------------------------------------
    \23\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 302.

    Section 303. Provision of information on priority enrollment for 
veterans in certain courses

    This section would require that a school's priority enrollment 
policy be cataloged by the VA and added to its comprehensive policy on 
providing education information to veterans. With limited months of 
eligibility, many veterans can benefit from priority registration that 
would allow them to finish their degrees before their benefits expire. 
However due to the inherent complexities and diversity of priority 
enrollment across school types, The American Legion has cautioned 
against mandating veteran priority enrollment without the direct 
consultation of the National Association of Veterans' Program 
Administrators.
    Section 303 doesn't mandate priority enrollment but rather mandates 
that the VA collect information on the schools that provide it. This 
information can be shared with veterans through numerous outlets, most 
prominently it's GI Bill Comparison tool. This would help veterans 
become better-informed consumers as they pursue their educational 
goals.
    Resolution No. 327: Support Further Assessment and Evaluation of 
Institutions of Higher Learning to Enable Veterans to Make Informed 
Education Choices supports oversight and legislation evaluating post-
secondary education institutions on quality factors. \24\
---------------------------------------------------------------------------
    \24\ The American Legion Resolution No. 327 (2016): Support Further 
Assessment and Evaluation of Institutions of Higher Learning to Enable 
Veterans to Make Informed Education Choices

---------------------------------------------------------------------------
    The American Legion supports Section 303.

    Section 304. Limitation on use of reporting fees payable to 
educational institutions and sponsors of programs of apprenticeship

    This section increases the school reporting fee to $16 for each 
veteran, or dependent enrolled under Chapter 31, 33, 34, or 35. The 
importance of this in a historical context is important to remember. 
Reporting fees were designed to streamline efficiency, with the VA 
paying schools to certify benefits themselves instead of hiring 
additional employees to process the benefits. Since 2012, this fee has 
fluctuated between $10 and $16. Without speculating on the reasons for 
these changes, it is fair to say that they are not commensurate with 
the actual labor of schools administering these programs.
    While the reporting, reconciliation and overall cost of 
administering all programs has increased, and the burden on the 
educational institution is not business as usual, the added work effort 
has not been calculated. Also, the use of these fees should be 
designated to support the Office of Veterans' Affairs/Services and for 
professional development of the school VA Certification Officials and 
other Veterans' Program Administrators. The American Legion further 
propose that recipients of this reporting fee must match these funds to 
support veterans' services.
    However, it has been difficult to track how schools are using these 
funds. This section addresses this by mandating what shall be utilized 
solely for the making of certifications required under title 38. It 
also mandates that institutions certifying over 100 enrollees may not 
use school reporting fees for general operating funds.
    Resolution No. 333: Support Increase in Reporting Fees for 
Educational Institutions supports any legislation that increases the 
amount of the reporting fees payable to educational institutions for 
certifying officials who assist/enroll veterans receiving educational 
benefits from the Department of Veterans Affairs. \25\
---------------------------------------------------------------------------
    \25\ The American Legion Resolution No. 333: Support Increase in 
Reporting Fees for Educational Institutions

---------------------------------------------------------------------------
    The American Legion supports Section 304.

    Section 305. Training for School Certifying Officials

    The Department of Veterans Affairs identified $416 million in Post-
9/11 GI Bill overpayments in the 2014 fiscal year, affecting 
approximately one in four veteran beneficiaries and about 6,000 
schools. To identify the reasons behind this, the Government 
Accountability Office (GAO) was asked to review these overpayments and 
published an extensive report released in October of 2015. Chief among 
GAO's recommendations was granting VA explicit authority to require 
training for school officials.
    Schools cause overpayments when they make processing errors, such 
as reporting the wrong enrollment dates or billing VA for non-allowable 
fees. VA estimated that these errors account for 8% of high-dollar 
overpayment cases in fiscal years 2013 and 2014, while GAO estimated 
that they account for around $28 million of the $280 million in high-
dollar overpayments VA made in the 2014 fiscal year. According to 
interviews with staff from VA's Regional Processing Office and Debt 
Management Center, school officials without adequate training were 
cited as the primary source of the errors.
    This section will require the Secretary of Veterans Affairs, in 
consultation with the State Approving Agencies, to set forth 
requirements to train school certifying officials on proper standards 
for certifying veterans benefits.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage. 
\26\
---------------------------------------------------------------------------
    \26\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 305.

    Section 306. Extension of authority for Advisory Committee on 
Education

    Section 306 extends the authority of the VA Advisory Committee on 
Education from December 31, 2017, to December 31, 2022. This committee 
provides the VA independent analysis and advice on VA programs and has 
proven to be an important part of streamlining the implementation of 
changes to the GI Bill by taking into account effects on the ground. 
\27\
---------------------------------------------------------------------------
    \27\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage. 
\28\
---------------------------------------------------------------------------
    \28\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 306.

    Section 307. Department of Veterans Affairs provision of on-campus 
education and vocational counseling for veterans

    VA created the Veterans Success on Campus (VSOC) program as a pilot 
in 2009 to bring Vocational Rehabilitation Counselors and VA Vet Center 
Outreach Coordinators to college campuses with large veteran 
populations. The program began as a pilot on the University of South 
Florida campus and has since expanded to over 94 schools across the 
country. \29\
---------------------------------------------------------------------------
    \29\ U.S. Department of Veterans Affairs: http://
www.benefits.va.gov/vocrehab/vsoc.asp
---------------------------------------------------------------------------
    The VSOC program is a positive resource for student veterans and 
their dependents as they attend school through either the GI Bill or 
VA's Vocational Rehabilitation and Employment (VR&E) program, and gives 
individuals on-campus access to all-encompassing counseling programs.
    Authorizing on-campus educational and vocational counseling is a 
tried and true method of increasing veterans' educational success. 
However, The American Legion has concerns about its sustainability. 
Since VSOC is currently implemented by VA policy and not a statutorily 
required program, it's future is dependent on VA funding. This section 
would require the Secretary to provide these services at institutions 
of higher learning selected by the Secretary and would codify the VSOC 
program.
    The American Legion would also like to see the same education and 
vocational counseling before a veteran enters into the education realm. 
The best time to instruct a transitioning servicemember about their 
future in education and the workforce is before they transition out of 
the military. We strongly recommend applying this same language to the 
Transition Assistance Program.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill. 
\30\
---------------------------------------------------------------------------
    \30\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education

---------------------------------------------------------------------------
    The American Legion supports Section 307.

    Section 308. Provision of information regarding veteran entitlement 
to educational assistance

    School certifying officials and veteran program administrators are 
natural mentors to student veterans as they help them process their 
benefits and navigate higher education. However, by statute, they are 
missing a critical component necessary to accurately counselor veterans 
on their educational choices: the remaining benefits the veteran is 
entitled to. Without this information, the officials capacity to assist 
student veterans is greatly diminished, and could potentially lead to 
student veterans taking on unnecessary debt to complete their degree 
programs. Through the information sharing proposed in Section 308, 
these school officials can help student veterans chart the most 
efficient and cost-effective ways to utilize their benefits. \31\
---------------------------------------------------------------------------
    \31\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill.

    The American Legion supports Section 308.

    Section 309. Treatment, for purposes of educational assistance 
administered by the Secretary of Veterans Affairs, of educational 
courses that begin seven or fewer days after the first day of an 
academic term

    The VA defines a calendar week as Sunday to Saturday. According to 
the School Certifying Official Handbook, classes that begin ``after the 
first calendar week'' should be reported separately using the actual 
date each class starts. As an example: if a term starts on a Thursday, 
any course that meets for the first time on Thursday or Friday can be 
reported together, but if a course meets for the first time the 
following Monday, Tuesday or Wednesday it must be reported as a 
separate and unique term.
    This creates excess work for educational institutions and regional 
processing officers (RPOs). Separate book and tuition fee payments must 
be issued, which may lead to improper payments. Section 309 will define 
``Calendar Week'' for education benefits as ``the seven-day period 
beginning on the first day of the institution's published academic 
calendar,'' and will reduce excess work and eliminate opportunities for 
errors in tuition and fee calculations.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill.

    The American Legion supports Section 309.

    Section 401. Eligibility of reserve component members for Post-9/11 
Educational Assistance

    In the 2012 National Defense Authorization Act, authorization 
12304b was created under Title 10, which allowed reserve-component 
troops to meet the challenges around the globe by mobilizing without 
counting against caps on active forces. While this is critical to 
maintaining our national security, existing statutes do not recognize 
the service of Reservists and National Guardsmen called to mobilize on 
these orders.
    According to Title 38 of the U.S. Code, these individuals did not 
serve on ``active duty.'' Even though these troops served side-by-side 
with Active Duty servicemembers, reservists deployed under these orders 
are therefore denied benefits earned for deployments including 
healthcare (pre- and post-mobilization), retirement age reduction, pay 
differentials, and eligibility for the Post-9/11 GI Bill.
    Section 401 corrects these oversights by amending U.S.C. Titles 5, 
10, and 38 to include Sec. 12304b mobilization authority in determining 
eligibility for all servicemembers who have mobilized under these 
orders.
    Resolution No. 20: GI Bill Fairness for Wounded Servicemembers and 
Activated National Guard and Reservists supports any legislative 
proposal that provides amendments to U.S. Code Titles 5, 10, 37 and 38 
commensurate with U.S. Code Title 10 authorized service, such as 12304b 
and 12301(h), that grant Post-9/11 GI Bill benefits. \32\
---------------------------------------------------------------------------
    \32\ The American Legion Resolution No. 20 (2017): GI Bill Fairness 
for Wounded Servicemembers and Activated National Guard and Reservists

---------------------------------------------------------------------------
    The American Legion supports Section 401.

    Section 402. Time limitation for training and rehabilitation for 
veterans with service-connected disabilities

    Section 402 would apply the same 12304b corrections listed in 
Section 401 to Chapter 31, Vocational Rehabilitation and Employment.
    Resolution No. 20: GI Bill Fairness for Wounded Servicemembers and 
Activated National Guard and Reservists supports any legislative 
proposal that provides amendments to U.S. Code Titles 5, 10, 37 and 38 
commensurate with U.S. Code Title 10 authorized service, such as 12304b 
and 12301(h), that grant Post-9/11 GI Bill benefits. \33\
---------------------------------------------------------------------------
    \33\ The American Legion Resolution No. 20 (2017): GI Bill Fairness 
for Wounded Servicemembers and Activated National Guard and Reservists

    The American Legion requests that this section be amended to 
---------------------------------------------------------------------------
provide retroactive application to 12304b service.

    Section 501. Repeal inapplicability of modification of basic 
allowance for housing to benefits under laws administered by Secretary 
of Veterans Affairs

    In 2014, Congress voted to reduce the BAH rate of Active Duty 
servicemembers by 5%. According to 38 U.S. Code Sec.  3313, the monthly 
stipend for the Post-9/11 GI Bill equals as follows: the monthly amount 
of the basic allowance for housing payable under section 403 of title 
37 for a member with dependents in pay grade E-5 residing in the 
military housing area that encompasses all or the majority portion of 
the ZIP code area in which is located the institution of higher 
learning at which the individual is enrolled.
    In other words: when the DoD made their adjustments to the BAH 
rate, it should have followed that the GI Bill was adjusted as well. 
Instead, a temporary exemption was placed on Chapter 33 beneficiaries. 
Based on the language that was drafted it is clear that this waiver 
could not continue in perpetuity, but instead could be lifted so that 
the reduction could be used as an offset in future years for veterans 
programs. In the last Congress S.2921, the Vets First Act included this 
reduction as an offset for fixes to veterans programs including 12304b 
and 12301(h) orders. That bill never passed, but the exemption was 
allowed to remain in the 2017 NDAA to again be considered for 
investment in veterans programs. Based on the present statutes, it is 
close to a certainty that if legislation is not passed to invest these 
funds in Title 38 funding the same language will be applied to either 
towards deficit reduction or the Department of Defense's budget 
request.
    This provision in this section of the draft bill falls outside the 
scope of established resolutions of The American Legion. As a large, 
grassroots organization, The American Legion takes positions on 
legislation based on resolutions passed by our membership.

    The American Legion supports this section as a necessary provision 
to ensure the passage of the preceding improvements to Title 38 
education benefits.
                               Conclusion
    The American Legion thanks, this committee for the opportunity to 
elucidate the position of the over 2.2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Larry Lohmann, Assistant Director of the Legislative 
Division at The American Legion, at (202) 263-5755 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f03032027222e21210f232a2826202161203d2861">[email&#160;protected]</a>
                                 <F-dash>
                            Ashlynne Haycock

            TRAGEDY ASSISTANCE PROGRAM FOR SURVIVORS (TAPS)
    Tragedy Assistance Program for Survivors (TAPS) is the national 
organization providing compassionate care for the families of America's 
fallen military heroes. TAPS provides peer-based emotional support, 
grief and trauma resources, grief seminars and retreats for adults, 
`Good Grief Camps' for children, case work assistance, connections to 
community-based care, and a 24/7 resource and information helpline for 
all who have been affected by a death in the Armed Forces. Services are 
provided to families at no cost to them. We do all of this without 
financial support from the Department of Defense. TAPS is funded by the 
generosity of the American people.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 70,000 bereaved 
surviving family members. For more information, please visit 
www.TAPS.org.
    TAPS currently receives no government grants or funding.

Ashlynne Haycock

    Ashlynne Haycock is currently the Senior Coordinator for Education 
Support Services for Tragedy Assistance Program for Survivors (TAPS). 
She is the surviving daughter of US Army SFC Jeffrey Haycock, who died 
in the line of duty in 2002, and US Air Force Veteran Nichole Haycock, 
who died by suicide in 2011. She graduated from American University 
with a Bachelor's degree in Political Science in 2013. While at 
American University she was one of the first recipients of the Marine 
Gunnery Sergeant John Fry Scholarship.
    Ashlynne has been involved with TAPS as a survivor for over 15 
years. She has been on staff with TAPS for four years and was 
instrumental in creating the TAPS Education Support Services program 
and online education portal. She is an experienced professional in all 
areas of education benefits for surviving children and spouses at the 
federal, state and private levels. Ashlynne is regularly invited to 
participate in forums focusing on veteran and survivor education 
benefits. She has assisted over 1,500 survivors in accessing education 
benefits worth over $100 million in assistance since 2013. Ashlynne was 
highly involved in growing the partnership with the Department of 
Veterans Affairs in 2014 to create a Memorandum of Agreement which was 
recently expanded in 2017.
    Chairman Roe, Ranking Member Walz and distinguished members of the 
Veterans Affairs Committee, the Tragedy Assistance Program for 
Survivors (TAPS) thanks you for the opportunity to make you aware of 
issues and concerns of importance to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD) and 
the Department of Veterans Affairs (VA), state governments and local 
communities for the families of the fallen--those who fall in combat, 
those who fall from invisible wounds and those who die from illness or 
disease.
    We thank you for the provisions included in the Jeff Miller and 
Richard Blumenthal Veterans Health Care and Benefits Improvement Act of 
2016 including the expansion of eligibility for the Marine Gunnery 
Sergeant John David Fry Scholarship for spouses and clarification of 
eligibility for in-state tuition benefits for those using the Fry 
Scholarship. We are grateful for the Committee's focus on improving 
survivor benefits.
    We are most appreciative of the opportunity to comment on 
provisions included in the Harry W. Colmery Veterans Educational 
Assistance Act of 2017.
    TAPS would like to recognize the outstanding support we receive 
from the Department of Veterans Affairs (VA) on behalf of the survivors 
we serve. For several years we were honored to have a Memorandum of 
Agreement (MoA) with the education specialists in the office of 
Economic Opportunity in the Veterans Benefits Administration enabling 
TAPS and the VA to work most efficiently in solving problems that 
surviving spouses and children encountered while accessing their VA 
education benefits. This relationship also allowed the VA to discover 
areas where policy or procedural processes could be improved so they 
could serve survivors more effectively.
    The VA Office of Survivor Assistance, including director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DoD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
    TAPS was recently honored to enter into a new and expanded 
Memorandum of Agreement with the Department of Veterans Affairs. VA 
Secretary Shulkin and TAPS President Bonnie Carroll signed the MOA on 
April 12 at a ceremony attended by many of the same survivors who will 
benefit from it. This agreement formalizes what has been a long-
standing, informal working relationship between TAPS and the VA. The 
services provided by TAPS and VA are complimentary, and in this public-
private partnership each will continue to provide extraordinary 
services through closer collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Education Benefits

    TAPS appreciates the attention that the Committee has paid to 
making sure that veterans and surviving family members have access to 
quality education. Surviving family members using their education 
benefits often fall prey to many of the same challenges facing veterans 
using their benefits, whether it be unscrupulous recruiting practices 
or questionable and confusing financial aid packages. TAPS is proud to 
work with other organizations, including the American Legion, Veterans 
of Foreign Wars, Veterans Education Success, Student Veterans of 
America and the Department of Education to ensure that safeguards are 
in place to protect all recipients of education benefits from the VA.
    Indicative of the specialized support that TAPS provides is the 
education portal and individualized support on the education benefits 
available for the children and spouses of America's fallen heroes. TAPS 
staff members work with each individual to maximize the financial 
support they can receive to complete their education from both 
government and private agencies.

Working to Improve the GI Bill and the Fry Scholarship

    Most beneficial in the early months of the 115th Congress have been 
a series of meetings between the Economic Opportunity Subcommittee 
members, committee staff from both the House and Senate, and interested 
parties from the Veterans Service Organizations (VSOs), Military 
Service Organizations (MSOs), Military Family Organizations (MFOs) and 
Higher Education Associations. These meetings prompted in depth 
discussions on how the GI Bill and Fry scholarship could be improved, 
in a forum where all opinions were welcome. We appreciate that 
improvements discussed for education benefits for survivors included:

    <bullet>  expansion of the Yellow Ribbon Program to surviving 
spouse and children,
    <bullet>  increases to the amount of the tuition assistance 
provided by the VA's Dependents Educational Assistance program, and
    <bullet>  technical corrections to allow a realignment of 
transferred GI Bill benefits after the veteran has passed away or if 
the beneficiary has passed away.

    Expanded discussions in informal forums bring all organizations in 
on solving the problems and raise alternatives and possible solutions 
that could not be discovered alone. We hope these dialogues continue.

    We join with our partner organizations specifically in support of:

    <bullet>  Full eligibility under Post-9/11 Educational Assistance 
Program for members of the Armed Forces awarded the Purple Heart
    <bullet>  Eligibility for the Post-9/11 Education Assistance 
Program for those who served on active duty under section 12304(a), 
12304(b) and 12301(h) orders.
    <bullet>  Restoration of entitlement to educational assistance and 
other relief for veterans affected by school closure or disapproval.

Expansion of the Yellow Ribbon Program

    TAPS supports extending eligibility for the Yellow Ribbon program, 
which allows approved institutions of higher learning and the VA to 
partially or fully fund tuition and fee expenses that exceed the 
established thresholds under the Post-9/11 GI Bill to those survivors 
eligible for the Marine Gunnery Sergeant John Fry Scholarship.
    We hear from surviving family members about the importance of the 
Yellow Ribbon program:

From Emily McClimans, surviving child

    As a child of a fallen soldier that attends a school that accepts 
the Yellow Ribbon Program, I was ecstatic. I was so excited that there 
was a program to cover the hefty expenses that were not covered with 
the Fry Scholarship. Unfortunately, I was denied the Yellow Ribbon 
program because my father was killed in action and he's not currently 
serving. I, as a student of TCU, attend college alongside children of 
active duty servicemembers that have no worries as to how they're going 
to pay for their college education. If the Yellow Ribbon Program was 
extended to support children of fallen soldiers, I wouldn't have to 
worry about my education or whether or not I'll have enough funds for 
the next semester. Children of fallen soldiers deserve to not be 
overlooked, as our fathers and mothers are just as significant as those 
who are currently fighting. Having the opportunity to be sponsored by 
this program would alleviate stress and allow me to know that my family 
is just as important as the families with parents still fighting in the 
war.

From Stephanie Orasing, surviving spouse

    I have been a military widow since 2005. When my husband passed 
away I had a 7-month-old, 3-year-old, and a 6-year-old son. I have had 
to put many things on hold so that I could be there for my kids and 
raise them. Now that they are 12, 15, & 18, I feel it is time for me to 
go to school to get my degree so that I can show my kids that education 
is important. I have spent the past 1 year & 9 months attending a 
community college in the area and I will graduate with my Associates of 
Applied Science degree next month. But the closest University or 
College is 30 minutes away and it is private. I have applied to this 
university but the tuition is $30,000. I have been accepted but I am 
filling the paper work for financial aid because I don't know if I can 
do it financially. I am grateful for the Fry Scholarship that will pay 
$21,000 but there is a remaining balance of $9,000 that I must take a 
loan out for and I have spent my life raising my kids and don't even 
have a job to pay back this loan. I would appreciate the Yellow Ribbon 
program if they would consider helping military widows out so that we 
may have the chance to attend school and not have to have a financial 
burden held over our head.

From LaNita Herlem, surviving spouse

    Concerning the Yellow Ribbon, one of the issues I ran into was when 
I received the Fry Scholarship (which is VERY much appreciated!), I 
immediately wanted to get my masters in political science but none of 
the NC state schools near me offered it. I even looked at several 
around the state, which would have meant moving, but the closest I 
could get was Public Administration which is not what I am interested 
in. Private schools within driving distance did offer what I wanted but 
being nearly 50, I am not interested in having a mortgage-sized school 
loan, nor can I afford to pay it anyway. So I decided to take business 
classes at the local community college. Instead of a master's degree in 
political science, I will graduate next month with an associate degree 
in business which in reality means very little. . If I had access to 
the Yellow Ribbon program, I would have had the option of considering a 
private school and getting the degree I wanted.

Waiver for Distribution of the Transferred Post -9/11 GI Bill Benefits

    TAPS supports a technical correction for transferred GI Bill 
Benefits. If a service member transfers their GI Bill while alive and 
subsequently passes, no change in the number of months of the benefit 
amount allotted each family member can be made. If the service member 
or veteran were still living, they could adjust the number of months 
allotted to each family member at will.

From Coleen Bowman, surviving spouse

    I am the widow of SGM Robert Bowman. Realizing the importance of 
education, when the opportunity for transferring the Post 9/11 GI bill 
arose, my husband took advantage of the opportunity and designated 
myself and our 4 daughters to be recipients of the benefit, being told 
he could reapportion the benefit when the time for their education came 
about. Unfortunately, after exposure to environmental toxins, my 
husband succumbed to cancer in January 2013. Before he died, our then 
13 year old daughter told him ``Dad, I promise you I am going to go to 
college and do great things and make you proud.'' This daughter is now 
almost 18 years old, in her junior year of high school and doing very 
well. She is in the top 20 percent of her class and talks almost daily 
about how excited she is to go to college and the things she needs to 
do in order to get there.
    I called the VA about 8 to 10 months ago and spoke to someone about 
changing the allotted months from one child to another, or myself to my 
daughters. We had 19 months of benefits that neither I nor her sister 
would use. I was told ``The only person that can move the months of 
benefits around is the service member/veteran.'' I said ``You do 
understand he passed away in 2013?'' She said to me again ``Yes, ma'am, 
I understand but again the only person who can move the months is 
Robert Bowman.''
    I was able to deal with all of my late husband's estate, I am 
entrusted with all financial benefits for our two youngest daughters, I 
certainly should be able to manage their education benefits as well. My 
hope is that this issue can be resolved and survivors like me will be 
able to have some relief of stress in this area.

From Tammy McCracken, surviving spouse

    Colonel David McCracken served honorably in the Army and Army 
Reserves for over 20 years. During his military career, he was deployed 
multiple times; during his last tour he was activated as a reservist to 
deploy to the Middle East. Upon return from his deployment, he was 
diagnosed with brain cancer which was found to be service-connected by 
the VA because of the link to burn pit exposure in the Middle East. He 
was not on active-duty orders nor training at the time of his death due 
to illness, and his children are not eligible for the Fry Scholarship. 
As he already had a Masters degree, Col. McCracken knew he was never 
going to use his own GI Bill benefits so when transferability became an 
option he immediately transferred it to his 2 young children. He 
transferred 35 months to his son and 1 month to his daughter thinking 
he could go back and split it as they needed it later, but because he 
died of wounds from his service it is stuck split that way. Col. 
McCracken's son, Connor has received an ROTC scholarship to Embry-
Riddle Aeronautical University and would like to give all 35 of his 
months to his sister to use but because only the service member can 
make adjustments to the amount of months each dependent receives, 
Connor will have to let the 35 months he has go to waste.
    The technical fix would be to allow survivors of those who had 
transferred the GI Bill and passed to adjust the months amongst those 
designated. In discussion with committee staff, the quandary of who 
should decide on the division was raised. We suggest it could be up to 
the current possessor of the benefit to determine if and how many 
months would be transferred. This will also only impact those already 
listed as transferees; no new transferees could be added.
    TAPS also supports the authorization of the transfer of unused 
Post-9/11 Educational Assistance benefits to additional dependents upon 
the death of the originally designated dependent.

Improve Chapter 35 Survivors' and Dependents' Educational Assistance 
    (DEA) and other Educational Benefits

    Not all survivors are eligible for the Fry scholarship. Survivors 
of those veterans who die of a service connected disability or 
dependents of those who are 100 percent disabled are eligible for 
support through the Dependents' Educational Assistance (DEA) program. 
Current payments for the DEA benefits have not been increased when 
there have been significant increases to the Montgomery GI Bill or Post 
9/11 GI Bill benefits. While increases to the DEA payment are increased 
each year a percentage point or two when there is an increase in other 
federal benefits (i.e. Social Security, VA Dependency and Indemnity 
Compensation, VA Disability payments), the current payment of $1,024 a 
month does not go far in covering ever spiraling tuition costs. We 
appreciate the proposed monthly increase to the DEA payment as a great 
start towards parity.

From Carla Stumpf Patton, surviving spouse

    As a surviving family of an active duty Marine who died prior to 9/
11, an increase in Chapter 35 benefits would make a dramatic a 
difference in alleviating the financial strain associated with the 
increasing rates of college expenses for families of the fallen. 
Families like ours are often excluded from other funding programs that 
offer tremendous assistance to families post 9/11; on top of the loss 
we have experienced, this financial burden can be overwhelming. Because 
I was pregnant at the time of my husband's death and our child was born 
posthumously, it would be eighteen years before our child needed 
educational assistance and while there was some funding, it was not 
nearly enough to cover tuition rates associated with his school. We 
were excluded from other sources of funding either due to the date of 
death or due to the manner of death, leaving very few options for 
financial assistance other than private scholarships and having to take 
out large personal loans. Increasing the current benefit will address 
the cost of living and sky-rocketing college expenses our families our 
facing in the 21st century.

Elimination of Time Limitation for Use of Entitlement

    TAPS supports the elimination of the arbitrary time limit for the 
use of the education entitlement. Many surviving spouses cannot use the 
educational benefit during the time they are raising minor children. 
This would allow them the freedom to pursue their educational goals 
once their children are older.

From Jennifer Henderson, surviving spouse

    It would make a difference because I personally wouldn't feel 
rushed to get my master's out of the way and could think about my next 
move rather than jumping into something.

From Shannon Galloway, surviving spouse

    Many of us, myself included had very small children when our 
husbands passed. My daughter was significantly delayed and has special 
needs on top of that. If I didn't have the time limit, I could go back 
and get my masters. Which was always a dream of mine.

From Kathy Maiorana surviving spouse

    I became a widow at 28, with 3 kids and one on the way in 2003. The 
Fry scholarship was already a long shot for me because of the looming 
deadline for earlier post 9-11 widows. I have yet to be able to go back 
to school because I've been raising my children, alone. The elimination 
of the deadline would be a tremendous help to not only me but so many 
of my fellow widows/widowers.
    TAPS is grateful for the committee's consideration of the proposed 
legislation. This legislation protects and expands survivor benefits, 
creates new and innovative programs for veterans and helps sustain the 
GI Bill for a new generation of service members.
    It is the responsibility of the nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                   MEMBERS STATEMENTS FOR THE RECORD
                 Congresswoman Susan W. Brooks (IN-05)
    I'd like to thank Chairman Roe, Ranking Member Walz, and the 
members of the committee for their hard work on this bipartisan package 
that will reform and ultimately improve our veteran's access to GI Bill 
benefits. We owe a debt of gratitude to the brave men and women who 
served our country, and I'm proud that my bill, H.R. 1104, the Veterans 
To Enhance Studies Through (TEST) Accessibility Act, is included in 
this package.
    The Veterans TEST Accessibility Act does just what its title 
implies-it provides our veterans with simpler, fairer access to tests. 
It fixes an outdated statute that hinders rather than helps our 
veterans use their GI Bill benefits to access tests like the SAT and 
prior learning assessments. Current law requires veterans to use a full 
month of their GI Bill eligibility to be reimbursed for licensing, 
certification and national tests, regardless of how much the test 
costs. Such tests open new doors to employment and allow veterans to 
advance and enhance their education and career. Given the relatively 
low cost of many tests, it often simply isn't worth it for veterans to 
lose potential reimbursement for an entire month of other educational 
expenses, like tuition. My bill fixes that. It allows veterans to be 
reimbursed for approved licensing, certification, and national tests, 
while still eligible to use their remaining GI Bill benefits for 
additional educational expenses in the same month.
    Under the bill, a veteran can be reimbursed for an approved test at 
a pro-rated amount based on their percentage of coverage under the 
post-9/11 GI Bill. That is, they would only pay for the amount of the 
test and can still utilize the remaining eligibility they have to cover 
other educational expenses incurred that month.
    Unemployment and underemployment continue to be a concern for young 
veterans especially, and a recent CareerBuilder survey found that 22 
percent of veterans were underemployed and 20 percent were employed at 
low-paying jobs. Veterans have the skills and experience that colleges, 
universities, and employers are looking for, but face challenges that 
their civilian counterparts do not, including a lack of licensure or 
certification. This bill will give our veterans the tools they need to 
compete in the job market and help address veteran underemployment and 
unemployment. With this bill, veterans are able to take what they 
learned prior to and during their military service and use the benefits 
they have earned to advance their education and career.
    I'm also thrilled that another bill I am an original cosponsor of, 
H.R. 1989, the VET TEC Act, introduced by Leader McCarthy, is included 
in this package. Current law allows veterans to access traditional 
education through the post-9/11 GI Bill, but the VET TEC Act empowers 
veterans to leverage new education models, for example, coding boot 
camps, to attain the technological skills needed in the 21st century 
workforce. Rapid technological advancements have created jobs that our 
veterans interested in careers in the technology economy can and should 
fill. Our veterans are well equipped to learn these skills and can help 
achieve the goal of closing the skills gap.
    In closing, I'd like to again thank the Chairman, Ranking Member, 
and all of my colleagues who have contributed to this important piece 
of legislation. I'd also like to thank Congresswoman Rice for being my 
bipartisan co-lead on H.R. 1104. This bipartisan package will help our 
veterans gain access to the resources they need to make a life for 
themselves after returning to civilian life. As the number of post-9/11 
veterans continues to grow, I am pleased that this bill is moving 
forward so that the millions of veterans currently eligible can access 
the benefits they have earned and deserve.

                                 <F-dash>
                       Honorable Raul R. Labrador
    Thank you Chairman Roe and Ranking Member Walz for scheduling this 
hearing on the ``Harry W. Colmery Veterans Educational Assistance Act 
of 2017,'' which includes my bill, H.R. 1112.
    H.R. 1112 - the Shauna Hill Post 9/11 Education Benefits 
Transferability Act--is named in honor of a wonderful young woman whose 
untimely death revealed an oversight in education benefits for our 
veterans.
    I met the Hill family in 2013, when I helped present them with a 
Congressional Bronze Medal Shauna posthumously earned for public 
service, personal development and physical fitness.
    Shauna was busy working to qualify for a Congressional Silver Medal 
when she tragically died as a result of injuries suffered in an 
automobile accident in Idaho.
    Shauna was a junior at Eagle High School when she died. It's the 
same school my children attend. Shauna aspired to attend Stanford 
University and become a doctor.
    She was a competitive figure skater and ice dancer and played the 
violin in the Eagle High School Orchestra. She performed with the 
Orchestra at New York's Carnegie Hall. The accident occurred when 
Shauna was on her way home from orchestra practice.
    Her organs were donated and her parents have met the woman who 
received Shauna's heart. The couple and Shauna's sister Haley have been 
honored with the Spirit of the Red Cross award in Idaho for overlooked 
heroism.
    While presenting the Congressional Award, I learned that Shauna's 
father, Capt. Hill had retired shortly before her death. He served 28 
years as a Navy pilot and flew to protect America during three combat 
tours.
    In the months following the tragedy, Capt. Hill was working with 
the Navy in an attempt to reassign his benefits. He and his wife, 
Heidi, have a second child, Haley, who was also planning to go to 
college.
    With almost three decades of distinguished service, Capt. Hill 
qualified for full utilization of the education benefit. But the Navy 
said Haley wasn't eligible because education benefits under the GI Bill 
can't be reassigned.
    The Hills asked for my help and my staff got to work.
    Unfortunately, we found that the Navy's hands were tied. The law 
doesn't allow the transfer of education benefits after a service member 
has retired. No waivers are permitted--even in such tragic cases.
    I promised the Hills that I would seek a legislative remedy. The 
result is H.R. 1112.
    My bill amends current law to permit reassignment of veterans' 
education benefits in cases where the designated beneficiary passes 
away.
    Losing a child is the worst thing I can imagine.
    Congress surely didn't intend to exclude the ability to transfer 
benefits to a surviving child or spouse when the designated beneficiary 
passes away before being able to use the benefits. We honor those who 
serve by clearing up this inconsistency and providing some small 
measure of relief.
    Correcting this oversight will mean a great deal to the Hills. 
While the number of veterans' families affected won't be large, it will 
be a comfort to them and others facing such a terrible loss. It's the 
least we can do to show our gratitude.
    I am grateful to my cosponsors and to Sen. Mike Crapo, who has 
introduced companion legislation in the Senate.
    I also appreciate the support for this bill from several veterans 
groups including the Concerned Veterans for America, Military Order of 
the Purple Heart, Student Veterans of America, AMVETS, the Air Force 
Sergeants Association, Association of the United States Navy and the 
National Military Family Association.
    Mr. Chairman, I have a statement from Shauna's father, Capt. Edward 
Hill, and ask that it be included in the record.
    Thank you for including this important legislation in the bill 
being considered today. Mr. Chairman, I yield back.

                                 <F-dash>
                      Honorable David B. McKinley
    After many years of effort and turns in the road, we are pleased 
the Harry W. Colmery Veterans Educational Assistance Act of 2017 will 
eventually become a reality for our Veterans. I want to thank this 
committee and its staff for all your hard work and diligence to get us 
to this point today.
    The genesis for the new Edith Nourse Rogers Scholarship provided in 
the overall bill, was a result of listening to our Veterans. Since 
2011, we held over 75 meetings with veteran's groups in West Virginia. 
At one such meeting, we heard how difficult it was for a veteran to 
make the shift from the military to the academic world. We also heard 
this was especially true when it came to STEM degrees. The rigor of the 
coursework along with simply finding lab time are all contributing 
factors to why it takes longer to achieve a STEM degree. By listening 
to our veteran constituents, we were able to take their idea and turn 
it into a piece of legislation that will help all veterans.
    American businesses are looking for skilled employees who possess 
the scientific and math skills necessary to grow our economy. What 
better way to fill a high-tech job than by helping a qualified veteran 
obtain the education they need to compete for these high paying 
positions
    In today's economic environment, the high paying STEM majors will 
earn graduates an average mid-career salary of $136,000. The tax 
revenue from STEM professionals will be greater than many other majors 
provide; this program will pay for itself in many aspects. Furthermore, 
STEM majors lead to careers considered ``recession-proof'' due to the 
high demand for STEM professionals in the marketplace. Filling great 
paying American jobs with veterans is a wonderful solution.
    By continuing their education, and strengthening their skills, our 
veterans are investing in American's future. Military technical career 
training in areas such as, technicians, medics and corpsmen, engineers, 
logistics, operations, chemicals, nursing - all these and much more can 
translate into civilian jobs with training. There is no reason to waste 
the valuable training received in the military. This legislation will 
make it even easier.
    Mr. Chairman, thank you once again for all your hard work.

                                 <F-dash>
                       Honorable Markwayne Mullin
    Thank you Chairman Roe and Ranking Member Walz for your leadership 
on H.R. 3218, the Harry W. Colmery Veterans Educational Assistance Act 
of 2017. I'm grateful to this committee's for its bipartisan and 
bicameral work for our nation's veterans.
    When our men and women in uniform dedicate their lives to service, 
they earn the right to a quality education that fits into their 
lifestyle when they return home.
    Included in this legislative package is language from my bill, H.R. 
43, which amends title 38, United States Code, to authorize veterans to 
use their GI Bill education benefits to continue their education with 
independent study programs at career technical education (CTE) centers.
    In places like rural Oklahoma, this is huge for our veterans who 
aren't able to travel long distances to complete portions of their 
education. This would allow veterans to use their GI Bill benefits for 
independent study programs at Career and Technical Education centers - 
like online or distance learning - to complete their education.
    Our veterans deserve our endless gratitude for the dedication and 
sacrifices they made for our country. We can start by ensuring that 
their GI Bill benefits can be applied in a way that works for them.
    Thank you, Mr. Chairman and I yield back.

                                 <F-dash>
                           Honorable Tim Ryan
    Chairman Roe, Ranking Member Waltz, I appreciate this opportunity 
to submit a statement for record celebrating this impressive 
legislation. I appreciate your hard work, and the hard work of the 
professional staff of the House Veterans Affairs Committee, in creating 
this bipartisan bill. The close coordination with our Veteran Service 
Organizations (VSOs) resulted in a stronger, more comprehensive, and 
better bill. Engaging our VSOs in crafting legislation that impacts our 
Veterans is common sense and sets the example for us as Congress to 
follow. This bill is named to honor Veteran, American Legion leader, 
and father of the GI Bill, Harry W Colmery, and it truly meets that 
gold standard. One of our shared priorities is continuing the support 
of our Veterans' education goals, which helps reduce unemployment, 
underemployment, and homelessness for our Veterans.
    I am pleased the Veterans Affairs Committee addressed the concerns 
I raised that institutions which offer priority enrollment should offer 
this benefit to our Veterans, servicemembers, and dependents. This bill 
directs the VA to provide transparency on which educational 
institutions offer priority enrollment for Veterans, by including a VA 
Comparison Tool. This provides additional information for those 
considering using the GI Bill to understand if the schools offer this 
valuable resource to support Veterans, military members, and family 
education.
    This legislation is only the first step and I encourage all 
educational institutions to work with us in supporting Veterans, 
servicemembers and military families educational goals. Priority 
enrollment, also known as early registration, is a tool used in many 
universities to accommodate unique scheduling concerns for students, 
such as athletes, by allowing them to register for classes prior to 
open enrollment for all students. This prevents students from getting 
``locked out'' of specialty classes with limited offerings or priority 
classes with restricted seats that are required for graduation. It also 
allows the student to adjust their schedule to accommodate known 
scheduling needs.
    If a university is offering priority enrollment to accommodate 
student athletes scheduling for weekend games, it is common sense that 
it should also accommodate scheduling concerns for those who defend our 
nation. We should be doing everything in our power to make it easier 
for our men and women in uniform to get a stress free, quality 
education. Active Duty, National Guard, and Reserve servicemembers rely 
on priority enrollment to complete their education while meeting the 
demands of serving our country. This enrollment allows our 
servicemembers to fit in the classes they need around their military 
commitments including full-time work, drill weekends, or a combination 
of these concerns. The opportunity to enroll before classes get full 
also allows the men and women of our armed forces to prioritize classes 
critical to their degree before transferring duty stations or 
deployments. Conversely, during an intense military operational period, 
the servicemember can stay enrolled in classes by being able to 
register for more flexible classes or subjects less challenging to the 
individual.
    For servicemembers using the GI Bill for their spouse, priority 
enrollment is an important resource to aide us in the fight to stop the 
unemployment and underemployment for our military spouses. The 
unemployment rate for military spouses is three times as high as their 
counterparts. A 2013 survey of military spouse employment by Syracuse 
University determined 90% of female spouses were underemployed. A 
recent report by the Blue Star Families indicated the cost to the 
nation of unemployment and underemployment by military spouses is well 
over half of a billion dollars a year. If the servicemember elects to 
transfer their benefits, the spouse has similar unique concerns for 
scheduling as their active duty, Reserve, National Guard, and Veteran 
counterparts. These include fitting in classes around deployments, 
permanent change of duty stations, childcare needs, and supporting 
caregiving requirements for injured and ill Veterans. These family 
members who bear a substantial cost to support their servicemembers 
career are confronted with the same time crunch to fit in classes in 
the finite window of authorized benefits. We must support their 
opportunity to re-train in a field that suites their family needs and 
our country's need for their spouse's service.
    I am grateful to be part of this bipartisan effort to support the 
unique needs of these men and women. The men and women who selflessly 
served our nation were promised an opportunity for higher education 
with the GI Bill, and this legislation would ensure that they can do so 
without delay and before their benefits expire. If a student Veteran is 
shut out of required course work prior to their benefits expiring, he 
or she may not be able to attain a degree or could be forced to pay 
tuition and fees out of pocket. If an educational program offers this 
benefit, I cannot think of a more deserving subset of students for this 
consideration than our active duty, reserve, National Guard, Veterans 
and dependent family members.
    Mr. Chairman, Ranking Member O'Rourke, thank you again for this 
impressive legislation and for allowing me to submit this statement for 
the record.

                                 <F-dash>
                    Tom Porter, Legislative Director
                                   of
                Iraq and Afghanistan Veterans of America
    Chairman Roe, Ranking Member Walz, and Members of the Committee:
    On behalf of Iraq and Afghanistan Veterans of America (IAVA) and 
our more than 425,000 members, thank you for the opportunity to share 
our views on the legislation under consideration today. For thirteen 
years, IAVA has been the preferred empowerment organization for Post-9/
11 veterans. IAVA's ``Big 4'' Policy Priorities for the 115th Congress 
are to Fully Recognize and Improve Services for Women Veterans, Defend 
Veterans Education Benefits-particularly the Post-9/11 GI Bill, VA 
Reform, and Battling Military/Veteran Suicide.
    I am pleased to offer our strong support for the Harry W. Colmery 
Veterans Educational Assistance Act of 2017 (H.R. 3218), which would 
significantly expand and improve the Post-9/11 GI Bill. We thank all 
those who worked to develop the provisions included in the bill and 
appreciate this opportunity to add remarks to the record of your July 
17 hearing on the measure.
    IAVA was a lead voice in enactment of the Post-9/11 GI Bill in 
direct response to the needs of our growing membership. After the Post-
9/11 GI Bill gave our generation an educational benefit more in line 
with that of the ``Greatest Generation'' we learned in time that some 
improvements were needed for today's veterans and worked closely with 
Members of Congress and a coalition of partners to develop and enact 
the ``GI Bill 2.0.''
    We know that the Post-9/11 GI Bill will continue to be a focus of 
Congress for better or worse, and respectfully ask that our members' 
voices be given an appropriate seat at the table, as they've had in the 
past, and be invited to testify in person at future hearings that 
involve this important benefit.
    In 2016, IAVA and other veteran service organizations fought hard 
to successfully defeat ill-advised Congressional attempts to pass new 
legislation to expand veterans programs by making cuts to the GI Bill. 
We then worked with others to block a proposal earlier this year that 
would have charged a user fee or a tax on new servicemembers to allow 
eligibility for their GI Bill. We now feel the Committee is on the most 
responsible path forward to filling important gaps in the benefit in 
addition to making holistic improvements to veteran education programs.
    The payfor in this legislation is less than ideal, but given the 
totality of the components in the bill, IAVA considers the measure a 
net gain for veterans education. We understand that it makes sense to 
many that there not be separate housing allowance tracks for active 
military and those using the GI Bill. IAVA remains strongly opposed to 
previous action by Congress to reduce the military's housing allowance 
by 5%. We are forever indebted to our armed forces personnel and, as 
they remain deployed around the world in our name to unfriendly places, 
we should absolutely not be asking them to pay out of pocket for their 
housing. IAVA calls on you to work with your colleagues to restore the 
full housing allowance for our military.
    IAVA supports or raises no objections to nearly all the components 
of the measure. Of the key provisions we support, we thank the 
committee for adding the Sec. 103 provision to provide Purple Heart 
recipients full GI Bill eligibility regardless of time served, and we 
appreciate the Sec. 108 provision to extend the Yellow Ribbon program 
to Fry Scholarship recipients. Those servicemembers and families who 
have sacrificed so much are well-deserving of these benefits.
    Members of the Reserve and Guard components should not be treated 
differently from their active duty counterparts and precluded from 
earning Post-9/11 GI Bill eligibility or the Vocational Rehabilitation 
and Employment program when serving on certain active duty orders. 
Secs. 101, 401, and 402 remove this inequity and IAVA strongly supports 
their inclusion.
    IAVA recognizes that some servicemembers may have certain 
obligations or life goals after separation from the military that 
preclude them from using their Post-9/11 GI Bill within the 15-year 
time limit. If a servicemember puts in the time and sacrifice to earn 
the full benefit, they should not be punished by having to make a ``use 
it or lose it'' decision because the government says he or she should. 
Sec. 111 is a welcome provision to ensure the ability to use the 
benefit when it is best for the veteran, not when it is best for the 
government.
    IAVA remains concerned that many schools do not have veterans' 
education outcomes at heart when they recruit them and the generous 
education benefits they bring with them. When some of these for-profit 
schools close - sometimes mid-semester - it causes enormous disruptions 
and loss of GI Bill benefit for that semester for many student vets. 
This gap in the law is wrong and needs to be corrected. Sec. 107 makes 
this badly-needed correction. However we encourage the Committee to 
return the entire GI Bill benefit used at the closed school if the 
school's credits are not able to be transferred. If a veteran uses his 
or her GI Bill benefit at one of these failing schools, and as a result 
of that closure their credits are useless, the veteran should not be 
penalized.
    In this same vein, a key change IAVA continues to support is 
closing the ``90/10'' loophole, which rewards poor-performing schools 
that intentionally target veterans for their education benefits. 
Currently, no more than 90% of a for-profit school's revenue can be 
generated by federal funds, thus requiring them to prove their value 
for the final 10% through the free market. However, because the law was 
written to exclude federal GI Bill benefits from the 90%, the 
legislative intent has not been realized and problems continue to 
persist, creating a loophole. This loophole could be closed by simply 
including VA and DoD education benefits in the category of ``government 
funds.'' We strongly encourage the inclusion of such a provision.
    Again, thank you for working to develop the Harry W. Colmery 
Veterans Educational Assistance Act of 2017. Please let me know if you 
have any questions about our position with regard to this legislation.

                                 <F-dash>
                          Kristofer Goldsmith
          Assistant Director for Policy and Government Affairs
                   Vietnam Veterans of America (VVA)
    Chairman Roe, Ranking Member Walz, and other distinguished members 
of the Committee on Veterans' Affairs, on behalf of our National 
President John Rowan, our Board of Directors, and our membership, 
Vietnam Veterans of America (VVA) thanks you for the opportunity to 
present our views for the record concerning the legislation to be 
discussed at today's hearing.
    Today the committee will discuss a bill meant to modernize and 
improve the Post-9/11 GI Bill, and hopefully come to agreement on the 
universal idea that our country should not leave behind any veteran 
deserving the support of our nation. It is the founding principle of 
VVA that Never Again Will One Generation of Veterans Abandon Another, 
which is why our members are so passionate about improving and 
protecting earned veterans' benefits that they will never use 
themselves. This founding principle has guided us to our three top 
priorities regarding the GI Bill, which we urge the committee to 
support as you work to improve this important transition benefit:

    1. Protect eligibility for the Post-9/11 GI Bill for all veterans 
with administratively rendered other than dishonorable discharges, as 
this benefit has been stolen from thousands of veterans who were denied 
eligibility without the due process rights of court martial;

    2. Eliminate the arbitrary 15-year limit on usage of the GI Bill 
benefit, which punishes those veterans who struggle in their transition 
from service, and those who transition well then face unemployment or 
underemployment; and

    3. Remove era-specific naming of educational programs so that the 
GI Bill is not destined to create disparities between current and 
future generations of veterans.

    VVA GI Bill Priority 1: Protecting GI Bill Eligibility - VVA urges 
congress to return the GI Bill to the spirit of the Servicemen's 
Readjustment Act of 1944, more popularly known as the ``GI Bill of 
Rights,'' which protected the rights and benefits of all returning 
veterans. Sadly, in recent decades, more and more veterans have been 
allowed to fall through the cracks. According to 38 U.S. Code Sec.  101 
(2):

    The term ``veteran'' is defined as an individual who served in the 
active military, naval, or air service, and who was discharged or 
released therefrom under conditions other than dishonorable.
    Why, then, does this our country deny veterans with administrative 
discharges, who were never afforded the due process rights of courts 
martial, to be denied access to veterans benefits?
    A GAO study, Actions Needed to Ensure Post-Traumatic Stress 
Disorder and Traumatic Brain Injury Are Considered in Misconduct 
Separations (GAO-17-260: Published: May 16, 2017) revealed that 57,141 
veterans, representing 62 percent of veterans separated for misconduct 
between 2011 and 2015, had before separation been diagnosed with a 
mental health condition such as PTSD or TBI. According to the GAO 
report, nearly 15 percent of all of the soldiers who left the Army in 
2011 did so with no GI Bill eligibility. Each of these veterans not 
only carries the stigma of having received a ``bad-paper'' discharge, 
but nearly all are prevented from utilizing the most important 
transition benefit, the GI Bill. Worse yet, 13,283 of those veterans 
received Other-than-Honorable discharges, and won't have access to 
nearly any basic VA service until some reach the point of suicidality. 
This is a national tragedy that must immediately be addressed by this 
Congress.
    VVA GI Bill Priority 2: Elimination of the arbitrary 15-year limit 
on eligibility - We thank the committee for including this top VVA 
priority in H.R. 3218, and will discuss this below.
    VVA GI Bill Priority 3: Era-specific naming - We will address this 
issue in the next section.
    H.R. 3218, the ``Harry W. Colmery Veterans Educational Assistance 
Act of 2017"

    Section 1. Short Title

    This section cites the short title of HR 3218, bill as the ``Harry 
W. Colmery Veterans Educational Assistance Act of 2017.''
    The name of this bill is righteous in that it memorializes Harry W 
Colmery, the American Legion National Commander credited with authoring 
the original GI Bill. VVA seeks a return to the spirit of Colmery's 
1944 ``GI Bill of Rights,'' which both empowered and protected veterans 
as they transitioned from military service.
    VVA strongly supports efforts to rebrand the GI Bill so that it is 
not, in the minds of Americans, ``a wartime benefit,'' and that it is 
instead an essential component of service in the United States 
military. After all, the United States has not officially declared war 
since 1941, when it declared war against Japan as a response to the 
attack on Pearl Harbor. Technically speaking, the conflicts in Korea, 
Vietnam, Iraq, Afghanistan, and now Syria are ``extended conflicts.'' 
In these times there are no front lines, terrorists can strike at any 
time and any place, and as a result, today and tomorrow's Active Duty, 
Reservist and National Guard troops and veterans are done a disservice 
when the name of the GI Bill implies it is for specific engagements. 
This erroneous perception is part of the reason why there are already 
loopholes in the GI Bill that makes modernization efforts increasingly 
necessary. VVA urges the committee to to take preventive measures 
against the opening of future loopholes by correcting the GI Bill in 
name and function, so that it is a benefit for service for all veterans 
who have chosen to enlist in the military, knowing full well the 
unpredictable nature of world events, emergencies and conflicts.
    Congress should strike from Title 38 the phrase ``Post-9/11'' from 
GI Bill educational benefits wherever possible. The Department of 
Veterans Affairs should be instructed to remove ``Post-9/11'' and other 
era-specific branding from regulation, websites and literature 
regarding educational benefits in order to preserve the GI Bill for 
future generations of veterans.
    Section 101. Consideration of Certain Time Spent Receiving Medical 
Care from Secretary of Defense as Active Duty for Purposes of 
Eligibility for Post-9/11 Educational Assistance.
    This section would add time spent on active duty under orders 
authorized by section 12301(h) of title 10, U.S.C., as qualifying time 
for the Post-9/11 GI Bill. These particular orders are used when a 
National Guard member or Reservist is receiving medical care or is 
recovering from injuries incurred while on active duty.
    Over the last decade, we have met scores of Reservists who have 
been held on active orders while they heal and wait for the med-board 
process to proceed apace, often separated from their families for 
months if not years at a time. For these troops held on active duty 
orders, it is eminently unfair that they are not earning eligibility 
for GI Bill benefits while those on active duty living in the same 
barracks, and assigned to the same unit, are able to do so.
    VVA also strongly supports this provision and looks forward to 
seeing these National Guard and Reserve veterans get the benefits 
warranted by their service.

    Section 102. Consolidation of Eligibility Tiers under the Post-9/11 
Educational Assistance Program of the Department of Veterans Affairs.

    This section would authorize additional GI Bill funding for members 
of the National Guard and Reserve. This section would increase the 
amount of money/eligibility that individuals receive who serve at least 
90 days but less than six months, on active duty - it would increase 
from 40 percent to 50 percent benefit payable. It would also increase 
the amount of money/eligibility that individuals receive who serve at 
least six months but less than 12 months - it would increase from 50 
percent to 60 percent benefit payable. For a student attending a 
private school, this would result in approximately $2,300 more a year 
in tuition than they are receiving now and would receive more dollars 
for their housing allowance.
    VVA supports this provision.

    Section 103. Educational Assistance Under Post-9/11 Educational 
Assistance Program for Members of the Armed Forces Awarded the Purple 
Heart.

    This section would extend full eligibility for the Post-9/11 GI 
Bill to any Purple Heart recipient since September 11, 2001.
    This provision closes an unintended loophole which denies full 
eligibility for the GI Bill for veterans who have bled for their 
country yet have not met the 36-month active duty requirement.
    VVA strongly supports this provision, but urges Congress to 
consider the disparity that remains for those who served, experienced 
invisible wounds without the recognition of a Purple Heart, and then 
were made ineligible for the GI Bill due to unfair administrative 
discharges.
    It is abundantly clear that the military is unfairly dismissing 
disabled veterans with less-than-honorable discharges in a manner that 
cripples their ability to recover. The Government Accountability Office 
``found that servicemembers diagnosed with PTSD, TBI, or certain other 
conditions can receive an `other than honorable' discharge-making them 
potentially ineligible for VA health benefits.'' While the focus of 
GAO-17-260 was the nexus of PTSD and related conditions resulting in a 
discharge denying veterans the health care they both need and deserve, 
it revealed that an outrageous number of recent veterans who suffered 
service-connected disabilities have also been denied access to the GI 
Bill.
    It would be a disgrace to many if this committee fails to address 
the denial of benefits to the tens of thousands of veterans with 
invisible injuries incurred during their service in the military.

    Section 104. Eligibility for Post-9/11 Educational Assistance for 
Certain Members of Reserve Components of Armed Forces who Lost 
Entitlement to Educational Assistance under the Reserve Educational 
Assistance Program.

    This section would allow certain members of the Reserve component 
to transfer into the Post-9/11 GI Bill who lost educational assistance 
benefits when Congress repealed the Reserve Educational Assistance 
Program (REAP).
    VVA supports this provision in that it will close another 
unintended loophole which has forced many Reservists to in effect place 
their lives on hold.

    Section 105. Calculation of Monthly House Stipend under Post-9/11 
Educational Assistance Program Based on Location of Campus where 
Classes are Attended.

    This section would change the way living stipend amounts are 
calculated, from the current rule that says the living stipend payment 
is based on where the school is located to instead having the payment 
calculated based on where the student attends the majority of classes.
    VVA supports the intent of this section, which is to ensure that GI 
Bill users receive a fair stipend to support living expenses while they 
attend school. Under current law, the VA determines Basic Assistance 
for Housing (BAH) payments to student veterans based on the Zip Code 
where the school is certified. This can create some disparity for 
veterans attending schools with multiple campuses, as BAH rates can 
vary greatly. The VA should pay BAH rates that align with the cost of 
living where the student veteran is attending school, not necessarily 
where the school is certified.
    While VVA does believe that this bill addresses an unintended 
imbalance in the way BAH rates are paid, we do have concerns about 
possible complexities arising from implementation of the bill as 
written. For example: How would this apply to a veteran attending 
classes in multiple locations at an institution that spans multiple Zip 
Codes?

    Section 106. Charge to Entitlement for Certain Licensure and 
Certification Tests and National Tests under Department of Veterans 
Affairs Post-9/11 Educational Assistance.

    This section would change the current rules that require that a 
veteran be charged a whole month of entitlement to pay for any national 
test (GMAT, GRE, SAT, etc.) or test that is required for state 
licensing. Instead of a full month of entitlement, this bill would 
require that the test be pro-rated to the amount of the actual cost of 
the test.
    VVA supports this provision which will empower veterans to use the 
GI Bill to pay for national tests and state licensing on a pro-rated 
basis in a way that avoids over-charging the GI Bill user's 
eligibility.

    Section 107. Restoration of Entitlement to Post-9/11 Educational 
Assistance for Veterans Affected by Closures of Educational 
Institutions.

    This section would restore entitlement to individuals when their 
school closes in the middle of a semester. This section would also 
authorize additional living stipend payments to be paid to students 
whose school closes in the middle of a semester for no more than four 
months, or the length of the semester, where they were attending 
training.
    The purpose of this provision is to restore eligibility for 
tuition, but not BAH, for student veterans who attended an institution 
that has unexpectedly closed. VVA supports the intent of this 
legislation, but urges the committee to amend it to restore BAH as 
well. Veterans who have had their educational paths approved and paid 
for by the VA, and who then experience a school closing, should not 
have the rug pulled out from under them.
    VVA urges that the committee take a proactive approach to 
protecting student veterans by keeping the VA from approving GI Bill 
use at institutions that have questionable practices or are at risk of 
closure. As we have expressed many times in recent years, VVA is 
concerned about abuses of the GI Bill and questionable recruiting 
practices by institutions similar to Corinthian and ITT Tech.
    According to Student Veterans of America's National Veteran 
Education Success Tracker (NVEST) Report, proprietary schools enroll 27 
percent of GI Bill students, while taking in 40 percent of total GI 
Bill funding--and only produce 19 percent of the total degree 
completions. By comparison, public schools enroll 56 percent of GI Bill 
students, take in 34 percent of total GI Bill funding, and produce 64 
percent of total degree completions.
    In recent years, proprietary schools have seen overall enrollment 
spiral down, with the proportion of GI Bill users among their student 
populations growing. In many cases, these schools are over-reliant on 
federal funding, and if GI Bill funding was considered as federal 
funding under the 90/10 rule, these entities would be far out of 
compliance.
    VVA encourages this committee to work to make sure that GI Bill 
funding is counted as federal funds as it pertains to the 90/10 rule. 
This will help ensure that student veterans are not looked at as dollar 
signs who help pad questionable programs so that they can be in 
compliance with the rather liberal 90/10 rule.

    Section 108. Inclusion of Fry Scholarship Recipients in Yellow 
Ribbon GI Education Enhancement Program.

    This section would extend the Yellow Ribbon Program to students 
receiving GI Bill payments through the Fry Scholarship program and 
those who received a Purple Heart after September 11, 2001. Fry 
recipients are surviving dependents of service members who died while 
on active duty.
    VVA strongly supports this section of the bill, which would ensure 
that survivors of troops killed in action receive the support that they 
deserve.

    Section 109. Additional Authorized Transfer of Unused Post-9/11 
Educational Assistance Benefits to Dependents upon Death of Originally 
Designated Dependent.

    This section would allow a veteran to transfer remaining months of 
GI Bill entitlement to another dependent if the dependent who 
originally received the transferred benefits dies before they can use 
all of the benefits. The section would also allow a dependent to 
transfer remaining months of GI Bill entitlement to another dependent 
after the death of the service member or veteran.
    VVA supports this section, which would ensure that GI Bill 
eligibility does not end when a military family suffers the loss of a 
transferee. Under current law, a veteran can transfer their GI Bill 
eligibility to a spouse or child. If the transferee dies, the GI Bill 
eligibility dies with them.
    This legislation honors Shauna Hill, the 16-year-old the daughter 
of retired Navy Captain Edward Hill, who was killed in a car crash in 
December 2012. Because of the rigidity of the program, due to the fact 
that Captain Hill had already separated from the Navy when Shauna died, 
he was unable to transfer the benefit to his other daughter, Haley.
    VVA is pleased that the committee is working to fix this unintended 
shortfall in the transferability program of the GI Bill.

    Section 110. Additional Educational Assistance Under Post-9/11 
Educational Assistance Program of Department of Veterans Affairs.

    This section would authorize the VA to provide additional GI Bill 
funds to help a student veteran complete a STEM degree. Veterans would 
be eligible to apply for the program, which would pay for the lesser of 
nine additional months of Post -9/11 GI Bill eligibility, or a lump sum 
of $30,000. The amount of money that could be spent on this program 
would not exceed $100,000,000 in any one fiscal year.
    VVA supports the intent of this legislation, which will empower 
veterans to pursue degrees that will allow them to reach their highest 
potential. However, VVA is weary of the idea of providing a lump sum 
payment to GI Bill recipients, and limiting the benefit to $30,000 
instead of allowing veterans to continue a five-year STEM program 
without seeing a change in benefits.
    VVA understands that the $30,000 lump sum payment and limit were 
set in order to control costs of this pilot program. However, we 
believe that this method could create significant problems for GI Bill 
users.
    VVA recommends that the committee amend this section so that a 
fifth year in pursuit of a STEM degree is provided without an arbitrary 
cap, and to remove the lump sum payment option.
    VVA hopes that the committee will recognize that other degree paths 
are valuable for GI Bill users and the economy. We encourage the 
committee to consider similar pilot programs to empower GI Bill users 
to pursue equally empowering degrees such as law, education, social 
work and those in demand for VA hiring.

    Section 111. Honoring National Service of the Members Elimination 
of Time Limitation for Use of Entitlement.

    Denying the GI Bill to a veteran because he or she was unable to, 
or chose not to, utilize the GI Bill does no good for veterans, nor for 
their families or taxpayers. While there are many reasons that a 
veteran may delay pursuing an education via the GI Bill, VVA poses 
three scenarios of veterans who are essentially punished because they 
experience a transition that does not result in their quickly going to 
school after leaving military service.
    In one scenario, if a veteran struggles to adapt to life outside 
the military due to PTSD, they may find themselves simply unable to 
enter a scholastic environment. While a service-connected disability 
may qualify a veteran for Vocational Rehabilitation, which may afford 
them access to some benefits to gain an education, this veteran would 
have lost eligibility for the GI Bill's housing stipend which is a 
large part of what makes going to school affordable for most veterans.
    In another scenario, a veteran may exit the service unable to enter 
school for years because they have children to care for, or because 
they are a caregiver to a loved one. This veteran, under current law, 
is punished for fulfilling other responsibilities because they lose 
their eligibility for the GI Bill under what is essentially an 
arbitrary time limit.
    On our final scenario, we have veterans who transition seamlessly 
out of the military and into another career. Yet, as we face an ever-
changing economy, some of these veterans are bound to lose their work 
due to technological and industrial changes. Whereas the average 
American experiences career changes five to seven times throughout 
their life, why should a veteran be denied the opportunity to retrain 
through use of the GI Bill at any of these points of career change?
    We are elated to see this committee agree that for those who become 
eligible after January 1, 2018, GI Bill recipients won't be punished 
for transitioning in a manner that fits an arbitrary timeline.

    Section 112 - Monthly Stipend for Certain Members of the Reserve 
Components of the Armed Forces Receiving Post-9/11 Educational 
Assistance.

    VVA supports this provision, which would close an unintended 
loophole that effects Reservists whose education is disrupted by their 
service commitments.

    Section 113. Improvement of Information Technology of the Veterans 
Benefits Administration of the Department of Veterans Affairs.

    This section would authorize $30 million to improve GI Bill claims 
processing and complete their rules-based processing system for these 
claims.
    VVA favors this provision. However, we believe that rather than 
enact yet more legislation, Congress ought to focus on employing its 
oversight obligations to ensure that the VA is in fact making 
improvements to its IT system.

    Section 114. Department of Veterans Affairs High Technology Pilot 
Program.

    This section would authorize VA to conduct a five-year pilot 
program that would provide veterans the opportunity to enroll in high 
technology courses (coding boot camp, IT certifications, etc.). VA 
would enter into contracts with these schools or programs and would 
provide tuition and fee payments on a sliding scale that incentivizes 
the schools to graduate the student veterans and ensure they find a job 
in their field. The section would also authorize a living stipend equal 
to the Post-9/11 rate to students while they are using the benefit.
    VVA appreciates the intent of this provision, which is to increase 
veterans' options in receiving training in emerging technological 
fields, and is thankful to see this section has improved to provide 
greater GI Bill protections. We recognize the need for flexibility in 
the GI Bill in response to an evolving economy, and thank the committee 
for this improved version of this section, based off the VET-TEC Act.
    VVA supports accountability in GI Bill programs, and appreciates 
efforts in this provision meant to ensure that benefits aren't wasted. 
However, we have concerns about possible loopholes that could be 
exploited by unethical organizations that would qualify for this 
program.
    First, VVA believes that the paragraph allowing entities that have 
only been operational for a period of two years to qualify for the 
program should be amended to require programs to have been in operation 
for at least five years prior to enactment of this bill. This would 
prevent unscrupulous actors from setting up shop today in response to 
this pilot.
    Second, we would like to see clarification of the term ``meaningful 
employment'' as it is used in Sec.114 paragraph 5. We support the 
spirit of the proposal, which aims to ensure that GI Bill users are 
trained with valuable skills. However, if the GI Bill user accepts a 
job offer in a related field with a salary that is below what the 
training entity advertised, would that qualify as ``meaningful 
employment''?
    VVA thanks the committee for amending this provision so that the 
Secretary may develop approving criteria for the program in 
consultation with state approving agencies. However, we would prefer 
the word ``shall'' be used in place of ``may.''

    Section 201. Work-Study Allowance

    This section would repeal the sunset date in the law that allows VA 
work-study benefits for outreach to student veterans and to assist 
state approving agencies.
    VVA supports this bipartisan provision, but suggests removal of the 
sunset so that the work-study program becomes permanent. An estimated 
three-fourths of GI Bill users are currently working full- or part-
time, and most have families. Work-study can provide GI Bill 
participants with much-needed stability and income. VVA thanks the 
committee for removing the sunset date of this provision.

    Section 202. Duration of Educational Assistance under Survivors' 
and Dependent' Educational Assistance Program.

    This section would change the number of months of entitlement for 
individuals who become eligible for the Survivors' and Dependents' 
Educational Assistance Program from 45 months to 36 months. This would 
re-align this program with other GI Bill programs that provide 36 
months of eligibility for educational assistance. This change would 
only apply to individuals who become entitled to this program on or 
after August 1, 2018.
    VVA supports this provision in the context of the increase in 
monthly benefits payable under the Survivors' and Dependent Educational 
Assistance Program described in section 203.

    Section 203. Increase in the Amounts of Educational Assistance 
Payable Under Survivors' and Dependent' Educational Assistance Program.

    This section would increase the payment for educational assistance 
provided under Survivors' and Dependent' Educational Assistance Program 
by $200 a month.
    VVA supports an increase in monthly payment for educational 
assistance provided under Survivors' and Dependent' Educational 
Assistance Program. This long-awaited increase, while relatively small, 
will help recipients avoid some debt incurred as they pursue higher 
education.

    Section 301. State Approving Agency Funding.

    This section would increase the funding out of VA's mandatory 
account for State Approving Agencies (SAA) from $19 million a year to 
$21 million per year. This section would also authorize VA to provide 
an additional $3 million annually to the SAAs out of the department's 
discretionary account. This section would also, beginning in fiscal 
year 2019, require VA to provide a cost of living adjustment increase 
to the SAAs budget in an amount that equals the same percentage 
increase as benefits provided under the Social Security Act.
    VVA believes that SAAs are essential partners in protecting users 
if GI Bill programs, and as such, we support Section 301 of this bill.

    Section 302. Authorization for Use of Post-9/11 Educational 
Assistance to Pursue Independent Study Programs at Certain Educational 
Institutions that are Not Institutions of Higher Learning.

    This section would allow an eligible individual to use their GI 
Bill benefit for an accredited independent study program (including 
open circuit television) at an educational institution that is an area 
career and technical education school or a post-secondary vocational 
school providing post-secondary level education.
    VVA appreciates and supports the this section, which expands 
veterans' options in education and prevent veterans from having to 
relocate or travel long distances in order to attend classes at career 
technical education (CTE) centers. However, we are concerned about 
opening additional avenues for unscrupulous actors to abuse the GI 
Bill.

    Section 303. Provision of Information on Priority Enrollment for 
Veterans in Certain Courses of Education.

    This section would require VA to include on its GI Bill Comparison 
Tool information on whether a school has a priority enrollment system 
in place that allows veterans to enroll in courses earlier than other 
students attending the school.
    VVA strongly endorses this section, which would ensure that many 
student veterans know as they are applying to schools whether or not 
they will receive the same priority registration that is often offered 
to students who play sports or are entering their senior year. Student 
veterans are by definition adults, many of whom have significant family 
and financial obligations which can be extremely burdensome. For the 
estimated 20 percent of recent combat veterans who suffer from PTSD, 
priority registration can serve as one additional way that schools can 
help to reduce their stress levels.

    Section. 304. Limitation on Use of Reporting Fees Payable to 
Educational Institutions and Sponsors of Programs of Apprenticeship.

    This section would allow VA to provide a fee to schools or a 
sponsor of a program of apprenticeship for the reports or 
certifications that these institutions are required to submit to VA 
about the individuals at their school receiving GI Bill benefits. It 
would require that VA provide $16 to the institution for each 
individual that they certify as using GI Bill benefits. This section 
would also require that schools with 100 or more enrollees using GI 
Bill benefits may not use the funds received by the institution from 
the reporting fees for the institution's general fund and that these 
funds may only be used for veterans' programs at that institution.
    VVA supports this provision. We support increasing reporting fees 
to schools, so long as there are sufficient protections in place to 
ensure that these funds are earmarked specifically to services for GI 
Bill users only. Schools should not be permitted to blend VA funding 
fees with general funds, or use VA funding for general programing. This 
provision accomplishes exactly this.
    These funding fees provide schools which have large contingents of 
GI Bill beneficiaries with ways to improve services and facilities 
dedicated to service members, veterans and their families. Many schools 
have used these funds to build and support dedicated on-campus Student 
Veteran Centers. These spaces are critical for many student veterans' 
successful transition, as they serve as a rallying point where veterans 
can find others with similar experiences and backgrounds. Veterans who 
experience camaraderie on campus are more likely to succeed in school, 
and as such, institutions collecting large sums of reporting fees 
should be encouraged to use these funds to support on-campus Student 
Veteran Centers.

    Section. 305. Training for School Certifying Officials.

    This section would require VA, in consultation with the SAAs, to 
provide requirements for training for school certifying officials at 
educational institutions that are approved for GI Bill benefits. This 
section would also allow VA to disapprove a course of study if a school 
does not ensure that the school certifying official meets the training 
requirements.
    VVA supports this provision, which increases training requirements 
for the certifying officials at schools who process GI Bill benefits. 
This provision will protect GI Bill users from processing delays and 
other errors which can significantly, and negatively, impact their 
lives.

    Section 306. Extension of Authority for Advisory Committee on 
Education.

    This section would extend by five years the authority for VA's 
Advisory Committee on Education from December 2017 through to December 
2022.
    VVA supports this common-sense provision extending the authority 
for VA's Advisory Committee on Education, but asks: Why set a new 
expiration date? The VA's Advisory Committee on Education provides an 
important way for education experts to provide the VA Secretary with 
feedback on veterans' issues in higher education. We see no reason that 
this committee should not be made permanent.
    We also suggest expanding this committee to include not just 
``veteran representatives of the Global War on Terror,'' but 
representatives of national organizations representing veterans, 
survivors and military families of all generations who have used, are 
using, or will use VA educational benefits; organizations should 
qualify for consideration of membership in this committee only if they 
have maintained a tax-deductible, not-for-profit status and have 
maintained policy-focused staff in an office in the Washington, DC 
region for at least six years.

    Section 307. Department of Veterans Affairs Provision of On-Campus 
Educational and Vocational Counseling for Veterans.

    This section would codify VA's Veterans Success on Campus (VSOC) 
program, which is administered and overseen by the Vocational 
Rehabilitation and Employment Service (VR&E). There are currently 94 
schools with a VSOC program, which provides a VR&E counselor at each 
school to assist veterans with their transition from military to 
college life. They also provide support and assistance needed to pursue 
veterans' educational and employment goals.
    VVA supports expansion of VSOC, which places experienced Vocational 
Rehabilitation Counselors (VRCs) on campuses with high populations of 
GI Bill users. VSOC counselors are an invaluable resource for student 
veterans, particularly those with service-related illnesses and 
injuries and those still struggling with their transition out of the 
military. Placing VRCs on campus increases support for veterans in ways 
that schools don't otherwise provide. VSOC counselors address questions 
regarding VA educational benefits, health services, and general VA 
benefits in addition to enrolling student veterans into the VA 
healthcare system right there on campus.
    The VSOC program, which began as a pilot in 2009, is currently on 
94 campuses. This program has proven to be extremely beneficial to 
veterans, and should be made permanent and expanded to wherever it is 
practical to do so. Placing VSOC Counselors on campuses saves GI Bill 
users countless hours traveling to VA facilities, helping them stay 
focused on their studies.
    Because VRCs currently have caseloads that far exceed recommended 
levels, VVA hopes that Congress will work with the VA to ensure that 
more VRCs are hired.

    Section 308. Provision of Information Regarding Veteran Entitlement 
to Educational Assistance.

    This section would require VA to make available to educational 
institutions the ability to view the remaining benefit amount for each 
veteran attending that institution. This section would also allow the 
veteran or their dependent (if they are a beneficiary of their GI Bill 
benefits) to opt out of the school's ability to receive such 
information from the VA.
    VVA supports this provision which will allow school certifying 
officials to provide GI Bill users more accurate counseling on 
benefits. Ensuring that GI Bill beneficiaries and certifying officials 
have information regarding eligibility ensures that veterans can plan 
their education appropriately.

    Section 309. Treatment, for Purposes of Educational Assistance 
Administered by the Secretary of Veterans Affairs, of Educational 
Courses that Begin Seven or Fewer Days after the First Day of an 
Academic Year.

    This section would provide more flexibility to school certifying 
officials if the first day of a course does not start on the first day 
of an academic term, by allowing the school certifying official to 
certify the course as beginning onthe first day of the academic term 
for purposes of certifying a veteran for GI Bill benefits.

    Section 401. Eligibility of Reserve Component Members for Post 9/11 
Educational Assistance.

    This section would make individuals eligible for Post-9/11 GI Bill 
benefits who have served and who will serve on 12304, 12304(a) and 
12304(b) orders. Any active-duty service under these Reserve component 
orders since the enactment of the Post-9/11 Veterans Educational 
Assistance Act of 2008 would apply for such benefits going forward.
    &

    Section 402. Time Limitation for Training and Rehabilitation for 
Veterans with Service- Connected Disabilities.

    This section would also make the 12304, 12304(a) and 12304(b) 
orders eligible for benefits under the Vocational Rehabilitation and 
Employment program in chapter 31 of title 38, U.S.C.
    VVA also supports sections 401 & 402, which seek to close 
unintended loopholes created by the Armed Services Committees and the 
Department of Defense in response to today's ever-changing global wars.
    VVA would appreciate if the committee would consider amending this 
legislation in a manner that would prevent DoD from creating new orders 
that put troops downrange without allowing them to earn the eligibility 
for the benefits they deserve.

    Section 501. Repeal Inapplicability of Modification of Basic 
Allowance for Housing to Benefits under Laws Administered by Secretary 
of Veterans Affairs.

    This section would be the offset for the package by realigning the 
living stipend payments for those using the Post 9/11 GI Bill (E-5 with 
dependents' rate) to the same Basic Allowance for Housing (BAH) 
payments currently paid to active-duty service members at the E-5 with 
dependents' rate. Several years ago, the annual percentage increase to 
active duty BAH payments were reduced by 1 percent a year for five 
years, but GI bill payments were exempt. This bill would re-align these 
payments so that a GI Bill recipient would receive the same living 
stipend per month as an E-5 active duty service member with dependents.
    VVA believes that BAH across active duty and GI Bill users should 
remain bound so that GI Bill recipients would receive the same living 
stipend per month as an E-5 active-duty service member with dependents. 
We believe that, in the context of this bill, the budget offset created 
by this section is appropriate as it allows other sections of this bill 
to invest in improving the GI Bill's implementation.
    In conclusion, VVA is thankful to the members of the House 
Committee on Veterans' Affairs, and to committee staff, for the time 
and dedication that it took to develop what is truly a remarkable 
bipartisan bill. We also thank Student Veterans of America and all of 
the member organizations of the informal Forever GI Bill Coalition for 
their role in seeing this bill develop. We look forward to enactment of 
, and to future efforts to expand and improve the GI Bill. Most 
importantly, we hope to see the committee address the fact that nearly 
12 percent of veterans who were discharged between Fiscal Years 2011-
2015 left the service ineligible for the GI Bill.
    VVA welcomes and will respond to any questions members of this 
committee may have.

                                 <F-dash>
                       Letter to Chairman (AUSN)
    The Honorable Gus Bilirakis
    United States House of Representatives 2112 Rayburn House Office 
Building Washington, D.C. 20515
    On behalf of the Association of the United States Navy, we would 
like to pledge our support for
    H.R. 1994.
    This bill would direct the Secretary of Veterans Affairs to make 
improvements to the information technology system of the Veterans 
Benefits Administration of the Department of Veterans Affairs.
    Thank you for taking an active role in such an important issue to 
the Military and Veteran community by working to improve the lives and 
careers of those who served our great nation. Please feel free to 
contact me with any questions or concerns at 703-548-5800 or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0964606a61686c652765607d7d656c49687c7a6727667b6e27">[email&#160;protected]</a>
    Michael J. Little
    Director of Legislative Affairs

                                 <F-dash>
             Edward H. Hill, CAPT USN (ret) & Heidi B. Hill
                    To: Congressman Raul R. Labrador
Subj: TESTIMONY IN SUPPORT OF SHAUNA HILL POST 9-11 EDUCATION BENEFITS 
                           TRANSERABILITY ACT
    The Post 9-11 GI Bill is a fantastic benefit that our country has 
provided to its veterans. We felt very fortunate to have this 
opportunity, with the plan to assign the education benefits to my 
daughter Shauna. We lost our beautiful Shauna due to an automobile 
accident on December 10, 2012. She suffered in intensive care until 
December 20th, when upon declaration of her being brain dead, we 
proceeded with an organ donation process. Her heart, kidneys and liver 
were provided to six recipients. We have met the heart recipient and to 
this day have a relationship with the young lady and her family. Shauna 
has left quite a legacy.
    After Shauna's loss, I attempted to transfer the Post 9-11 
Education benefits to my other daughter Haley. The VA said I was unable 
to do this. Apparently, I needed to allocate at least some ratio of 
benefits to every possible beneficiary if I wanted to change any 
allocation ratios later. This was not communicated at the time of my 
retirement. It was unclear why they would not make this simple change. 
The bureaucratic machine would not budge, so I decided to contact 
Congressman Raul Labrador to see if there was an alternative solution. 
The feedback from Congressman Raul Labrador's staff was nothing could 
be done. They communicated to me that the whole process seemed contrary 
to the best interests of the veterans and it made no sense that the 
policy of the assignment of benefits could be so unyielding. I 
appreciated their efforts and thanked them. I had no inclination that 
there would be any resolution to this issue and assumed that these 
benefits were lost to me permanently.
    Some months ago I was informed of the bill that Congressman 
Labrador was going to submit to Congress. I was very pleased to hear 
this as now this bureaucratic policy could be reevaluated and modified 
to help other veterans that might befall a similar tragedy and also 
suffer the inability to transfer their benefits. My other daughter has 
graduated college, so there is no reassignment available for our 
family, but there is an opportunity to fix this for another deserving 
veteran family. With all the challenges facing veterans that served in 
the conflicts over the last 15 years, it is paramount we do everything 
we can to do what is right for these great Americans and their families 
and the sacrifices they made.
    My most heartfelt thanks to Congressman Labrador and his staff for 
all their hard work in making this bill happen. I appreciate it and all 
my fellow veteran brothers and sisters do too.
    Very respectfully,
    Edward H. Hill, CAPT USN (ret)

                                 <F-dash>
                             Scott Crawford
                     HIGH GROUND VETERANS ADVOCACY
                               Regarding
   Reforming the Administration of the Joint Services Transcript and 
                 Veterans' Affairs Education Benefits.
    Chairman Roe, Ranking Member Walz, and other distinguished members 
of the Committee on Veterans' Affairs:
    Thank you for allowing me the opportunity to offer testimony 
regarding a policy that will save tax dollars, help veterans reach 
their educational goals, and prevent a substantial amount of waste 
administering Department of Veterans' Affairs (VA) educational 
benefits.
    My policy proposal focuses on the Joint Services Transcript (JST). 
The JST is a record administered by the Department of Defense that 
lists training a service member received while in the military. The 
American Council on Education (ACE) evaluates this training and 
converts it into meaningful college credit hours that a veteran can 
apply towards a degree. Over recent years, various initiatives have 
improved both access to, and the value of, the JST. Despite this, 
however, data suggest that around half of all veterans do not take 
advantage of the JST by applying it toward the degree program for which 
they use their GI Bill.
    Currently, the Department of Defense maintains an online database 
that provides easy access to a veteran's JST. \1\ The VA administers 
educational benefits by requiring that eligible veterans complete an 
authorization form for the allocation of benefits at the beginning of 
each semester. I suggest that the VA use this authorization process to 
also gain authorization to request the JST on a veteran's behalf, and 
then subsequently send the JST to the same institution at which the 
veteran requested their benefits be applied.
---------------------------------------------------------------------------
    \1\ See JST System Online at https://jst.doded.mil/
---------------------------------------------------------------------------
    After carefully evaluating the wasted benefits and tax dollars this 
inefficiency causes, it seems apparent that the following law is 
nothing short of good common sense.
    LEGISLATIVE DRAFT SUGGESTION
    S. -- -- -- -- - Joint Services Transcript Efficiency Act

    This bill will direct the Department of Veterans' Affairs to 
automatically and without undue delay send the Joint Services 
Transcript to an eligible veteran's academic institution upon receiving 
the appropriate authorization to disperse that veteran's education 
benefit to said institution.
    For the purposes of this bill:

    <bullet>  The Joint Services Transcript is the transcript 
authorized and described under 32 C.F.R. Sec.  68.3 (2014).
    <bullet>  Veteran education benefit is any education benefit 
authorized under Title 38 U.S.C.

    Discussion - Analyzing Financial Impact
    The majority of studies on which I relied during my research were 
not designed to evaluate the impact of the JST. As such, the available 
data was often incomplete or required some degree of speculation with 
respect to the likely effects of this policy. Further, other variables 
and projected benefits of this policy depend upon data that is either 
non-existent or cannot not be known until the policy is implemented. 
Acknowledging these limitations, I will do my best in the following 
paragraphs to accurately analyze the potential impact of this policy 
and identify unknown data that could affect it.
    First, it is important to understand the distinction between waste 
prevented and costs saved by this policy. Prevented waste strictly 
refers to using GI Bill benefits on education that would have been 
otherwise satisfied by the JST. Cost savings refers to actual dollars 
that would not have been paid out had the veteran applied the JST. To 
illustrate, see the following hypotheticals:

    <bullet>  ``Veteran A'' successfully transfers one semester of 
credit hours to the college she attends using the JST. As a result, 
three and a half years later she graduates a semester earlier than she 
would have otherwise and still has remaining GI Bill benefits. She 
never uses the remaining benefit. Result - One semester of cost savings 
and prevented waste.
    <bullet>  ``Veteran B'' uses the JST to successfully transfer one 
semester of credit hours to his college, but decides not to pursue a 
degree after his first semester. Result - Zero cost savings, but one 
semester of wasted benefits still prevented.
    <bullet>  ``Veteran C'' is just like ``Veteran A,'' except this 
veteran exhaust the remaining GI Bill benefit for the first semester of 
an advanced degree program. Result - Zero cost saving, but one semester 
of wasted benefit still prevented.

    Evaluation of Waste

    Every year around 200,000 student veterans use the GI Bill for the 
first time. \2\ Half of these veterans will never request that their 
JST be applied to the academic institution they attend. \3\ This policy 
will therefore primarily apply to the 100,000 who never request the 
benefit.
---------------------------------------------------------------------------
    \2\ http://benefits.va.gov/REPORTS/abr/ABR-Education-FY15-
02032016.pdf
    \3\ Military Veterans' Experiences Using the Post-9/11 GI Bill and 
Pursuing Postsecondary Education. A Study by the Rand Corporation - Pg. 
32 PDF available at http://www.rand.org/content/dam/rand/pubs/
monographs/2011/RAND--MG1083.pdf
---------------------------------------------------------------------------
    Veterans who do request the JST successfully transfer an average of 
18 credit hours. We can therefore reasonably assume that the JST will 
supplement at least one semester of college for most veterans. The cost 
of one semester of college varies significantly, but the following are 
national averages: Two-Year Public College?-?$1,750 (in-state), Four-
Year Public University?-?$5,000 (in-state), Private Non-Profit 
University?-?$17,000, and Private For-Profit University?-?$8,000. \4\
---------------------------------------------------------------------------
    \4\ National Tuition Averages available at https://
trends.collegeboard.org/college-pricing/figures-tables/average-
published-undergraduate-charges-sector-2016-17
---------------------------------------------------------------------------
    By projecting data from previous studies, we can roughly estimate 
how many veterans will attend each type of institution. Of the 100,000 
veterans who never request a JST: 10,000 will attend a two-year public 
institution, 54,000 will attend a four-year public university, 13,000 
will attend a private non-profit university, and 21,000 will attend a 
private for-profit university. Using this data, we can project a total 
cost of $676,500,000 in tuition and fees spent on 100,000 veterans for 
one semester of college. (This does not account for the Basic Housing 
Allowance (BAH) or the book stipend that the GI Bill also provides. 
These costs will be discussed in one of the following sections.)
    In sum:

    <bullet>  200,000 student veterans begin using GI Bill benefits 
every year.
    <bullet>  100,000 of these veterans never request their JST
    <bullet>  On average, each veteran would have satisfied one 
semester of school had it been requested.
    <bullet>  Result - $676,500,000 of wasted benefits are spent 
annually on tuition and fees alone.

    Before evaluating the cost of BAH and the book stipend, it is 
necessary to distinguish between those veterans who finish a degree 
program and those who do not. When evaluating the cost of BAH and the 
book stipend, this policy will have no cost savings for veterans who do 
not complete their degree program (however, it would still prevent 
wasteful spending). The money spent on BAH and the book stipend would 
have been spent regardless with no lasting, material benefit. For this 
reason, we will only account for veterans who complete their degree 
programs when evaluating cost savings in relation to BAH and the book 
stipend. 50% of veterans complete or graduate the education programs 
they enter \5\. Accordingly, we can estimate that 50,000 of the 100,000 
veterans annually who do not request their JST will complete their 
degree or program.
---------------------------------------------------------------------------
    \5\ Military Veterans' Experiences Using the Post-9/11 GI Bill and 
Pursuing Postsecondary Education. A Study by the Rand Corporation - Pg. 
32-33, PDF available at http://www.rand.org/content/dam/rand/pubs/
monographs/2011/RAND--MG1083.pdf
---------------------------------------------------------------------------
    The national BAH average in the 2015-2016 fiscal year was just over 
$1500 per month. This number will be used to evaluate cost. It should 
be noted that the actual average paid out to GI Bill beneficiaries is 
likely much higher, because veterans naturally attend schools in 
urbanized areas with a much higher BAH rate. To arrive at a more 
conservative estimate however we will assume this lower rate. For the 
purposes of this evaluation, one semester of school will equal four 
months (the average is closer to five months, but again, in the 
interest of reaching a conservative estimate). In sum, over $6,000 per 
semester is spent on BAH for every veteran. When applied to the 50,000 
veterans who complete their degree each year, this results in a sum in 
excess of $300,000,000.
    In addition, the book stipend is $500 per semester. When applied to 
50,000 veterans, this equates to another $25,000,000. Totaling 
$325,000,000 paid out annually only to those veterans who complete 
their degree program and never request the JST.
    In sum: $325,000,000 of benefits are needlessly spent of BAH and 
book stipend payments.

    Potential Cost Savings
    Considering only the 50% of veterans who finish their degree 
program, $338,250,000 of benefits are spend on tuition and fees that 
could have otherwise been satisfied had the JST been applied. Another 
$325,000,000 is needlessly spent on BAH and book stipends. If every 
veteran were like ``Veteran A'' from the hypothetical mentioned 
earlier, then this would result in a total cost saving of $663,250,000 
while still achieving the same educational goal. Of course, not every 
veteran will leave their remaining benefit unused. This unknown is the 
biggest variable with respect to the total cost savings potential of 
this policy. Next, I will address several other variables that could 
both positively and negatively impact savings.
    In Sum: Potential Cost Savings of $663,250,000 Annually

    Other variables and assumptions that will affect policy financial 
benefits.

    <bullet>  As previously mentioned, the single most important 
variable that will dictate the cost savings potential of this policy 
will be the number of veterans who leave their remaining benefits 
unused. Despite this variable negatively affecting cost savings, it 
remains a net positive. Allowing veterans the opportunity the preserve 
some of their benefit to be applied toward an advanced degree is 
exactly the kind of change we need to truly ``modernize'' the GI Bill.
    <bullet>  We cannot know that every veteran will receive 18 credit 
hours from the JST transcript. This is only an average based on the 
relevant studies and data available. Some veterans may receive far 
fewer hours. Others may have already taken basic college courses prior 
to joining the military, thus rendering some credits from the JST 
useless. On the other hand, the study from which I pulled this data was 
conducted in 2011, and since then initiatives have been implemented to 
improve the JST. Changes to the JST are ongoing to allow more academic 
credit for different types of military training. It is possible that, 
in the time intervening this study's completion, the average number of 
credit hours transferred from the JST may have increased. If this were 
the case, the financial benefits of this policy would prove even 
greater. It is my hope that as future evaluations are done to more 
accurately accredit military training, the benefits of this policy will 
correspondingly increase.
    <bullet>  Not all veterans attend education programs that would be 
affected by the type of credits on the JST. For example, many technical 
schools do not require any type of electives or basic educational 
courses (these were the types of courses in my personal experience that 
the JST fulfilled). These types of programs only account for a small 
percentage of veterans utilizing their education benefits. But, this 
would have a negative impact upon this policy's financial benefit. I do 
not suspect any such impact would be significant, however, considering 
the small number of veterans engaged in these types of programs.
    <bullet>  Of those who do request the JST, many do not do so until 
later in their academic career. Those veterans would benefit from this 
policy as well, because had the JST been transferred at the onset of 
their education, their academic advisors could have prevented them from 
taking classes that had already been satisfied by military training. 
This variable will likely increase the financial benefits of this 
policy.
    <bullet>  Research suggests that students who successfully transfer 
prior learning credit to a two-year degree program are four times more 
likely to graduate, and students in a four-year degree program are 
twice as likely to graduate. \6\ It is unclear how these increased 
graduation rates would apply to student veterans; however, this 
variable seems to indicate that more veterans would finish their degree 
programs. If we speculate that this is true, then it is plausible more 
veterans will stay in school longer, use more of their benefits than 
they would have otherwise, thus costing the VA to pay out more money in 
education benefits. While this would negatively impact the financial 
benefit of this policy, more veterans completing their degrees is a 
positive thing. Moreover, it is almost certain that any additional cost 
arising from this variable would be offset many times over by the other 
financial benefits of this policy.
---------------------------------------------------------------------------
    \6\ See PDF, Pg. 35 http://cdn2.hubspot.net/hubfs/617695/premium--
content--resources/pla/PDF/PLA--Fueling-the-Race.pdf
---------------------------------------------------------------------------
    <bullet>  My evaluation of this policy's benefits only considered 
the Post 9-11 GI Bill. While this benefit by far accounts for the 
overwhelming majority of benefits paid out, the VA spends a significant 
amount of money on others as well. This policy would also benefit those 
programs. Accordingly, this policy would have more savings and waste 
prevention if applied to other VA educational benefits.

    There are a few other variables I did not expand on, but I 
anticipate those to have a minimal affect. Further, there are 
undoubtedly issues I have failed to identify, and I encourage anyone 
involved to help identify any unknown variables.

    In Conclusion

    It is impossible to know the exact measure of positive benefits 
this policy has in store. What is apparent, is that it is a good, 
common sense measure to prevent waste, save money, and help veterans 
use their education benefits more efficiciently.
    I would like to thank Chairman Isakson, Ranking Member Tester and 
other distinguished Members of the Committee on Veterans' Affairs.
    Signed,

    For further information, contact:
    Scott Crawford
    High Ground Veterans Fellow
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee9d8d819a9ac08d9c8f9988819c8aae8d8180819ec09b9d">[email&#160;protected]</a>

                                 <F-dash>
                             Aleks Morosky
    Chairman Roe, Ranking Member Walz, and Members of the Committee, on 
behalf of the Military Order of the Purple Heart (MOPH), whose 
membership is comprised entirely of combat wounded veterans, I thank 
you for allowing us to testify today on H.R 3218, the Harry W. Colmery 
Veterans Educational Assistance Act of 2017. MOPH strongly supports 
this landmark legislation, which would accomplish many of our 
legislative goals relating to veterans' education. These include 
extending the Yellow Ribbon Program to Fry Scholarship recipients, 
granting GI Bill eligibility to Reserve Component members activated 
under 12304(a) and 12304(b) orders, restoring entitlement to education 
assistance for veterans affected by school closures, and eliminating 
the requirement that veterans use their education benefits within 15 
years of discharge. While MOPH is proud to voice our support for these 
and all other provisions of this important bill, we would like to focus 
our statement on the section that most specifically affect MOPH 
members, section 103, which would finally grant full education benefits 
to all Post-9/11 Purple Heart recipients, regardless of the amount of 
time they served on active duty.
    There is no doubt that the Post-9/11 GI Bill is among the most 
significant benefits available to current-era veterans. Its popularity 
is also without question. According to research recently published by 
Student Veterans of America, 347,564 student veterans have completed a 
total of 453,508 post-secondary certificates or degrees using the Post-
9/11 GI Bill since its inception. While it is impossible to know at 
this point what the long-term return on investment will be for the 
program, MOPH is confident that it will eventually prove to have 
contributed significantly to the American economy, similar to previous 
iterations of the GI Bill. Simply put, when a veteran's military 
experience is combined with quality higher education opportunities, 
they are bound for success.
    Still, there is room for improvement in the Post-9/11 GI Bill. 
Since it first went into effect in 2009, there have been multiple 
changes made to the program to address oversights in the original 
legislation. MOPH strongly believes that Congress should act to improve 
the Post-9/11 GI Bill once again to extend 100 percent eligibility to 
all Post-9/11 Purple Heart recipients.
    Currently, only veterans who either serve at least 36 months on 
active duty or are discharged due to a disability receive Post-9/11 GI 
Bill benefits at the 100 percent rate. Those who were not medically 
discharged and serve less than 36 months receive only a portion of the 
benefit on a prorated basis.
    MOPH strongly believes that any veteran who sheds their blood for 
our country on a Post-9/11 battlefield should be automatically granted 
the full benefit of the GI Bill that bears the name of the era in which 
they served. While we fully understand that there must be minimum 
service requirements for any benefit as generous as the Post-9/11 GI 
Bill, we firmly believe that every single current-era Purple Heart 
recipient is equally as deserving as any other servicemember, 
regardless of total time they served on active duty. Put another way, 
MOPH strongly believes that any veteran who was wounded on the 
battlefield has indeed already met the service requirement for full GI 
Bill eligibility by virtue of their personal sacrifice in our nation's 
efforts in fighting the Global War on Terror.
    According to the report issued by the Congressional Budget Office 
(CBO), it is estimated that 660 Purple Heart recipients would see 
increased GI Bill benefits each year under this bill. While this is a 
relatively low number as compared to overall GI Bill usage, we believe 
it is certainly significant enough to warrant action by Congress. CBO 
also estimates that the cost of this provision would be a relatively 
modest $65 million over the next 10 years. Still, MOPH understands that 
any new spending presents challenges in the current fiscal environment, 
and we are grateful that other provisions of H.R. 3218 fully offset the 
cost of section 103.
    MOPH suspects that the majority of Purple Heart recipients who are 
eligible for less than the full benefit are veterans of the Guard and 
Reserve. Often activated only to deploy and then deactivated once they 
return home, it is not unusual for combat veterans of the reserve 
component to amass less than 36 months of active service before they 
are discharged.
    It is also not uncommon for Purple Heart recipients not to receive 
medical discharges, even if their wounds are relatively severe. All too 
often, veterans who are wounded close to the end of their enlistments, 
or while on stop-loss, are simply discharged on schedule rather than 
initiating the lengthy medical board process necessary for a medical 
discharge. Anecdotally, we hear that this is also more common in the 
Reserve Component.
    To better illustrate our point, please consider the following 
examples:
    Servicemember A enlists in the U.S. Air Force for three years. She 
is stationed at Dover Air Force Base where she works as a pay 
distribution specialist. She serves honorably and is discharged at the 
end of her three year term having never left the United States. 
Servicemember A is eligible for the Post-9/11 GI Bill at the 100 
percent benefit level.
    Servicemember B enlists in the U.S. Navy, also for three years. He 
is stationed at Naval Station Norfolk. One year into his assignment, he 
steps in a pothole during a unit run, fracturing his ankle. His unit 
initiates a medical board and it is determined that he can no longer 
perform his duties as an electronics technician. Having never left the 
United States, Servicemember B is granted a medical discharge and 
becomes eligible for the Post-9/11 GI Bill at the 100 percent benefit 
level.
    Servicemember C is an infantryman in the Tennessee National Guard. 
After spending five years drilling with his unit, he is activated for 
the first time to deploy to Iraq at the height of the conflict. Ten 
months into his one year deployment, his night patrol is stuck by a 
command-detonated improvised explosive device, signaling the beginning 
of an ambush by insurgents. Shrapnel from the blast rips into his lips, 
exiting through his cheek and causing him to lose three teeth. After he 
and his squad suppress the enemy, he is evacuated to Baghdad where he 
receives a dozen stitches in his face, a partial denture, and a Purple 
Heart. After being allowed to convalesce for two weeks, a medical 
officer determines that he can still perform his duties as an 
infantryman. He rejoins his unit, and returns home two months later. 
Having completed his six year enlistment, he is discharged honorably. 
Since only 12 months of his service was spent on active duty, 
Servicemember C becomes eligible for the Post-9/11 GI Bill at only the 
60 percent benefit level.
    In using these examples, we are in no way implying that 
Servicemembers A and B are somehow undeserving of the benefits for 
which they qualify. All honorable service to our country is commendable 
and should be rewarded. We are only trying to illustrate how a Purple 
Heart recipient who serves less than 36 months on active duty and is 
not medically discharged is at least equally as deserving.
    However, examples of how this legislation would help Purple Heart 
recipients are not only hypothetical. Consider the case of Sergeant 
Jonathan Goldman of Boston, Massachusetts, a veteran of the U.S. Marine 
Corps Reserve and Operation Iraqi Freedom. On September 4, 2006 while 
serving in Iraq with the 1st Battalion, 25th Marine Regiment, 
Jonathan's vehicle was struck by an improvised explosive device, 
injuring him and two other Marines. For his wounds, included a 
concussion, burns to his face and arm, an ankle injury, and shrapnel to 
his left knee, he was awarded the Purple Heart. Fortunately, he was 
able to remain with his unit, which redeployed November of 2006, at 
which time he was separated from active duty. Although he spent a total 
of six years in the Marine Corps Reserve, less than one year of that 
time was on active duty, while deployed to Iraq. As a result, Jonathan 
qualified for only 60 percent of the Post-9/11 GI Bill.
    Another example is that of Sergeant Adrian Aranda of El Paso, 
Texas. Adrian served a total of four years on active duty in the United 
States Marine Corps, separating in June 2002, and was among the first 
U.S. service members to deploy to Afghanistan following 9/11. On 
December 16, 2001, while serving with the 15th Marine Expeditionary 
Unit, his foot patrol was struck by a land mine, wounding him and two 
other Marines. For his injuries, which included shrapnel wounds to his 
left arm, back, and both legs, a fractured left hand, minor burns, 
hearing impairment, and a traumatic brain injury, he was awarded the 
Purple Heart. Following his recovery, Adrian was separated honorably 
from the Marine Corps the following year. However, since most of his 
time on active duty was served prior to September 11, 2001, he was 
awarded only 50 percent of the Post-9/11 GI Bill.
    In our view, our nation must do better by wounded warriors like 
Jonathan and Adrian. Although they were both eventually able to 
complete degrees using the diminished GI Bill eligibility, they both 
suffered unnecessary financial hardships in doing so. We believe it is 
also worthy to note that being wounded on the battlefield tends to 
present additional readjustment challenges for transitioning veterans, 
and we believe that Congress and the American people must do all they 
can to ensure Purple Heart recipients have access to the best 
educational opportunities possible when they return home. In light of 
this, MOPH strongly urges the Committee to advance the Harry W. Colmery 
Veterans Educational Assistance Act of 2017 without delay.
    Chairmen Roe, Ranking Member Walz, this concludes my statement. On 
behalf of the Order, I thank you for the opportunity to submit our 
statement, and would be happy to answer any questions for the record 
that you or other Members of the Committee may have.

                                 <F-dash>
            National Guard Association Of The United States
    July 17, 2017
    Dear Chairman Roe, Ranking Member Walz, and other distinguished 
members of the House Veterans' Affairs Committee:

Introduction:
    On behalf of the almost 45,000 members of the National Guard 
Association of the United States and the nearly 500,000 soldiers and 
airmen of the National Guard, we deeply appreciate this opportunity to 
share with you our thoughts on the Harry W. Colmery Veterans 
Educational Assistance Act of 2017 for the record. We also thank you 
for the tireless oversight you have provided to ensure accountability 
and improve our nation's services to veterans and their families.
    In my testimony, I would like to focus on a key provision this 
legislation seeks to correct, which has plagued the soldiers and airmen 
of the National Guard since 2012. I would like to express my deepest 
gratitude to this Committee for its bipartisan efforts in proposing a 
resolution to ensure Post-9/11 G.I. Bill eligibility for members of the 
National Guard when deployed under 10 U.S.C. Sec. 12304b status. This 
is not just a benefit-parity issue. It is a question of fairness. 
Passing this bill will not only help ensure the men and women of the 
National Guard accrue Post-9/11 G.I. Bill benefits in the same manner 
as their active duty counterparts but will further support the soldiers 
who protect our nation.

Duty Status Reform and Benefit Parity:

    Since our inception in 1878, ensuring benefit eligibility and 
equity for the men and women of the National Guard has been one of 
NGAUS' primary functions. I would be remiss if I did not point out that 
historically, benefits for servicemembers, most notably through the 
1944 G.I. Bill, were not constructed nor viewed as entitlements. 
Rather, the G.I. Bill and related legislative efforts were solely 
focused on reintegrating the men and women of the armed forces 
following the horrors of World War II and helping them to become 
successful, contributing members of American society.
    Since establishing the 12304b authority in 2012 to give Combatant 
Commanders greater authority to utilize the Reserve Component, 
thousands of our members have been deployed on operations to support 
the Multinational Force Observers mission in the Sinai, Egypt, NATO's 
Operation Joint Guardian in Kosovo, and most recently the European 
Reassurance Initiative countering Russian aggression in Eastern Europe. 
The Guard and Reserve forces have provided a cost-effective means of 
meeting the needs of Combatant Commanders and have provided important 
experience and expertise. We are also aware of the Department of 
Defense's continued utilization of this authority as evidenced by 
proposed increases in Guard and Reserve deployments under 12304b moving 
forward.
    However, when the 12304b authority was established, it failed to 
make important changes to 5 U.S.C., 37 U.S.C., 38 U.S.C. and 10 U.S.C. 
As such, health, education, leave, pay, and retirement benefits equal 
with active component troops serving the same functions have been 
denied to Guard and Reserve Component soldiers serving under the 12304b 
authority. While our constituency wants to serve in any capacity, we 
believe that they should be afforded benefits such as: tuition 
assistance, early retirement credit, transitional healthcare access, 
and Post-9/11 G.I. Bill benefits currently not funded under 12304b 
status.
    I also want to reiterate the linkage between the 12304b benefit 
inequity and the readiness of our Guard and Reserve Component soldiers 
and airmen. If the next 15 years in utilization of the Guard and 
Reserve look anything like the past 15 years, the likelihood is that 
these soldiers and airmen and the members of the other services are 
going to be incredibly busy in virtually every corner of the globe. 
Unless people dig into the intricacies of all the benefits that they 
are not being afforded under this status, they may not understand that 
it turns into a readiness issue. As these soldiers and airmen come out 
of one mobilization, as they are going through the reintegration 
process, they are actually preparing and becoming ready for the next 
mobilization. This is an issue that the country needs to pay closer 
attention to because the readiness of those forces are intrinsically 
tied to the benefits that they are not currently receiving under 12304b 
orders.
    As you know, the National Defense Authorization Act of 2016 
requires the Department of Defense to consolidate the thirty-two 
statutory authorities by which members of the reserve component may be 
ordered to perform duty. While we appreciate the Department's ongoing 
efforts, NGAUS remains deeply concerned that the implementation of duty 
status reform will take numerous years and prevent thousands of 
additional Guardsmen and Reservists from receiving the same benefits as 
their active duty counterparts.
    While the Harry W. Colmery Veterans Educational Assistance Act of 
2017 does not correct every facet of benefit disparity for Guardsmen 
and Reservists deployed under 12304b orders, we are extremely grateful 
that this legislation includes full eligibility for the Post-9/11 G.I. 
Bill for those who have served under 12304b, 12304a and 12301h orders. 
Furthermore, NGAUS appreciates the inclusion of a provision to provide 
full Post-9/11 G.I. Bill eligibility to Purple Heart Recipients. I 
would also like to endorse the provision in the proposed legislation 
that would increase eligibility for those who have served less than 36 
months on active duty service by eliminating the 40% tier and bumping 
these individuals up to the 50% tier while making the current 50% tier 
equal to 60%. This will have a positive impact for thousands of our 
members and greatly improve their educational opportunities.

Conclusion:

    I thank you all again for allowing NGAUS to submit written 
testimony to this Committee and for your introduction of the Harry W. 
Colmery Veterans Educational Assistance Act of 2017. We urge your 
colleagues in the House to pass this crucial legislation that will 
correct numerous benefit inequities and provide increased educational 
opportunities for our citizen-soldiers. I look forward to continuing 
our work together and cannot thank you enough for your steadfast 
leadership in advocating for the men and women of the National Guard.

                                 <F-dash>
                    Veterans Education Success (VES)
 H.R. XXXX, the ``Harry W. Colmery Veterans Educational Assistance Act 
                                of 2017"
    Chairman Roe, Ranking Member Walz and Members of the Committee on 
Veterans Affairs,
    Veterans Education Success (VES) appreciates the opportunity to 
share its views on H.R. XXXX, the ``Harry W. Colmery Veterans 
Educational Assistance Act of 2017'' under consideration at today's 
hearing.
    VES is a nonprofit 501c(3) organization dedicated to protecting the 
integrity and promise of the GI Bill and other federal educational 
programs for veterans and service members; and, supporting student-
veterans who have lost GI Bill entitlement through no fault of their 
own either because they were defrauded or their school closed.
    VES receives no grants or funding from the Federal Government.
    VES is very grateful to the leadership, Members and staff of the 
Committee for its extraordinary work on this landmark legislation. In 
concert with 37 other veteran and military groups, we particularly are 
thankful for the Sections concerning:

    <bullet>  defrauded veterans at closed schools (with modification) 
- Section 107
    <bullet>  Purple Heart recipient entitlement--Section 103
    <bullet>  National Guard / Reserves call-up entitlement - Sections 
101, 402 and 403, and
    <bullet>  A Yellow Ribbon matching authority for the Fry 
Scholarship program for Survivors - Section 108

    We are also deeply appreciative of the unprecedented extension of 
unused GI Bill benefits over the lifetime of future veterans. These and 
other improvements in the legislation honor the legacy of the creator 
of the historic WWII GI Bill, Harry W. Colmery of the American Legion.

    COMMENT ON SELECTED PROVISIONS IN THE ``HARRY W. COLMERY VETERANS 
EDUCATIONAL ASSISTANCE ACT OF 2017

    Section 101. Consideration of Certain Time Spent Receiving Medical 
Care from Secretary of Defense as Active Duty for Purposes of 
Eligibility for Post-9/11 Educational Assistance.

    This section would add time spent on active duty under orders 
authorized by section 12301(h) of Title 10, U.S.C., as qualifying time 
for the Post-9/11 GI Bill. These particular orders are used when a 
National Guardsman or Reservist is receiving medical care or is 
recovering from active duty wounds, illness or injury. VES strongly 
supports Section 101.

    Section 102. Consolidation of Eligibility Tiers under Post-9/11 
Educational Assistance Program of the Department of Veterans Affairs.

    This section would authorize additional GI Bill funding for members 
of the National Guard and Reserve. This section would increase the 
amount of money/eligibility that individuals receive who serve at least 
90 days but less than 6 months on active duty from 40% to 50% benefit 
payable. It would also increase the amount of money/eligibility that 
individuals receive who serve at least 6 months but less than 12 months 
from 50% to 60% benefit payable. VES supports Section 102.

    Section 103. Educational Assistance Under Post-9/11 Educational 
Assistance Program for Members of the Armed Forces Awarded the Purple 
Heart.

    This section would extend full eligibility for the Post-9/11 GI 
Bill to any Purple Heart recipients since September 11, 2001.
    Currently, only veterans who serve either at least 36 months on 
active duty or are medically 1retired receive Post-9/11 GI Bill 
benefits at the 100 percent rate. Those who were not medically retired 
and serve less than 36 months receive only a portion of those benefits 
on a prorated basis. Unfortunately, this leaves out many Purple Heart 
recipients, particularly from the Reserve Component, who were wounded 
on Post-9/11 battlefields, but were activated for less than three years 
in total. VES strongly supports Section 103.

    Section 104. Eligibility for Post-9/11 Educational Assistance for 
Certain Members of Reserve Components of Armed Forces who Lost 
Entitlement to Educational Assistance under Reserve Educational 
Assistance Program.

    This section would allow certain members of the Reserve component 
to transfer into the Post-9/11 GI Bill who lost educational assistance 
benefits when Congress repealed the Reserve Educational Assistant 
Program (REAP). VES strongly supports Section 104.

    Section 105. Calculation of Monthly Housing Stipend under Post-9/11 
Educational Assistance Program Based on Location of Campus where 
Classes are Attended.

    This section would change the way living stipend amounts are 
calculated, from the current rule that says the living stipend payment 
is based on where the school is located to instead having the payment 
calculated based on where the student attends the majority of their 
classes. VES is grateful to the Committee for its attention to the 
problem of predatory colleges gaming the housing allowance to induce 
enrollments. VES is concerned that the current bill is still open to 
abuse by bad-actor schools. VES suggests, as an alternative, that the 
Committee direct VA to review its present methodology and make 
recommendations to Congress within three months of the date of 
enactment of this legislation.

    Section 106. Charge to Entitlement for Certain Licensure and 
Certification Tests and National Tests under Department of Veterans' 
Affairs Post-9/11 Educational Assistance.

    This section would change the current rules that require veterans 
be charged an entire month of entitlement to pay for any national test 
(GMET, GRE, SAT etc.) or test that is required for state licensing. 
Instead of a full month of entitlement the bill would require that the 
test be pro-rated to the amount of the actual cost of the test. VES 
supports Section 106.

    Section 107. Restoration of Entitlement to Post-9/11 Educational 
Assistance for Veterans Affected by Closures of Educational 
Institution.

    This section would restore one semester of entitlement to 
individuals when their school closes during the course of a semester. 
This section would also authorize additional living stipend payments to 
be paid to students whose school during the course of a semester for no 
more than 4 months, or the length of the semester, where they were 
attending training.
    VES is appreciative of the Committee's desire to help defrauded 
veterans at closed schools. Thousands of student veterans and their 
families who were enrolled in ITT Tech and Corinthian colleges, now 
closed, have lost vital GI Bill benefits through no fault of their own.
    It is worth bearing in mind that, at the time of its closure, ITT 
Tech credits were generally not respected or accepted for transfer by 
other schools. Indeed, the event precipitating ITT's closure (namely, 
the Education Department's request for an additional letter of credit 
and demand that ITT stop enrolling new students) was imposed because 
ITT had failed to answer ITT's accreditor's demand that ITT ``show 
cause'' why it should remain accredited, in light of evidence of 
substandard quality.
    This provision is in need of a technical fix because ITT Tech 
closed in-between terms, not during the course of the term. Therefore, 
ITT Tech student-veterans would not be authorized the relief envisioned 
in the provision, contrary to the Committee's intent.
    Moreover, VES respectfully submits that the Committee's 
reinstatement of only one semester of entitlement is insufficient to 
veterans who have lost their entire GI Bill through no fault of their 
own. Thirty-eight leading veterans and military service organizations 
wrote to the Committee on June 5, 2017 \1\, asking the Committee to 
favorably report HR 1216, which reinstates full GI Bill benefits to 
veterans at closed schools - and the letter recommended to make it 
retroactive to also cover veterans at shuttered Corinthian Colleges.
---------------------------------------------------------------------------
    \1\ See Letter to Chairman Phil Roe and Ranking Member Tim Walz 
from 38 veterans and military service organizations, June 5, 2017, 
available at https://static1.squarespace.com/static/
556718b2e4b02e470eb1b186/t/59358ee63e00be856f3addb6/1496682216257/
GI+Bill+2017+Asks+-+letter--signed.pdf
---------------------------------------------------------------------------
    As an alternative, VES respectfully urges the Committee to consider 
mirroring the U.S. Education Department's method of handling Closed 
School Discharges of student loans (available at 34 CFR 685.214). The 
Education Department's policy for students with Title IV loans makes 
sense: no loan discharge if a student benefited from the credits he 
earned at the closed school either through a teach-out arranged by the 
school or by transferring those credits to a comparable program at a 
new school. For veterans who were enrolled in closed schools, this 
would translate to reinstatement of GI Bill benefits under Title 38. 
The veteran would get total reimbursement of her GI Bill if she enjoyed 
no benefit from the closed-school credits. It would enable veterans who 
are left behind with lost GI Bill benefits to start over, as other 
students can, and reach their goals.
    VES has been in contact with nearly 1,000 veterans from ITT Tech 
and Corinthian, and is advising them on actions they may be able to 
take regarding their benefits.
    Veterans regularly describe to VES various false statements that 
their school made in order to persuade them to enroll. For example, 
many veterans describe how their school inflated its job placement 
rates or the efforts it puts into finding students jobs. Many also 
report that their school misled them about the accreditation status of 
its programs or whether its credits transfer to other schools. Many 
veterans describe how their school promised them that the GI Bill would 
cover their entire education, only to be told later that they would 
need to take out loans in order to complete their education. Some even 
describe learning that officials at their school falsified federal aid 
applications by forging their names on loan applications.
    One veteran told us that his school said it had a 93% job placement 
rating, and promised that he would have access to a nationwide network 
of employers. That veteran told us, ``It wasn't until near the end of 
my schooling that I began to realize that a lot of the training I was 
getting was outdated, in some instances by a few years, and that I had 
a long way to go until I was up to par with the industry standards. I 
also found out that . . . my program had a success rate of only 38%. I 
have student loans that I am going to be paying off for years and 
really I have nothing to show for it.''
    Another veteran, Travis, attended ITT Tech. Travis asks, ``Why was 
I getting outdated material? Why were instructors not even competent in 
what they teach? How could I know more about the subject than my own 
instructor? This was MADNESS!'' He goes on, ``What more can we do about 
this because at the end of the day the veterans are the ones taking the 
biggest hit! Lost GI Bill that we can't recoup, lost time away from 
family and friends and nothing to show for it! What about my time going 
to this school, sleepless nights studying for exams and finals, driving 
to school, driving home from school? As Veterans, the Education system 
has to do more for us! They should give us our time back towards our GI 
Bill that was used. Maybe in the future they will look more into these 
schools so this type of thing never happens again!"
    Those veterans are just a few examples of thousands who served 
their country, chose to use the educational benefits they earned in the 
military in order to transition into civilian life, yet later 
discovered that their school defrauded them, provided a subpar 
education, and in some cases could not even keep its doors open. Along 
with wasting their GI Bill benefits, many of these veterans are now 
saddled with overwhelming student loan debt. As Travis told us, ``It's 
affecting me as well as other veterans. Sometimes just dwelling on it 
brings me to tears because, in reality, at the end of the day, you 
honestly feel like a failure. You try so hard to get your education in 
order and then this happens.''
    VES respectfully recommends the Committee allocate funding from the 
`STEM' provision (Section 110) to provide fuller reinstatement of 
benefits. VES can support a modified Section 107 as discussed above.

    Section 108. Inclusion of Fry Scholarship Recipients in Yellow 
Ribbon GI Education Enhancement Program.

    This section would extend the Yellow Ribbon Program to students 
receiving GI Bill payments through the Fry Scholarship program and 
those who received a Purple Heart after September 11, 2001. Fry 
recipients are surviving dependents of servicemembers who died while 
serving on active duty. VES strongly supports Section 108.

    Section 109. Additional Authorized Transfer of Unused Post-9/11 
Educational Assistance Benefits to Dependents upon Death of Originally 
Designated Dependent.

    This section would allow a veteran to transfer remaining months of 
GI Bill entitlement to another dependent if the dependent who 
originally received the transferred benefits dies before that person 
can use all of the benefits. The section would also allow a dependent 
to transfer remaining months of GI Bill entitlement to another 
dependent after the death of the servicemember or veteran. VES supports 
Section 109.

    Section 110. Edith Nourse Rogers STEM Scholarship.

    This section would authorize VA to provide additional GI Bill funds 
to certain student veterans enrolled in academic programs in science, 
technology, engineering or math degrees. They would be eligible to 
apply for the program, which would pay for the lesser of nine 
additional months of Post-9/11 GI Bill or a lump sum of $30,000. The 
amount of money that could be spent on this program would not exceed 
$100,000,000 in any one fiscal year. The estimated cost of Section 110 
is approximately $1 billion over ten years.
    VES remains concerned about the STEM provision and believes it 
fundamentally alters the longstanding principle of equal benefits for 
equal service rendered to the nation by members of our Armed Forces.
    VES appreciates the intent of this provision. It would further the 
career goals of certain veterans who pursue STEM degrees and 
potentially benefit the economy over time. These are certainly laudable 
goals.
    However, the provision would overturn a fundamental principle of 
all GI Bill programs extending back more than 70 years, namely, that 
all veterans are entitled to the same basic benefits under the GI Bill 
for the same service rendered to the nation.
    With those benefits, veterans are free to pursue any course of 
study or training approved for the GI Bill that meets their personal 
and career needs. No veteran should get additional basic benefits on 
the basis of their field of study or training.
    Section 110 would establish a policy that alters this longstanding 
principle of benefit equity. In effect, it would say that some fields 
of study are inherently more valuable, thereby relegating non-STEM 
pursuit to a lesser level of importance to the nation.
    A second order consequence of the provision is that lawmakers may 
be tempted in the future to lower (or raise) entitlement to the GI Bill 
based on the attributed worth of a program of study. What happens, for 
example, if STEM degrees fall out of favor or are not seen as important 
to the economy as business degrees, for example?
    Similarly, an unintended consequence of the Section may be to 
incentivize colleges to artificially increase their tuition, fees and 
credit requirements. Thus, this provision may create waste, fraud, and 
abuse - all to the benefit of bad actors. Predatory schools have been 
known in the past to artificially increase their tuition to take 
advantage of additional benefits. This was well-documented following 
the Vietnam War and more recently.
    We note that the nation's finest STEM programs such as at the 
Massachusetts Institute of Technology and Carnegie Mellon do not 
require additional time to graduate, raising the question of the 
necessity of this provision.
    There is also a current mechanism for the proposed objective - 
additional entitlement - at least in part. Veterans with multiple GI 
Bill program entitlement may use up to 48 months of benefits. For 
example, Montgomery GI Bill (Chap. 30, 38 USC) participants can use up 
to 12 months of entitlement and make an irrevocable election for the 
P911 GI Bill benefit and have 36 months of remaining entitlement for a 
total of 48 months of benefits. In fairness to all veterans, Section 
107 should be reconciled with current statutory authorities on multiple 
benefit program entitlement.
    Finally, VES is concerned that Section 110 creates a permanent 
authority for STEM enhanced benefits under new Section 3320, 38 USC. 
Over time, we believe the mere assumption that a STEM program benefit 
hike is deserved or needed will be challenged by veterans taking other 
courses of study. After all, a recent study showed that 53% of GI Bill 
users graduate with a degree in business. Are they less worthy of 
enhanced benefits?
    If the Committee proceeds with this initiative, VES respectfully 
recommends as an alternative a 5-year pilot program along the lines of 
the ``coding boot camps'' provision in Section 114 to measure degree 
completions and employment outcomes in STEM fields.
    VES also respectfully recommends that some of the funding for 
Section 110 - approximately $1 billion over 10 years - be applied to 
fully restore lost entitlement for defrauded student veterans (Section 
107) and to increase entitlement for Survivors under Section 203.
    VES is unable to support Section 110.

    Section 111. Honoring the national service of members of the Armed 
Forces by elimination of time limitation for use of entitlement.

    This section would eliminate the current time limitation to use the 
GI Bill for new members of the Armed Forces. Student veterans currently 
have 15 years from the date of their last active duty discharge to use 
the benefit.
    This provision offers enormous potential for supporting future 
veterans over their lifetime by allowing them to apply unused GI Bill 
entitlement at various times as their careers, personal needs and 
aspirations change.
    The provision also offers an historic opportunity for the Armed 
Forces to offer a more compelling enlistment incentive for young 
Americans contemplating military service. VES strongly supports Section 
111.

    Section 112. Monthly Stipend for Certain Members of the Reserve 
Components of the Armed Forces Receiving Post-9/11 Educational 
Assistance.

    This section would require VA to pro-rate the GI Bill housing 
stipend provided to National Guard and Reserve members who are called 
up for active duty during the middle of a month. Current law prohibits 
them from pro-rating the stipend so if the reservist is on active duty 
orders for even one day of a month they lose the entire months' worth 
of VA housing allowance. VES supports Section 112.

    Section 113. Improvement of Information Technology of the Veterans 
Benefits Administration of the Department of Veterans Affairs.

    This section would authorize $30 million to improve GI Bill claims 
processing and complete their rules-based processing system for these 
claims. VES recommends the Committee ensure the $30 million funding for 
upgrading educational claims processing technologies is earmarked so 
that the Dept. of Veterans Affairs is prohibited from applying the 
funding elsewhere in the general operating accounts of the Dept. VES 
supports Section 113.

    Section 114. Department of Veterans Affairs High Technology Pilot 
Program.

    This section would authorize VA to conduct a 5-year pilot program 
that would provide veterans the opportunity to enroll in high 
technology courses (coding boot camp, IT certifications etc.). VA would 
enter into contracts with these schools or programs and would provide 
tuition and fees payments on a sliding scale that incentivizes the 
schools to graduate the student and ensure they find a job in their 
field of study. The section would also authorize a living stipend 
payment equal to the Post-9/11 rate to students while they are using 
the benefit. Section 114 does not alter GI Bill statutes under Title 38 
since the VA will manage the pilot programs directly with contractors. 
VES appreciates the Committee's inclusion of some quality controls in 
the authorizing language. VES respectfully urges the Committee to 
require VA to develop criteria to preclude participation in the pilot 
by low-quality coding boot camp programs. This can be done without 
burdening VA by requiring VA to limit its selection to programs that 
submit evidence to VA their program is recognized and accepted by 
leading technology employers as sufficient for employment in the field 
of study.
    VES also suggests that the 3-year report to Congress, like the 5-
year report to Congress, include whether graduates obtained employment 
for at least 6 months, and, in both the 3-year and 5-year reports, that 
employment be clarified to mean ``in the field of study.''
    VES supports Section 114 provided the additional safeguards noted 
above are added.

    Section 201. Work Study Allowance

    This section would repeal the sunset date in the law that allows VA 
work-study benefits for outreach to student veterans and to assist 
State Approving Agencies. VES supports this provision.

    Section 202. Duration of Educational Assistance under Survivors' 
and Dependent' Educational Assistance Program (DEA).

    This section would change the number of months of entitlement for 
individuals who become eligible for the Survivors' and Dependents' 
Educational Assistance Program from 45 months to 36 months. This would 
re-align this program with other GI Bill programs that provide 36 
months of eligibility for educational assistance. This change would 
only apply to individuals that become entitled to this program on or 
after August 1, 2018.
    VES notes that the original intent for a 45-month pro-rated 
entitlement was to enable Survivors coping with their loss while often 
juggling multiple career and family responsibilities to complete their 
educations or training. VES recommends the Committee carefully consider 
the views of the Tragedy Assistance Program for Survivors (TAPS) on 
Section 202.

    Section 203. Olin E. Teague Increase in the Amounts of Educational 
Assistance Payable Under Survivors' and Dependent' Educational 
Assistance Program (DEA).

    This section would increase the monthly payment for educational 
assistance provided under Survivors' and Dependent' Educational 
Assistance Program by $200 a month.
    When Congress enacted the Post 9/11 GI Bill in 2008, it also 
increased Montgomery GI Bill (MGIB) benefits by 20%. Because no 
matching increase was made to DEA, Survivors and their dependents were 
left behind. Over time, the value of their benefits has fallen further 
behind since the annual COLA adjustments, if any, are applied to a 
smaller base amount. VES strongly supports Section 203. We also 
recommend an additional increase to DEA to close the gap with the MGIB 
by re-allocating some funding from the STEM provision - Section 110 - 
to this section (See comment on Section 110).

    Section 301. State Approving Agency Funding.

    This section would increase the funding out of VA's mandatory 
account for the State Approving Agencies (SAA) from $19 million a year 
to $21 million a year. The section also would authorize VA to provide 
an additional $3 million a year to the SAAs out of the Department's 
discretionary account; and, beginning in fiscal year 2019, require VA 
to provide a cost of living adjustment increase to the SAAs budget in 
an amount that equals the same percentage increase as benefits provided 
under the Social Security Act. VES strongly supports Section 301.

    Section 302. Authorization for Use of Post-9/11 Educational 
Assistance to Pursue Independent Study Programs at Certain Educational 
Institutions that are Not Institutions of Higher Learning.

    This section would allow an eligible individual to use their GI 
Bill benefit for an accredited independent study program (including 
open circuit television) at an educational institution that is an area 
career and technical education school or a postsecondary vocational 
school providing postsecondary level education.
    VES is concerned that this provision unwittingly invites predatory 
behavior by schools offering subpar quality. We recommend quality 
controls be added. Specifically, the Committee should require that VA 
put the burden on the school to submit evidence that its program of 
independent study is recognized and accepted by the regional business 
area in which the student is located as sufficient for employment in 
the field of study. In addition, just as the Committee required in its 
recent Career Ready Student Veterans Act, enacted as part of the 
Miller-Blumenthal Omnibus in December 2016, the Committee should 
require that accreditation be either national or regional (since the 
current drafting would exclude regionally-accredited schools, which 
include most public and non-profit schools), and that the institution 
providing the program not provide any commission, bonus, or other 
incentive program based directly or indirectly on success in securing 
enrollments. VES does not support the provision in its current form.

    Section 303. Provision of Information on Priority Enrollment for 
Veterans in Certain Courses of Education.

    This section would require VA to include on its GI Bill College 
Comparison Tool, information on whether a school has a priority 
enrollment system in place that allows veterans to enroll in courses 
earlier than other students attending the school. VES supports Section 
303.

    Section. 304. Limitation on Use of Reporting Fees Payable to 
Educational Institutions and Sponsors of Programs of Apprenticeship.

    This section would allow VA to provide a fee to schools or a 
sponsor of a program of apprenticeship for the reports or 
certifications that these institutions are required to submit to VA 
about the individuals at their school receiving GI Bill benefits. This 
section would require VA to provide $16 to the institution for each 
individual that they certify as using GI Bill benefits at their 
institution. This section would also require that schools with 100 or 
more enrollees using GI Bill benefits, may not use the funds received 
by the institution from the reporting fees for the institution's 
general fund and that these funds may only be used for veterans 
programs at that institution. VES supports Section 304.

    Section 305. Training for School Certifying Officials.

    This section would require VA, in consultation with the SAA's, to 
provide requirements for training for school certifying officials at 
educational institutions that are approved for GI Bill benefits. This 
section would also allow VA to disapprove a course of education if a 
school does not ensure that the school certifying official meets the 
training requirements.
    Section 305 implements a GAO recommendation (GAO Report 16-42) to 
reduce the incidence of overpayments under the GI Bill. The VA 
identified $416 million in Post-9/11 GI Bill overpayments in fiscal 
year 2014, affecting approximately one in four veteran beneficiaries 
and about 6,000 schools according to the Report.
    The GAO noted that ``[O]verpayments also occur when schools make 
errors, such as reporting enrollment information incorrectly, which VA 
officials said is sometimes attributable to a lack of training. For 
example, some school officials routinely made systematic errors 
reporting enrollment information, creating thousands of dollars in 
overpayments. Not all school officials attend the different training 
opportunities VA offers and VA officials said the agency lacks the 
authority to require school officials to participate in any of them. VA 
officials said they would like school officials to take a minimum level 
of training, which could help reduce errors and related overpayments.'' 
[emphasis added]. VES strongly supports Section 305.

    Section 306. Extension of Authority for Advisory Committee on 
Education.

    This section would extend the authority for VA's Advisory Committee 
on Education from December of 2017 through to December of 2022. VES 
supports Section 306.

    Section 307. Department of Veterans Affairs Provision of On-Campus 
Educational and Vocational Counseling for Veterans.

    This section would codify VA's Veterans Success on Campus (VSOC) 
program, which is administered and overseen by the Vocational 
Rehabilitation and Employment Service (VS&E). There are currently 94 
schools with a VSOC program, which provides a VR&E counselor at each 
school to assist veterans with their transition from military to 
college life as well as who provide the support and assistance needed 
to pursue their educational and employment goals. VES supports Section 
307 and strongly recommends the Committee direct the VA to rapidly 
expand the VSOC program to campuses that have a minimum number of 
enrolled veterans.

    Section 308. Provision of Information Regarding Veteran Entitlement 
to Educational Assistance.

    This section would require VA to make available to educational 
institutions, the ability to view the remaining benefit amount for each 
veteran attending that institution. This section would also allow the 
veteran or her dependent (if they are a beneficiary of their GI Bill 
benefits) to opt out of the school's ability to receive such 
information from VA. VES supports Section 308.

    Section 309. Treatment, for Purposes of Educational Assistance 
Administered by the Secretary of Veterans Affairs, of Educational 
Courses that Begin Seven or Fewer Days after the First Day of an 
Academic Year.

    This section would provide more flexibility to the school 
certifying officials if the first day of a course does not start on the 
first day of an academic term, by allowing the school certifying 
official to certify the course as beginning on that day first day of 
the academic term for purposes of certifying a veteran for GI Bill 
benefits. VES supports Section 309.

    Section 401. Eligibility of Reserve Component Members for Post 9/11 
Educational Assistance.

    This section would make individuals eligible for Post-9/11 GI Bill 
benefits who serve under Sections 12304, 12304a or 12304b 10 USC 
orders. Any active duty service under these Reserve component orders 
retroactive to the date of enactment of the Post-9/11 Veterans 
Educational Assistance Act of 2008 would apply for such benefits going 
forward.
    In 2012 Congress authorized the Secretary of Defense and Service 
Secretaries to more easily access the Reserve forces. In addition to 
call-ups in law for ``national emergencies'' and ``contingency 
operations,'' the Pentagon may call Guard and Reserve service members 
to active duty for missions that are ``pre-planned and budgeted,'' 
i.e., such missions do not require formal action by Congress or the 
Commander in Chief.
    Since enactment of the law-change, the Services have steadily 
increased their reliance on pre-planned and budgeted call-ups of the 
Guard and Reserve. Section 401 is extremely important to the nations' 
``total force'' policy and to the morale and, ultimately, the readiness 
of our Reserve forces.
    As a matter of principle and fairness to our nation's ``operational 
Guard and Reserve'' men and women, there is no reason to exclude them 
from GI Bill entitlement simply because they serve under the `wrong' 
orders. VES strongly supports Section 401.

    Section 402. Time Limitation for Training and Rehabilitation for 
Veterans with Service-Connected Disabilities.

    This section would also make Sections 12304, 12304a and 12304b 10 
USC orders eligible for benefits under the Vocational Rehabilitation 
and Employment program in chapter 31 of title 38, U.S.C. VES strongly 
supports Section 402.
    Veterans Education Success appreciates the opportunity to submit 
our views on H.R. XXXX, the ``Harry W. Colmery Educational Benefits Act 
of 2017. VES respectfully requests inclusion of this Statement in the 
official record of this hearing; and, we thank the Chairman, Ranking 
Member and Members of the Committee for their enduring interest in and 
support of our nation's service men and women, veterans, survivors and 
their family members.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
